<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                              MEMBERS' DAY 

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 3, 2010

                               __________

                           Serial No. 111-24

                               __________

           Printed for the use of the Committee on the Budget


                       Available on the Internet:
       http://www.gpoaccess.gov/congress/house/budget/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-313 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                        COMMITTEE ON THE BUDGET

             JOHN M. SPRATT, Jr., South Carolina, Chairman
ALLYSON Y. SCHWARTZ, Pennsylvania    PAUL RYAN, Wisconsin,
MARCY KAPTUR, Ohio                     Ranking Minority Member
XAVIER BECERRA, California           JEB HENSARLING, Texas
LLOYD DOGGETT, Texas                 SCOTT GARRETT, New Jersey
EARL BLUMENAUER, Oregon              MARIO DIAZ-BALART, Florida
MARION BERRY, Arkansas               MICHAEL K. SIMPSON, Idaho
ALLEN BOYD, Florida                  PATRICK T. McHENRY, North Carolina
JAMES P. McGOVERN, Massachusetts     CONNIE MACK, Florida
NIKI TSONGAS, Massachusetts          JOHN CAMPBELL, California
BOB ETHERIDGE, North Carolina        JIM JORDAN, Ohio
BETTY McCOLLUM, Minnesota            CYNTHIA M. LUMMIS, Wyoming
CHARLIE MELANCON, Louisiana          STEVE AUSTRIA, Ohio
JOHN A. YARMUTH, Kentucky            ROBERT B. ADERHOLT, Alabama
ROBERT E. ANDREWS, New Jersey        DEVIN NUNES, California
ROSA L. DeLAURO, Connecticut,        GREGG HARPER, Mississippi
CHET EDWARDS, Texas                  ROBERT E. LATTA, Ohio
ROBERT C. ``BOBBY'' SCOTT, Virginia
JAMES R. LANGEVIN, Rhode Island
RICK LARSEN, Washington
TIMOTHY H. BISHOP, New York
GWEN MOORE, Wisconsin
GERALD E. CONNOLLY, Virginia
KURT SCHRADER, Oregon

                           Professional Staff

            Thomas S. Kahn, Staff Director and Chief Counsel
                 Austin Smythe, Minority Staff Director



















                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, March 3, 2010....................     1

Statement of:
    Hon. John M. Spratt, Jr., Chairman, Committee on the Budget..     1
        Prepared statement of....................................     1
    Hon. Harry Teague, a Representative in Congress from the 
      State of New Mexico........................................     2
        Prepared statement of....................................     4
    Hon. Madeleine Z. Bordallo, a Delegate in Congress from the 
      Territory of Guam..........................................     5
        Prepared statement of....................................     7
    Hon. Donna Christensen, a Delegate in Congress from the U.S. 
      Virgin Islands.............................................    10
        Prepared statement of....................................    12
    Hon. Pete Olson, a Representative in Congress from the State 
      of Texas...................................................    17
        Prepared statement of....................................    19
    Hon. Jason Altmire, a Representative in Congress from the 
      State of Pennsylvania......................................    20
        Prepared statement of....................................    22
    Hon. Ann Kirkpatrick, a Representative in Congress from the 
      State of Arizona...........................................    23
        Prepared statement of....................................    24
    Hon. Yvette D. Clarke, a Representative in Congress from the 
      State of New York..........................................    25
        Prepared statement of....................................    27
    Hon. David Loebsack, a Representative in Congress from the 
      State of Arizona...........................................    29
        Iowa Disaster Learning Conference........................    30
        Prepared statement of....................................    33
    Hon. Ron Klein, a Representative in Congress from the State 
      of Florida.................................................    34
        Prepared statement of....................................    36
    Hon. Bob Inglis, a Representative in Congress from the State 
      of South Carolina..........................................    37
        Prepared statement of....................................    39
    Hon. Earl Pomeroy, a Representative in Congress from the 
      State of North Dakota......................................    40
        Prepared statement of....................................    43
    Hon. Brad Sherman, a Representative in Congress from the 
      State of California........................................    44
        Prepared statement of....................................    45
    Hon. Henry C. ``Hank'' Johnson, Jr., a Representative in 
      Congress from the State of Georgia.........................    46
        Prepared statement of....................................    47
    Hon. Eliot L. Engel, a Representative in Congress from the 
      State of New York..........................................    48
        Prepared statement of....................................    50
    Hon. Danny K. Davis, a Representative in Congress from the 
      State of Illinois..........................................    51
        Prepared statement of....................................    52
    Hon. Barbara Lee, a Representative in Congress from the State 
      of California..............................................    53
        Prepared statement of....................................    54
        Congressional Black Caucus (CBC) Priorities for the FY 
          2011 Budget............................................    56
    Hon. Suzanne M. Kosmas, a Representative in Congress from the 
      State of Florida...........................................    61
        Prepared statement of....................................    62
    Hon. Bill Posey, a Representative in Congress from the State 
      of Florida.................................................    63
        Prepared statement of....................................    65
    Hon. Deborah L. Halvorson, a Representative in Congress from 
      the State of Illinois......................................    67
        Prepared statement of....................................    68
    Hon. Bob Filner, a Representative in Congress from the State 
      of California..............................................    69
        Prepared statement of....................................    70
    Hon. Betty Sutton, a Representative in Congress from the 
      State of Ohio..............................................    71
    Hon. Timothy J. Walz, a Representative in Congress from the 
      State of Minnesota.........................................    73
        Prepared statement of....................................    74
    Hon. Michael E. McMahon, a Representative in Congress from 
      the State of New York......................................    75
        Prepared statement of....................................    77
    Hon. Paul D. Tonko, a Representative in Congress from the 
      State of New York..........................................    79
        Prepared statement of....................................    81
    Hon. Mike Quigley, a Representative in Congress from the 
      State of Illinois..........................................    82
        Prepared statement of....................................    84
    Hon. James P. McGovern, a Representative in Congress from the 
      State of Massachusetts.....................................    85
        Prepared statement of....................................    86
    Hon. Dina Titus, a Representative in Congress from the State 
      of Nevada..................................................    88
        Prepared statement of....................................    89
    Hon. William Owens, a Representative in Congress from the 
      State of New York..........................................    90
        Prepared statement of....................................    91
    Hon. Betsy Markey, a Representative in Congress from the 
      State of Colorado..........................................    93
        Prepared statement of....................................    94
    Hon. Gabrielle Giffords, a Representative in Congress from 
      the State of Arizona.......................................    96
        Prepared statement of....................................    98
    Hon. Rush D. Holt, a Representative in Congress from the 
      State of New Jersey........................................    99
        Prepared statement of....................................   101
    Hon. Thomas S.P. Perriello, a Representative in Congress from 
      the State of Virginia......................................   102
        Prepared statement of....................................   104
    Hon. Carolyn McCarthy, a Representative in Congress from the 
      State of New York..........................................   104
        Prepared statement of....................................   105
    Hon. Gene Green, a Representative in Congress from the State 
      of Texas...................................................   107
        Prepared statement of....................................   108
        Letter dated February 23, 2010...........................   110
    Hon. Lynn C. Woolsey, a Representative in Congress from the 
      State of California........................................   114
        Prepared statement of....................................   115
    Hon. John L. Mica, a Representative in Congress from the 
      State of Florida...........................................   116
        Prepared statement of....................................   118
        Comments on Views and Estimates dated March 3, 2010......   120
        Letter dated March 3, 2010...............................   128
    Hon. Laura Richardson, a Representative in Congress from the 
      State of California........................................   131
        Prepared statement of....................................   133
    Hon. Gary C. Peters, a Representative in Congress from the 
      State of Michigan..........................................   138
        Prepared statement of....................................   140
    Hon. Russ Carnahan, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   142
    Hon. John Lewis, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................   144
    Hon. Melissa L. Bean, a Representative in Congress from the 
      State of Illinois, prepared statement of...................   147
    Hon. Vernon J. Ehlers, a Representative in Congress from the 
      State of Michigan, prepared statement of...................   148
    Hon. Marcia L. Fudge, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................   149
    Hon. Phil Hare, a Representative in Congress from the State 
      of Illinois, prepared statement of.........................   151
    Hon. Sheila Jackson-Lee, a Representative in Congress from 
      the State of Texas, prepared statement of..................   152
    Hon. Bennie G. Thompson, a Representative in Congress from 
      the State of Mississippi, prepared statement of............   153


                              MEMBERS' DAY

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in room 
210, Cannon House Office Building, Hon. John M. Spratt, Jr. 
[Chairman of the Committee] presiding.
    Present: Representatives Spratt, Kaptur, Blumenauer, Boyd, 
McGovern, Etheridge, McCollum, Larsen, Schrader.
    Chairman Spratt. I call the hearing to order. Today we 
convene for our annual Members' Day, a hearing to give members 
an opportunity to testify before the Budget Committee about 
priorities that are of importance to them and their 
constituency.
    As usual, we can expect a rather long day. We are scheduled 
to run until 2:30 p.m. this afternoon. It should also be an 
interesting day.
    On Members' Day, we get to hear testimony from a wide range 
of House members coming to talk to us about the budget items 
that are of particular importance to them and, of course, to 
their constituents.
    Today's testimony provides an important input to the Budget 
Committee as we move together towards markup of the annual 
budget resolution.
    A brief word about the ground rules for the day. Every 
member will have five minutes to present his or her testimony 
and respond to any questions. Your printed testimony, if 
submitted, will be incorporated in full into the record.
    The Ranking Member is not present yet. I will give him an 
opportunity to speak when he does arrive. But in the interest 
of time and getting on with the business today, I will turn to 
our first witness who is the Honorable Harry Teague.
    Mr. Teague, you may submit your statement for the record. 
You have five minutes. You can read it or summarize it as you 
see fit. Thank you for coming.
    [The prepared statement of Chairman Spratt follows:]

Prepared Statement of Hon. John M. Spratt, Jr., Chairman, Committee on 
                               the Budget

    I call the hearing to order. Today we convene for our annual 
Members' Day hearing, which is an opportunity for members of the House 
to testify before the Budget Committee about priorities that are of 
particular importance to them.
    As usual, we can expect a rather long day. We are scheduled to run 
until about 2:30pm. It should also be an interesting day. On Members' 
Day, we get to hear testimony from a wide range of House Members, 
coming to talk to us about the budget items that are of importance to 
them and their constituents. Today's testimony provides important input 
to the Budget Committee as we put together the annual budget 
resolution.
    A brief word about the ground rules for today. Every Member will 
have five minutes to present his or her testimony and respond to any 
questions. Your printed testimony if submitted will be incorporated in 
full into the record.
    I would yield to the Ranking Member or his designee for any opening 
statement, and then turn to our first witness.

 STATEMENT OF HON. HARRY TEAGUE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Teague. Thank you, Chairman Spratt. Thank you for 
inviting me here today to testify before your Committee.
    I appreciate the opportunity to share my concerns about the 
impact the President's proposed fiscal year 2011 budget will 
have on our nation's veterans and to express my strong views 
that we in Congress must do everything that we can to ensure 
that we are sufficiently funding the Veterans Administration.
    I would first like to applaud the Administration for 
proposing a VA budget of $125 billion, which is an $11 billion 
increase over the 2010 enacted budget. The proposed budget 
includes $51.5 billion in resources for VA medical care, an 
increase of $4.1 billion over fiscal year 2010 levels.
    What I find most exciting is that under a new law that I 
was proud to work with Chairman Filner to pass, the 
Administration is able to request two budgets for the VA, one 
for total funding for fiscal year 2011 and another one to 
provide fiscal 2012 funding for certain VA medical accounts.
    The proposal for fiscal year 2012 that the Administration 
has put forward is a five percent increase in funding above the 
amounts requested for fiscal year 2011.
    Last year, I sat in this same chair expressing my 
disappointment that the President had not included advanced 
appropriations in his budget. This year, I am proud to say I 
cannot. Advanced appropriations ensure timely, sufficient, and 
predictable funding for veterans' healthcare. This means 
veterans are getting the best care that the VA can provide and 
decisions are based on the needs of the veterans, not budgetary 
constraints.
    Naturally this VA budget is not perfect. Over the past 
year, Veteran Service Organizations such as the Iraq and 
Afghanistan Veterans of America have warned Congress and the VA 
about the impending homecoming of the surge troops from Iraq. 
We know that these veterans will have a great number of needs 
and could overwhelm the VA health system, not only with wounds 
that we can see, but also with wounds we cannot see.
    However, increases in mental health and readjustment 
counseling are only six percent and four percent, respectively. 
With the number of these new veterans coming home with PTSD and 
TBI, coupled with the number of other veterans who are only now 
coming forward, I doubt that this increase will be enough to 
tend to their mental health needs.
    On another subject, I would like to bring to the 
Committee's attention to what I believe are some misinformed 
decisions by the Obama Administration, to eliminate certain tax 
provisions that are of particular importance to the small, 
independent oil and gas producers in states like New Mexico.
    I applaud President Obama for his proposals to build on the 
work of the American Recovery and Reinvestment Act and point 
our nation toward needed investments in renewable energy, but 
this investment of green energy cannot take place on the backs 
of the eight million Americans currently employed in the oil 
and gas industry.
    I have spent just about every day of my life since the age 
of 17 working in or on behalf of the oil and gas industry. I 
was a roughneck on a pulling unit when that work paid a dollar 
and fifty cents an hour. I was lucky enough to start a business 
drilling and working on oil and gas wells that employed 250 New 
Mexicans.
    So I come before you as someone who knows the industry 
inside and out and would like to provide you with information 
about how changes to oil and gas tax policy would affect the 
production of American oil and gas.
    Mr. Chairman, the Administration's 2011 budget proposal 
includes the repeal of several tax policies that are critical 
to the development of American natural gas and oil. Many of 
these tax policies have been in place for close to a hundred 
years and remain vital to the continued production of oil and 
natural gas in this country.
    The greatest effect of these tax increases would be felt by 
smaller American independent oil and gas producers who supply 
68 percent of American oil and 82 percent of American natural 
gas. The tax increases would also disproportionately choke off 
the production of natural gas which is essential to energy 
independence and carbon emission reductions and jeopardize the 
existing potential of recent natural gas discoveries.
    In New Mexico specifically, tax hikes on oil and gas 
production would hurt critical state services like law 
enforcement and education. Between 17 and 22 percent of the 
state's general fund budget comes from oil and gas tax revenues 
and up to 65 percent of the education budget is paid for by 
receipts from oil and gas.
    If the proposed repeals are enacted, one of the effects you 
will see is fewer resources in New Mexico classrooms. 
Ultimately, repeal of these policies would deepen our dangerous 
dependency on foreign oil and coal, America's good-paying jobs.
    I strongly urge you to write a budget resolution that 
ignores the President's proposed repeal of oil and gas tax 
policies.
    While the President's proposed tax increases on oil and gas 
are dangerous and ill advised, I would like to commend him for 
his support of nuclear energy, which offers a robust source of 
clean energy for our nation and a source of jobs for the people 
of southeast New Mexico.
    President Obama has proposed $36 billion in new loan 
authority for a total of $54.5 billion to expand support for 
Department of Energy loan guarantees for nuclear power 
facilities. This increased loan guarantee authority would 
provide assistance to bring seven to ten nuclear power plant 
projects on line.
    I ask the Committee to fully fund this request and consider 
further investment in the loan guarantee.
    Finally, I would like to make a single request to the 
Committee. As you know, this country is in perilous financial 
shape. President Obama has proposed a budget freeze. This is a 
relatively small gesture toward fiscal sanity. But if we can 
manage to just freeze spending as our deficit falls out of 
control, I do not have much faith that this Congress will be 
able to take the necessary steps to reduce our debt.
    I thank the Committee and I am happy to take any questions.
    Chairman Spratt. Mr. Teague, we thank you for coming. This 
is the reason we have Members' Day, to put everything on the 
table and to extract from different members different things 
that affect them and their constituents. And we appreciate your 
setting the pace with the comments you made today in several 
different areas. Thank you very much.
    Mr. Teague. Thank you again for having me.
    Chairman Spratt. Do you have anything you would like to 
submit for the record?
    Mr. Teague. Just my statement that I read. I will leave a 
copy of it.
    Chairman Spratt. So ordered.
    [The prepared statement of Harry Teague follows:]

 Prepared Statement of Hon. Harry Teague, a Representative in Congress 
                      From the State of New Mexico

    Thank you, Chairman Spratt and Ranking Member Ryan, for inviting me 
here to testify before your Committee today. I appreciate the 
opportunity to share my concerns about the impact the President's 
proposed Fiscal Year 2011 Budget will have on our nation's veterans, 
and to express my strong views that we in Congress must do everything 
that we can to ensure that we are sufficiently funding the Veterans 
Administration.
    I would first like to applaud the Administration for proposing a VA 
budget of $125 billion, an $11 billion increase over the 2010 enacted 
budget. The proposed budget includes $51.5 billion in resources for VA 
medical care, an increase of $4.1 billion over fiscal year 2010 levels.
    What I find most exciting is that under a new law that I was proud 
to work with Chairman Filner to pass, the Administration is able to 
request two budgets for the VA: one for total funding for fiscal year 
2011, and another to provide fiscal 2012 funding for certain VA medical 
accounts. The proposal for fiscal year 2012 that the administration has 
put forward is a 5 percent increase in funding above the amounts 
requested for fiscal year 2011.
    Last year I sat in this same chair expressing my disappointment 
that the President had not included advanced appropriations in his 
budget. This year, I'm proud to say, I cannot. Advanced appropriations 
ensure timely, sufficient and predictable funding for veterans health 
care. This means veterans are getting the best care that the VA can 
provide and decisions are based on the needs of the veterans and not 
budgetary constraints.
    Naturally, this VA budget is not perfect. Over the past year, 
veterans' service organizations, such as the Iraq and Afghanistan 
Veterans of America, have warned Congress and the VA about the 
impending homecoming of the surge troops from Iraq. We know that these 
veterans will have a great number of needs and could overwhelm the VA 
health system, not only with wounds that we can see, but also with 
wounds we cannot see. However, increases in mental health and 
readjustment counseling are only 6% and 4% respectively. With the 
number of new veterans coming home with PTSD and TBI, coupled with the 
number of other veterans who are only now coming forward, I doubt that 
this increase will be enough to tend to their mental health needs.
    On another subject, I would like to bring to the committee's 
attention what I believe are some misinformed decisions by the Obama 
administration to eliminate certain tax provisions that the oil and gas 
industry needs. I applaud President Obama for his proposals to build on 
the work of the American Recovery and Reinvestment Act and point our 
nation toward needed investments in renewable energy, but this 
investment in green energy cannot take place on the backs of the eight 
million American currently employed in the oil and gas industry.
    I have spent just about every day of my life since the age of 17 
working in or on behalf of the oil and gas industry. I was a roughneck 
on a pulling unit when that work paid $1.50 an hour, and I was lucky 
enough to start a business drilling and working on oil and gas wells 
that employed 250 New Mexicans. So I come before you as someone who 
knows the industry inside and out and would like to provide you with 
information about how changes to oil and gas tax policy would affect 
the production of American oil and gas.
    Mr. Chairman, the Administration's 2011 budget proposal includes 
the repeal of several tax policies that are critical to the development 
of American natural gas and oil. Many of these tax policies have been 
in place for close to 100 years and remain vital to the continued 
production of oil and natural gas in this country. Disturbingly, the 
greatest effect of these tax increases would be felt by smaller 
American independent oil and gas producers, who supply 68 percent of 
American oil and 82 percent of American natural gas. The tax increases 
would also disproportionately choke off the production of natural gas--
which is essential to energy independence and carbon emission 
reductions--and jeopardize the exciting potential of recent natural gas 
discoveries.
    In New Mexico, specifically, tax hikes on oil and gas production 
would hurt critical state services like law enforcement and education. 
Between 17 and 22 percent of the state's general fund budget comes from 
oil and gas revenues, and up to 65 percent of the education budget is 
paid for by receipts from oil and gas. If the proposed repeals are 
enacted, one of the effects you'll see is fewer resources in New Mexico 
classrooms.
    Ultimately, repeal of these policies would deepen our dangerous 
dependence on foreign oil and cost America good paying jobs. I strongly 
urge you to write a budget resolution that ignores the President's 
proposed repeal of oil and gas tax policies.
    While the President's proposed tax increases on oil and gas are 
dangerous and ill advised, I would like to commend him for his support 
of nuclear energy, which offers a robust source of clean energy for our 
nation and a source of jobs for the people of Southeast New Mexico. 
President Obama has proposed $36 billion in new loan authority--for a 
total of $54.5 billion--to expand support for Department of Energy loan 
guarantees for nuclear power facilities. This increased loan guarantee 
authority would provide assistance to bring seven to 10 nuclear power 
plant projects online. I ask the committee fully fund this request and 
consider further investment in the loan guarantee program.
    Finally, I would like to make a simple request to the committee. As 
you know, this country is in perilous financial shape. President Obama 
has proposed a budget freeze. This is a relatively small gesture toward 
fiscal sanity, but if we cannot manage to just freeze spending as our 
deficits spiral out of control, I don't have much faith that this 
Congress will be able to take the necessary steps to reduce our debt.
    I thank the committee and am happy to take questions.

    Chairman Spratt. Thank you very much again for coming.
    We will now turn to the Delegate from Guam, Ms. Bordallo.
    Ms. Bordallo, you are recognized for five minutes and if 
you wish, you can summarize your statement and the full printed 
copy of it will be made part of the record.

 STATEMENT OF HON. MADELEINE BORDALLO, A DELEGATE IN CONGRESS 
                           FROM GUAM

    Ms. Bordallo. Thank you, Mr. Chairman. Good to see you 
again, Chairman Spratt.
    I have three issues to address relative to the Resolution 
on the Budget for fiscal year 2011.
    First, I respectfully renew my request and appeal to the 
Committee to include in the budget resolution sufficient 
budgetary headroom to allow for Congress to pass legislation 
implementing the recommendations of the Guam War Claims Review 
Commission as contained within H.R. 44, the Guam World War II 
Loyalty Recognition Act.
    I thank this Committee for including reference to the Guam 
War Claims legislation in its reports accompanying the budget 
resolution passed by the House for fiscal years 2008 through 
2010. This was critical to overcoming budgetary hurdles that 
slowed the bill's progress in reaching the House floor.
    On February 23rd of 2009, the House voted 299 to 99 to pass 
this legislation. Currently H.R. 44 is pending in the Senate 
where it has been referred to the Committee on Judiciary. 
Inclusion of budgetary headroom in this year's budget 
resolution will further help to take care of concerns raised in 
the Senate about how the program, if authorized, will be 
implemented. Language in the budget resolution can help us to 
move this legislation.
    As in previous years, the Congressional Budget Office 
estimates that the budget should provide for at least $126 
million over the next three fiscal years for the implementation 
of H.R. 44. This estimate is based on pay-out of every 
conceivable claim whose payment would be authorized by this 
bill. The CBO estimate further indicates that this would be 
paid for as a Budget 800 function or general government 
expenditure.
    The Congress has a moral obligation to bring closure for 
the loyal Americans who experienced the brutality of the 
occupation on Guam. Ensuring there is ample budget authority 
and ability of the Committee on Appropriations to appropriate 
amounts needed to pay the claims that would be authorized is 
very important in resolving this issue.
    Therefore, I respectfully request that the budget 
resolution for fiscal year 2011 take into account the costs 
associated with H.R. 44.
    Secondly, Mr. Chairman, the realignment of military forces 
to Guam is creating substantial budget pressures on the 
Department of Defense and the government of Guam. The largest 
part of this force posture change is the realignment of some 
8,600 Marines from the 3rd Marine Expeditionary Force currently 
stationed on Okinawa and their expected 9,000 dependents.
    The realignment of these forces alone is estimated to cost 
$14 billion over the next four to five years. Although nearly 
$6 billion of the total $14 billion cost will come from the 
government of Japan, the United States government will still 
require DoD to budget nearly $8 billion in funding over the 
next four to five years.
    DoD has not identified all the authorities that will be 
required in order to execute the Japanese funding through 
special purpose entities. As such, I ask that consideration be 
given to providing budgetary headroom in the budget resolution 
to allow execution of these funds in a public/private venture 
concept.
    Last year, Congress authorized and appropriated $734 
million for military construction in fiscal year 2010 due in 
some measure to the support of the members of this Committee. 
And I would request that the Committee support the President's 
budget submission for military construction funding for the 
Navy and Marine Corps as well as all other services in order to 
continue moving the military buildup on Guam further.
    However, I remain deeply concerned, Mr. Chairman, about the 
lack of any commitment for federal funding of Guam's civilian 
infrastructure needs. Without funding critical civilian 
infrastructure projects, the military buildup on Guam would be 
greatly slowed, adding substantial cost to the overall program. 
And, moreover, it will harm the quality of life for our people 
living on Guam.
    This point has been highlighted in numerous Government 
Accountability Office reports, although a detailed multi-year 
plan for civilian infrastructure funding is not available, I 
would ask that the Budget Committee provide sufficient 
budgetary headroom to address Guam's most pressing civilian 
infrastructure needs across the spectrum of federal government 
departments and agencies.
    Most importantly, phase one of the modernization 
requirements at the Port of Guam would require $100 million in 
budgetary authority. In total, the Port of Guam has a total 
requirement of $195 million in improvements to facilitate to 
commerce and intake of construction materials necessary for 
this buildup.
    Additionally, I request $300 million in budgetary authority 
for improvements to two primary wastewater treatment plants on 
Guam to bring them in compliance with the Clean Water Act. 
These plants were denied a Clean Water Act waiver by U.S. EPA 
in October of 2009 to operate with primary treatment only.
    Again, I respectfully request that budgetary headroom be 
sustained under the Clean Water State Revolving Fund and the 
Drinking Water State Revolving Fund so that the small 
territories may continue to receive funding from the Fund at 
the amount of 1.5 percent of the total overall obligation 
without impacting their jurisdictions.
    And, finally, as Chairwoman of the Subcommittee on Insular 
Affairs, Oceans and Wildlife, I respectfully request that the 
Committee provide budgetary headroom to increase the level of 
mandatory spending associated with the Compact-impact 
assistance.
    The law currently provides $30 million each year until 2023 
for federal grants to Guam, Hawaii, the Commonwealth of the 
Northern Mariana Islands, and American Samoa to assist with 
services provided to the citizens of the Compact states who 
migrate to these islands under the terms of the Compacts.
    The amount of $30 million each year, however, does not 
fully account for the actual impact and I ask that this 
Committee consider providing additional headroom to increase 
the mandatory Compact-impact assistance in its budget 
resolution.
    I appreciate the opportunity to appear before you and I 
submit my entire written testimony for the record. And I want 
to thank you for the consideration of my request as the 
Committee develops this year's budget resolution.
    And I thank you, Mr. Chair.
    Chairman Spratt. Thank you, Representative Bordallo. And 
for the record, if there is no objection, your statement will 
be entered in its entirety.
    Ms. Bordallo. Thank you.
    [The prepared statement of Madeleine Bordallo follows:]

    Prepared Statement of Hon. Madeleine Z. Bordallo, a Delegate in 
                  Congress From the Territory of Guam

    Good morning Chairman Spratt and Ranking Member Ryan. Thank you for 
the opportunity to testify today. I have three issues to address 
relative to the resolution on the budget for Fiscal Year 2011.
    First, I respectfully renew my request and appeal to the Committee 
to include in the budget resolution sufficient budgetary headroom to 
allow for Congress to pass legislation implementing the recommendations 
of the Guam War Claims Review Commission as contained within H.R. 44, 
the Guam World War II Loyalty Recognition Act. Second, are the 
budgetary needs associated with the planned military build-up on Guam, 
for both the Department of Defense and critical civilian infrastructure 
projects needed to support and sustain the military build-up. And 
third, are matters pertaining to the scheduled reauthorization of the 
Compact of Free Association between the United States Government with 
the Republic of Palau, and a need to increase the level of Compact-
impact assistance provided to affected jurisdictions, including Guam, 
Hawaii, and the Commonwealth of the Northern Mariana Islands.
    First, with respect to Guam war claims, I thank this committee for 
including reference to the Guam war claims legislation in its reports 
accompanying the budget resolutions passed by the House for fiscal 
years 2008 through 2010. This was critical to overcoming budgetary 
hurdles that slowed the bill's progress in reaching the House floor.
    We hope that the committee can continue its commitment again this 
year to help enable Senate passage of the legislation and its ultimate 
implementation by the Foreign Claims Settlement Commission.
    On the opening day of the 111th Congress, I re-introduced the Guam 
World War II Loyalty Recognition Act as H.R. 44. On February 23rd the 
House voted 299-99 to pass this legislation. Currently H.R. 44 is 
pending in the Senate, where it has been referred to its Committee on 
the Judiciary. In addition, I successfully included H.R. 44 as a 
provision in the House passed version of H.R. 2647, the National 
Defense Authorization Act for Fiscal Year 2010. Although the language 
was not included in the final version of the bill, the conference 
report recognized the need for the House and Senate Armed Services 
Committees to hold hearings on this bill. Under the leadership of 
Chairman Skelton, the House Armed Services Committee fulfilled their 
obligation and held a hearing on Guam war claims legislation and its 
integral relationship with the military buildup on December 2, 2009. 
The Senate Armed Services Committee has not yet announced their plans 
to hold a hearing on Guam war claims legislation. Inclusion of 
budgetary headroom in this year's budget resolution will further help 
to meliorate concerns raised in the Senate about how the program, if 
authorized, would be implemented. Language to this extent will further 
help our cause in moving this critical legislation forward in the 
Senate.
    As in previous years, the Congressional Budget Office estimates 
that the budget should provide for a least $126 million dollars over 
the next three fiscal years for the implementation of H.R. 44. This 
estimate is based on pay out of every conceivable claim whose payment 
would be authorized by H.R. 44. The CBO estimate further indicates that 
this would be paid for as a budget 800 function or general government 
expenditure. Ensuring there is ample budget authority and ability of 
the Committee on Appropriations to appropriate the amounts needed to 
pay the claims that would be authorized is integral to resolving this 
issue.
    The Guam War Claims Review Commission, which was authorized by the 
107th Congress, conducted hearings on Guam to receive testimony from 
survivors. In addition to these hearings, the Review Commission also 
received questionnaires from survivors on their experiences during the 
occupation. In total, approximately 8,000 questionnaires were received 
by the Review Commission primarily from survivors on Guam and to a 
smaller extent, from throughout the United States mainland. Based upon 
these returned questionnaires, it is estimated that the amounts of 
actual claims would be significantly lower than the Commission's 
original estimates and the conservative estimate provided by CBO. Death 
claims may be as low as 330 based on the self-declarations in the 
questionnaires. While injury claims may actually number closer to 4,000 
than 5,000.
    The Congress has a moral obligation to bring closure for the loyal 
Americans who experienced the brutality of the occupation on Guam. 
Therefore, I respectfully request that the budget resolution for Fiscal 
Year 2011 take into account the costs associated with H.R. 44.
    Second, the realignment of military forces to Guam is creating 
substantial budget pressures on the Department of Defense (DoD) and the 
Government of Guam. The largest part of this force posture change is 
the realignment of some 8,600 Marines from the Third Marine 
Expeditionary Force currently stationed on Okinawa, Japan and their 
expected 9,000 dependents. Additionally, the Air Force is realigning a 
Red Horse Squadron from Osan, Korea adding nearly 3,000 more airmen to 
Andersen Air Force Base along with a planned increase of Navy personnel 
on Guam. The realignment of these forces alone is estimated to cost $14 
billion dollars over the next four to five years.
    Unlike other military realignment, there is a significant cost 
contribution from the Government of Japan. In fact, nearly $6 billion 
dollars of the total $14 billion dollar cost will come from the 
Government of Japan and related entities. Although this will relieve 
some financial pressure on the United States Government, it will still 
require the Department of Defense and other federal agencies to program 
nearly $8 billion in resources over the next four to five years. DoD 
has not identified all the authorities that will be required in order 
to execute the Japanese funding through special purpose entities.
    As such, DoD will likely need budget room to program the Japanese 
funding dollars so they can be executed for projects on Guam.
    Last year this Congress authorized and appropriated $734 million 
for military construction in Fiscal Year 2010, due in some measure, to 
the support of members of this Committee. I would request that the 
Committee support the President's Budget submission for military 
construction funding for the Navy and Marine Corps as well as all the 
other services in order to continue moving the military build-up on 
Guam further. However, I remain deeply concerned about the lack of any 
commitment for federal funding of Guam's civilian infrastructure needs. 
Several years ago, the Government of Guam identified nearly $3 billion 
in funding to meet increased demands on the civilian infrastructure 
caused by the military build-up. Without funding for civilian 
infrastructure needs the military build-up on Guam will be greatly 
slowed adding substantial cost to the overall program. Moreover, it 
will harm the quality of life for people living on Guam. This point has 
been highlighted in numerous Government Accountability Office (GAO) 
reports. Most recently, a July 2009 report from GAO made the following 
finding, ``Without sufficient utility services, major construction 
projects, movement of Marines and other forces, and other buildup 
activities may fall behind schedule and increase implementation costs 
due to further compression of the timeline near the end of the 
implementation period.''
    Although a detailed multi-year plan for civilian infrastructure 
funding is not available, I would ask that the Budget Committee provide 
sufficient budgetary headroom to address Guam's civilian infrastructure 
needs across the spectrum of federal government departments and 
agencies. In particular, $100 million in budgetary authority is needed 
to meet phase 1 of modernization requirements at the Port of Guam. In 
total, the Port of Guam has a total requirement for $195 million in 
improvements to facilitate commerce and intake of construction 
materials necessary for the military build-up. If civilian 
infrastructure upgrades do not occur in the near term then the build-up 
will be delayed and it is unlikely that the local infrastructure could 
support or sustain the military build-up. Again, I respectfully request 
that this Committee provide headroom to address, at a minimum, this 
most pressing civilian infrastructure need.
    Additionally, two primary wastewater treatment plants on Guam were 
denied a Clean Water Act (CWA) waiver by USEPA in October of 2009 to 
operate with primary treatment only. The estimated cost to bring both 
plants into compliance with the secondary treatment requirements of the 
CWA amounts to approximately $300 million dollars. In their formal 
comments on the DEIS, the USEPA echoed the concerns I submitted in my 
comments regarding the need for significant water and wastewater 
infrastructure improvements on Guam necessary to sustain the military 
buildup. I, again, would respectfully request that budgetary headroom 
be sustained under the Clean Water State Revolving fund and the 
Drinking Water State Revolving Fund so that the small territories may 
continue to receive funding from the fund at the amount of 1.5 percent 
of the total overall obligation without impact other jurisdictions.
    Finally, as Chairwoman on the Subcommittee on Insular Affairs, 
Oceans and Wildlife, I respectfully request that the Committee re-
evaluate the level of mandatory spending associated with Compact-impact 
assistance. The law currently provides $30 million dollars each year 
until 2023 for federal grants to Guam, Hawaii, the Commonwealth of the 
Northern Mariana Islands, and American Samoa, to assist with services 
provided to citizens of the Compact states who migrate to these islands 
under the terms of the Compacts. The amount of $30 million dollars each 
year, however, does not fully account for the actual impact, and I ask 
that the Committee consider providing for an increase to mandatory 
Compact-impact assistance in its budget resolution.
    I appreciate the opportunity to appear before you and submit this 
testimony for the record. Thank you for your consideration of my 
requests as the Committee develops this year's budget resolution.

    Chairman Spratt. And before turning to the gentle lady from 
the Virgin Islands, let me yield the gavel to Mr. Boyd and he 
will take over from here.
    Mr. Boyd [presiding]. Thank you, Mr. Chairman.
    The Chair is pleased to recognize the gentle lady from the 
U.S. Virgin Islands, Mrs. Christensen.

  STATEMENT OF HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
                  FROM THE U.S. VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, for the 
opportunity to testify on the 2011 budget.
    My oral testimony, while the same in content will not 
follow my submitted one word for word.
    My first and most passionate plea is that the U.S. citizens 
and residents in the territories be treated with fairness, 
equity, and justice in every program and every agency and that 
the uniqueness of our situation be considered where appropriate 
as we go through the 2011 budget.
    I have spent more time at Arlington than I would have 
wished, the last time for burial of commingled remains which 
included two of my constituents from a helicopter shot down in 
Iraq.
    Some of the other territories have had more losses than 
ours in Afghanistan and Iraq.
    The second and particularly important point is that 
coverage and insurance reform is not enough to bring wellness 
of communities of color, poor, rural, and territorial 
communities.
    The ILAM and other reports have clearly demonstrated this 
and that the lack of insurance accounts for only 20 percent of 
disparities. We must address the other 80 percent. Health 
equity is the only goal worthy of this country.
    Although I am supportive of the goals the President seeks 
to address in his 2011 budget, it is inadequate to achieve 
health equity in our nation's poor and disadvantaged 
communities. The status quo that it would maintain is not 
acceptable.
    About 100 to 200 African American excess preventable deaths 
happen every day. American Indians do not even live long enough 
to die from diseases of old age. Asians are so 
disproportionately impacted by hepatitis B and its 
complications when Native Americans, Latinos, and African 
Americans have such high incidences of diabetes and 
complications and make up close to 70 percent of new HIV cases.
    Closing these gaps will require increases in select 
programs. There is, for example, hardly enough funding in the 
proposed budget for the healthcare workforce expansion needed 
to meet the needs of the newly insured 30 million plus people. 
We need more funding, including support for minority-serving 
institutions to address the need for diversity.
    I want to point out a few of the other programs that are 
critical to this effort. ADAP, the AIDS Drug Assistance 
Program, even the $20 million increase leaves too many AIDS 
patients waiting. Close to an additional $200 million is needed 
in 2011 as well as a supplemental this year.
    The Minority AIDS Initiative has never received the $610 
million we have requested in recent years, giving a severely 
disproportionate impact on communities of color. We need at 
least $800 million.
    Restoring the original intent of community capacity 
building, adequately funding the National Minority AIDS 
Education and Training Center, and having the funding finally 
follow the epidemic now could possibly phase out this 
initiative in a few years.
    The $2 million increase for the Office of Minority Health 
and the eight million for the National Center for Minority and 
Health Disparity Research at National Institutes of Health in 
the face of the gross health disparities only continues the, 
quote, peculiar indifference W.E.B. DuBois spoke of concerning 
the health of African Americans at the turn of the 19th century 
and what Surgeon General Heckler in 1985 called, quote, an 
affront to both our ideas and the genius of American medicine.
    The Office of Minority health must be expanded and funded 
accordingly and the Center at NIH must be elevated to an 
institute and its funding brought in line with the other 
institutes.
    Fully funding these and the other provisions of H.R. 3090, 
the Health Equity and Accountability Act, such as health, such 
as strengthening our public health infrastructure, and others 
are needed to ensure that every American has access to quality 
healthcare and wellness.
    While these are just a few of the programs important to 
bring about health equity, it is important to recognize these 
as investments in our people and our country's future. 
Eliminating disparities will raise our status in the world by 
reducing the maternal infant mortality and the general health 
status that causes us to lag behind every industrialized and 
some developing countries.
    Although I have chiefly focused on health funding, it would 
also fail to close the disparity gap because we have not 
addressed the social determinants of health or adequately 
engaged the affected communities.
    Increasing and sustaining healthy communities will require 
adequate funding for improving these determinants and every 
agency's budget. This is where both our efforts and our savings 
will be maximized.
    And, finally, we have to change the scoring process and 
health prevention must be scored and projections have to go 
beyond the current ten-year window. We are missing significant 
opportunities to reform healthcare and improve everyone's 
health because we are failing to use savings to help pay for 
what needs to be done.
    We owe change and hope to the majority in our hold. Change 
and hope is what we promised and what we owe to the people of 
this country. Our efforts must continue to support everyone's 
health, but we have a special duty to provide for the 
vulnerable, the left behind, the left out, the poor, dejected, 
and under-served, those who have no lobbyists, no political 
voice, no political clout. We cannot fail them. To fail them is 
to fail our country by not doing all we can to ensure that we 
remain strong, competitive, and the needy of the world needs us 
to continue to be.
    Thank you for the opportunity to testify once again on the 
budget and I am here willing to answer any questions you might 
have.
    [The prepared statement of Donna Christensen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Boyd. Thank you, Dr. Christensen.
    I am reminded listening to your presentation of something I 
heard once, that you never saw a great country that had an 
unhealthy population.
    And I thank you for your focus on those issues.
    Mrs. Christensen. Thank you. And thank you again for the 
opportunity to testify.
    Mr. Boyd. The Chair is pleased to next recognize the 
gentleman from Texas, Congressman Olson, for five minutes.

STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Olson. Congressman Boyd, thank you very much for the 
opportunity to testify before the Committee today.
    I appear before you to ask for continued funding for the 
Constellation Program at NASA. But make no mistake. I do not 
come before you to support a program or a budget item but a 
principle.
    Our nation has earned the right to be called the global 
leader in human spaceflight. This distinction took several 
decades, billions of dollars, both public and private 
technological break-throughs, and, yes, lives lost.
    The Administration's budget proposal does not just put this 
hard-earned leadership at risk, it abolishes it. The 
Constellation Program was a follow-on program to the soon to be 
retired Space Shuttle Program. On two separate occasions, 
Congress endorsed NASA's path to return to the moon and beyond 
through the development of the Constellation Program in both 
the 2005 and 2008 NASA Authorization Acts.
    The overwhelming bipartisan support was not accompanied, 
however, with sufficient funds to close the gap between when 
the space shuttle is retired and the constellation vehicles 
would come on line. There will be a gap between the retirement 
of space shuttle and the follow-on vehicle.
    The best case scenario could have been three years, but now 
it is more likely to be seven. In that time, we will rely 
solely on Russia to get our astronauts to the International 
Space Station which the United States taxpayer has paid the 
overwhelming share to build.
    With the shuttle in existence, the Russians charge $50 
million per seat right now. That is up from about $22 million 
last year. You can imagine what the cost will be when they are 
the only taxi in town.
    Fully funding constellation would have enabled us not only 
to bring a replacement vehicle on line earlier, but also to 
begin exploring beyond low earth orbit. The cost to cancel 
constellation is estimated to be $2.5 billion. These reports 
indicate that that number is at best an estimate which many 
believe is too low.
    Cutting this program is the single largest cut in the 
fiscal year 2011 budget proposal. But when the overall budget 
number increases while the signature human spaceflight program 
is cut, I question where the agency and our nation is setting 
its priorities.
    The Administration also proposes a drastic new way for NASA 
to do business. Instead of setting a destination, a goal and 
planning to go there, the agency will shift focus on developing 
technologies and determine destinations based on the outcomes 
of those investments and experiments.
    This raises many questions, many of them budgetary. These 
are questions, by the way, that the agency has not yet answered 
itself. We should be working to get these answers before these 
alternatives are adopted, especially as drastic as the cuts 
proposed are.
    NASA is establishing a fund set at $650 million for next 
year, increasing to $2.1 billion in fiscal year 2015 for 
technology demonstration. Without a clear understanding of what 
NASA will be developing, the possible outcomes for the agency 
are anybody's guess.
    NASA would risk devolving into a research and development 
agency or to appear to be hobby shopping with federal resources 
in lieu of actually flying missions. And that reality or even 
that perception could then lead towards increased pressure for 
funds to be either drastically cut or, worse, congressionally 
directed.
    Either of those outcomes does not enable us to achieve any 
type of worthwhile exploration strategy. And in conjunction 
with these developments and upon cancellation of the 
constellation, NASA proposes funding private commercial 
entities to ferry cargo and eventually crew to the 
International Space Station.
    These entities, which the budget proposes subsidizing, 
which will rely heavily on government investments and contracts 
have not sufficiently proven the right to be our nation's sole 
provider, sole means to space, that the business models are 
sustainable or that a market even exists beyond the government 
for its services.
    Human spaceflight by definition involves taking risk, but 
calculated, researched, responsible ones. This Committee must 
sit down with NASA to fully understand why investing billions 
to go somewhere, somehow, sometime is a wise use of taxpayer 
funds. To me, the risk to our economy, to our industrial base, 
and to our leadership in the world are simply not worth it.
    Let us work not to shift funds to technology development 
and NASA cancellation costs, but rather to putting 
constellation on secure footing. By doing so, we would also be 
putting human spaceflight back on track for a bright future 
worthy of its storied past.
    And, Mr. Chairman, I am happy to answer any questions. I 
appreciate the opportunity to testify before the Committee 
today and yield back my time.
    [The prepared statement of Pete Olson follows:]

  Prepared Statement of Hon. Pete Olson, a Representative in Congress 
                        From the State of Texas

    Chairman Spratt, Ranking Member Ryan, members of the Budget 
Committee, thank you for the opportunity to testify before you today. I 
appear before you to ask to continue funding for the Constellation 
program at NASA. But make no mistake; I don't come before you to 
support just a program, or a budget item, but a principle. Our nation 
has earned the right to be called the global leader in human space 
flight. This distinction took several decades, billions of dollars--
both private and government--technological breakthroughs, and yes, 
lives lost. The Administration's budget proposal doesn't just put that 
hard-won leadership at risk, it abolishes it.
    The Constellation program was the follow-on program to the soon to 
be retired space shuttle program. On two separate occasions, Congress 
endorsed NASA's path to return to the moon and beyond through 
development of the Constellation program in the 2005 and 2008 
Authorization Acts. The overwhelming bipartisan support was not 
accompanied, however, with sufficient funds to close the gap between 
when the shuttle was retired and the Constellation vehicles could come 
online.
    There will be a gap between shuttle retirement and a replacement 
vehicle. The best case scenario could have been three years, but is now 
more likely seven. In that time, we will rely solely on Russia to get 
our astronauts to the International Space Station, which the United 
States has paid the overwhelming share to build. With the shuttle in 
existence, the Russians charge $50 million per seat. You can imagine 
what the cost will be when they are the only taxi in town.
    Fully funding Constellation would have enabled us not only to bring 
a replacement vehicle online earlier, but also to begin exploring 
beyond low earth orbit again. The cost to cancel Constellation is 
estimated to be around $2.5B. Recent reports indicate that number is at 
best an estimate, which many believe is too low. Cutting this program 
is the largest single cut in the FY11 budget proposal. But when the 
overall budget number increases while the signature human space flight 
program is cut, I question where the agency, and our nation, is setting 
its priorities.
    The Administration also proposes a drastic new way for NASA to do 
business. Instead of setting a destination and planning to go there, 
the agency will shift focus on developing technologies and determine 
destinations based on the outcomes of those investments and 
experiments.
    This raises many questions, many of them budgetary. These are 
questions, by the way, the agency itself has not yet answered 
sufficiently. We should be working to get these answers before 
alternatives are decided, especially as drastic as the ones proposed.
    NASA is establishing a fund, set at $650M for next year, increasing 
to $2.1B in FY15, for technology demonstration. Without a clear 
understanding of what NASA will be developing, the possible outcomes 
for the agency are anybody's guess. NASA would risk devolving into an 
R&D agency or to appear to be hobby-shopping with federal resources in 
lieu of actually flying missions. That reality, or even that 
perception, could then lead to increased pressure for funds to either 
be drastically cut, or congressionally-directed. Either of those 
outcomes does not enable us to achieve any type of worthwhile 
exploration strategy.
    In conjunction with these developments and upon cancellation of 
Constellation, NASA proposes funding private commercial entities to 
ferry cargo, and eventually crew, to the International Space Station. 
These entities, which the budget proposes subsidizing, will rely 
heavily on government investment and contracts, have not sufficiently 
proven the right to be our nation's sole means to space, that their 
business models are sustainable, or that a market even exists outside 
of the government for their services.
    Human space flight by definition involves taking risks, but 
calculated, researched, and responsible ones. This committee must sit 
down with NASA to fully understand why investing billions to go 
somewhere, somehow, sometime is a wise use of taxpayer funds. To me, 
the risks to our economy, to our industrial base, and to our leadership 
in the world, are simply not worth it.
    Let us work not to shift funds to technology development programs 
and massive cancellation costs, but rather to putting Constellation on 
secure footing. By doing so we would also be putting our human space 
flight program back on track for a bright future worthy of its storied 
past.
    Thank you again for this opportunity, I yield back my time.

    Mr. Boyd. I thank you, Congressman Olson, for your 
continued interest and advocacy for our investment in science 
and research and the corresponding infrastructure. Thank you 
very much.
    Mr. Olson. Thank you, Mr. Chairman. Look forward to working 
on this issue in the future. Thanks.
    Mr. Boyd. It is my honor now and pleasure to recognize the 
gentleman from Pennsylvania, Representative Altmire, for five 
minutes.

STATEMENT OF HON. JASON ALTIMIRE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Altmire. Thank you, Chairman Boyd.
    And I want to thank the entire Committee for allowing me 
the opportunity to testify.
    And as you prepare as a Committee the fiscal year 2011 
budget resolution, I would first urge you to pay tribute to the 
sacrifices made by our nation's veterans by fully funding their 
medical care and disability benefits.
    Last year, Congress answered this call by providing a 
record amount of funding for the VA and by meeting for the 
first time the recommendations put forth as part of the 
Independent Budget and the Veteran Service Organizations.
    And I hope that we can continue this tradition and again 
pass a budget resolution that contains full funding for our 
veterans.
    The President's $125 billion budget proposal for the 
Departments of Veterans Affairs includes an increase of $460 
million, representing a 27 percent funding increase for 
veterans over the 2010 level. This budget will help the VA 
continue to strengthen services for veterans, including hiring 
more than 4,000 additional claims processors to speed up the 
processing of veterans' benefits claims which I do not have to 
tell anyone on this Committee is long overdue.
    I regularly hear from veterans in western Pennsylvania 
about the discouraging and disorganized claims processing 
operation that confronts them as they seek medical treatment 
for service-connected health issues.
    And, Mr. Chairman, on behalf of the more than 60,000 
veterans residing in my district alone, many of whom already 
struggle to access their VA benefits, I respectfully ask that 
you fully fund the budget recommendations and pass a budget 
that prioritizes the needs of veterans and ensures that they 
have access to every benefit that they deserve and that they 
have earned.
    Similarly, the Department of Homeland Security budget is 
also of considerable concern to me and to my constituents. I am 
very pleased to see the Administration proposes to increase the 
budgets for programs focused on immigration status verification 
and criminal alien deportation.
    And I support the budget's funding for U.S. Citizenship and 
Immigration Services Bureau to support and to expand its 
important verification programs, E-Verify and the Systematic 
Alien Verification for Entitlements Program, SAVE, which 
ensures that employment benefits never become available to 
those in this country illegally.
    In addition, I also support the President's recommendation 
to provide full funding for Immigration and Customs Enforcement 
for the identification and removal of criminal aliens primarily 
through the Secure Communities Program. Those are good things.
    However, I strongly urge the Committee to reject the 
budget's proposal to cut the customs and border protection 
programs as well as the U.S. Coast Guard's budget by more than 
$129 million.
    I am also concerned that the proposal contains no money for 
border fence construction. This proposal fails to recognize 
that the 643 miles of physical border fence that we have is a 
good start, but it is well short of what is needed along the 
2,000 mile border between the U.S. and Mexico.
    And, Mr. Chairman and members of the Committee, cutting 180 
members of the Border Patrol and proposing flat funding for 
Immigration and Customs Enforcement in my opinion are short-
sighted and simply unjustifiable proposals given the current 
national security environment and the challenges we face in 
curbing illegal immigration.
    I would now turn to America's small businesses which are 
having a difficult time accessing capital and creating jobs as 
all of us can see in our home districts, and I certainly see in 
western Pennsylvania. Small businesses drive job creation and 
help America emerge stronger from this recession.
    And, Mr. Chairman, I would ask that you support the budget 
proposal's commitment to guarantee funding levels for the 7(a) 
Lending Program and direct micro-loans to emerging 
entrepreneurs.
    In addition, and in closing, I would urge you support for 
vital tools such as Small Business Development Centers which I 
have seen firsthand have helped countless small business 
entrepreneurs in western Pennsylvania.
    Mr. Chairman and members of the Committee, thank you again 
for the opportunity to address you today and outline my 
specific priorities for the fiscal year 2011 budget. I yield 
back the balance of my time and would answer any questions that 
you have.
    [The prepared statement of Jason Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman and members of the committee. I appreciate 
the opportunity to testify today on the fiscal year 2011 budget 
resolution and its impact on western Pennsylvania.
    As you prepare the fiscal year 2011 budget resolution, I would 
first urge you to pay tribute to the sacrifices made by our nation's 
veterans by fully funding their medical care and disability benefits. 
Last year, Congress answered this call by providing a record amount of 
funding for the VA by meeting, for the first time, the recommendation 
put forth by the Independent Budget.
    I hope that we can continue this tradition and again pass a budget 
resolution that contains full funding for veterans.
    The president's $125 billion budget proposal for the Department of 
Veterans Affairs includes an increase of $460 million, representing a 
27 percent funding increase over the 2010 level. The president's budget 
will help the VA continue to strengthen services for veterans, 
including hiring more than 4,000 additional claims processors to speed 
up the processing of veterans' benefits claims.
    I regularly hear from veterans in western Pennsylvania about the 
discouraging and disorganized claims processing operation that 
confronts them as they seek medical treatment for service-connected 
health issues.
    Mr. Chairman, on behalf of the more than 60,000 veterans residing 
in my district--many of whom already struggle to access their 
benefits--I ask that you fully fund the President's recommendations and 
pass a budget that prioritizes the needs of veterans and ensures they 
have access to every benefit they deserve.
    The Department of Homeland Security budget is also of considerable 
concern to me and my constituents. I am pleased to see that the 
administration proposes to increase the budgets of programs focused on 
immigration status verification and criminal alien deportation.
    I support the Obama budget's $103 million for the U.S. Citizenship 
and Immigration Services bureau to support and expand its important 
verification programs, E-Verify and the Systematic Alien Verification 
for Entitlements (SAVE), which ensure that U.S. citizens are being 
employed during this difficult economic climate.
    In addition, I also support the president's recommendation to 
provide Immigration and Customs Enforcement with $1.6 billion for the 
identification and removal of criminal aliens, primarily through the 
Secure Communities program.
    However, I would urge the Committee to reject the budget's proposal 
to cut Customs and Border Protection by $317 million and the US Coast 
Guard's budget by $129 million. I am also concerned that the proposal 
contains no money for border fence construction. This proposal fails to 
recognize that the 643 miles of physical border fence that we have are 
a good start, but well short of what is needed for the 2,000 mile 
border between the U.S. and Mexico.
    Cutting 180 members of the Border Patrol and proposing flat funding 
for Immigration and Customs Enforcement are also short-sighted and 
unjustifiable proposals given current national security and immigration 
challenges.
    I turn now to America's small businesses, which are having a 
difficult time accessing capital and creating jobs. Small businesses 
drive job creation and will help America emerge stronger from this 
recession. Mr. Chairman, I would ask that you support the budget 
proposal's commitment to guaranteed lending programs, the 7(a) lending 
program, and direct microloans to emerging entrepreneurs.
    In addition, I urge your support for vital tools such as Small 
Business Development Centers, which I know have helped countless 
entrepreneurs in western Pennsylvania.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to address the Committee and outline my priorities for the 
fiscal year 2011 budget. I yield back the balance of my time.

    Mr. Boyd. Thank you, Representative Altimire.
    I appreciate your advocacy for continued adequate funding 
for our security needs and particularly for those who come back 
injured after having performed those security needs for us. And 
I look forward to working with you in developing a budget that 
addresses these needs adequately.
    Mr. Altimire. Thank you, Mr. Chairman.
    Mr. Boyd. Thank you.
    It is my privilege now to recognize for five minutes the 
gentle lady from Arizona, Representative Kirkpatrick.

STATEMENT OF HON. ANN KIRKPATRICK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mrs. Kirkpatrick. Thank you, Mr. Chairman, Ranking Member, 
and members of the Committee. I appreciate this opportunity to 
talk with you about my views about the budget.
    I am proud to be a life-long resident of greater Arizona. 
Where I am from, folks understand that times are tough and when 
they are tough, you have to tighten your belt.
    As our economy starts to recover from some of the toughest 
times we have seen in decades, Arizonians are finding ways to 
make every dollar count and do more with less.
    Unfortunately, many here in Washington are unwilling to 
adopt that sensible approach. My constituents and I have become 
increasingly concerned with the federal debt as it continues to 
hit new historic highs with each new week.
    In the past year, prominent economists everywhere, 
including within the Administration, have said that continuing 
on this path of deepening debt is unsustainable. After a recent 
conference on the debt, the President of the bipartisan 
Committee for a Responsible Federal Budget said that we will 
face dire consequences if we do not act now to right our fiscal 
course.
    Yet, Washington seems set to do what it always does, get 
stuck in partisan gridlock and focus on making speeches instead 
of taking action. This country cannot afford the same old 
politics anymore.
    I appreciate the White House's proposal to freeze 
discretionary spending and their efforts to make our budget 
open and transparent by putting all of our nation's expenses on 
one balance sheet. However, I believe that such steps are not 
nearly enough.
    I would ask that the Budget Committee use the fiscal year 
2010 budget as the starting point for making significant cuts 
to the fiscal year 2011 budget. After all, those same fiscal 
year 2010 spending levels produced a record budget deficit. It 
is just common sense that most federal departments should be 
cutting from them.
    This government needs to set limits and then make the tough 
choices that it will take to get our fiscal house in order. 
Part of that process is cracking down on a consequence-free 
spending culture in Washington. We need to put an end to waste 
and there are plenty examples where Congress can start.
    The Government Accountability Office published a 300-page 
report in 2004 outlining where Congress can target, such as 
$160,000 puffer machines purchased by TSA but never fully 
deployed.
    I spoke to the Committee last year on concerns in my 
district about security, support for law enforcement, keeping 
our promises to our nation's veterans, and ensuring that small 
business remains the economic engine of our economy.
    In greater Arizona, we are still concerned about making 
progress on these and other issues, but we believe it is about 
setting the right priorities, not just piling on more and more 
federal spending on failed programs.
    I know budget cuts may not be easy and I know they are not 
popular, but business as usual in Washington has failed. It is 
time to stop talking and start doing what it takes to ensure 
that our massive federal debt does not stop our economic 
recovery in its tracks.
    Thank you for your consideration of my testimony and I look 
forward to working with the Budget Committee to set fiscal 
priorities. I yield back the balance of my time and I am happy 
to answer any questions you may have.
    [The prepared statement of Ann Kirkpatrick follows:]

    Prepared Statement of Hon. Ann Kirkpatrick, a Representative in 
                   Congress From the State of Arizona

    Chairman Spratt, Ranking Member Ryan and Members of the Budget 
Committee, I thank you for providing me the opportunity to express my 
views today.
    I am proud to be a lifelong resident of Greater Arizona. Where I'm 
from, folks understand that when times are tough, you have to tighten 
your belt. As our economy starts to recover from some of the toughest 
times we have seen in decades, Arizonans are finding ways to make every 
dollar count and do more with less.
    Unfortunately, many here in Washington are unwilling to adopt that 
sensible approach.
    My constituents and I have become increasingly concerned with the 
federal debt, as it continues to hit new historic highs with each new 
week. In the past year, prominent economists everywhere--including 
within the Administration--have said that continuing on this path of 
deepening debt is unsustainable. After a recent conference on the debt, 
the president of the bipartisan Committee for a Responsible Federal 
Budget said that we will face ``dire consequences if we do not act now 
to right our fiscal course.''
    Yet, Washington seems set to do what it always does--get stuck in 
partisan gridlock and focus on making speeches instead of taking 
action. This country cannot afford the same old politics any more.
    I appreciate the White House's proposal to freeze discretionary 
spending, and their efforts to make our budget open and transparent by 
putting all of our Nation's expenses on one balance sheet.
    However, I believe that such steps are not nearly enough. I would 
ask that the Budget Committee use Fiscal Year 2010 budget levels as the 
starting point for making significant cuts to the Fiscal Year 2011 
budget. After all, those same Fiscal Year 2010 spending levels produced 
a record budget deficit; it's just common sense that most federal 
departments should be cutting from them. This government needs to set 
limits, and then make the tough choices that it will take to get our 
fiscal house in order.
    Part of that process is cracking down on the consequence-free 
spending culture in Washington. We need to put an end to waste--and 
there are plenty of examples where Congress can start. The Government 
Accountability Office published a 300-page report in 2004 outlining 
where Congress can start and continues to identify targets--such as the 
$160,000 puffer machines purchased by TSA but never fully deployed.
    I spoke to the committee last year on concerns in my district about 
security, support for local law enforcement, keeping our promises to 
our nation's Veterans, and ensuring that small business remains the 
economic engine of our economy. In Greater Arizona, we are still 
concerned about making progress on these and other issues, but we 
believe it is about setting the right priorities, not just piling on 
more and more federal spending on failed programs like these.
    I know budget cuts may not be easy or popular, but business as 
usual in Washington has failed. It is time to stop talking and do what 
it takes to ensure that a massive federal debt does not stop our 
economic recovery in its tracks.
    Thank you for your consideration of my testimony and I look forward 
to working with the budget committee to set fiscal priorities.

    Mr. Boyd. Thank you very much, Representative Kirkpatrick.
    You have made a presentation that is obviously very near 
and dear to my heart. I have been working on those issues all 
of my career and I look forward to working with you on this.
    Mrs. Kirkpatrick. Thank you.
    Mr. Boyd. Thank you.
    Mrs. Kirkpatrick. Thank you very much.
    Mr. Boyd. It is my privilege now to recognize the gentle 
lady from New York, Representative Clarke.

 STATEMENT OF HON. YVETTE CLARKE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Ms. Clarke. Thank you very much, Mr. Chairman.
    I want to thank you for this opportunity to discuss the 
federal budget's impact on minority and woman-owned small 
businesses and other engines of community development in New 
York State, New York City, and by extension our nation.
    I am pleased with the direction that the Administration is 
going. However, more can be done to support and spur innovation 
and growth by investing in small businesses and the communities 
they serve.
    According to the New York State Small Business Task Force, 
in New York State, small business is big business. Small 
business represents over 98 percent of all of the state's 
private employers, employ 55 percent of the state's active 
private sector labor force. Minority and women-owned small 
businesses employ nearly five million people and make up almost 
20 percent of all businesses in the United States.
    Unfortunately, the economic recession has hit these 
businesses especially hard, forcing more to shed jobs or scale 
back operations.
    The credit crisis has made it more difficult for all small 
businesses to secure financing, limiting growth opportunities 
and jeopardizing short-term business stability.
    The President's fiscal year 2011 budget presents us with an 
opportunity to reset the stage for economic growth for now and 
in this decade and beyond.
    As a member of the House Committee on Small Business, I 
have been in touch with minority and women-owned businesses 
from all across the country, especially those from under-served 
and economically distressed areas that have been 
disproportionately affected by this difficult downturn.
    Today I want to highlight three critical programs that 
impact these businesses and the communities they serve.
    I first want to ask you to provide $260 million for the 
Community Development Financial Institutions Fund which is ten 
million above the Department of Treasury's request of $250 
million.
    I am proposing that an additional ten million be allocated 
to the CDFI Program. Founded in 1994, the Community Development 
Financial Institutions Fund or the CDFI Fund is a much needed 
economic stimulus tool. CDFIs are loan funds, banks, credit 
unions, community development venture capital funds, and other 
organizations principally engaged in economic development.
    CDFI customers are 70 percent low income, 60 percent 
minority, and 52 percent female. In light of the economic 
downturn and subsequent restriction on lending to low- and 
moderate-income families and small businesses, the work of 
CDFIs is especially important right now.
    On December 2nd of 2009, the FDIC released a study which 
reported that approximately 30 million Americans do not have 
access to traditional banks or credit unions. That means that 
54 percent of African American households and 43 percent of 
Hispanic households often turn to alternative financial 
services such as pay-day loans, title loans, and other cash 
advances that charge exorbitant rates to access capital.
    CDFIs work every day to provide credit to under-served 
populations, replacing their need to turn to high-priced 
alternative financial products.
    While the President's request for $250 million for fiscal 
year 2011 illustrates the Administration's commitment to this 
important fund, consumer demand for CDFI Program assistance has 
skyrocketed during this recession.
    With the additional $10 million, the CDFI Program would 
receive a total of $150 million to expand the availability of 
affordable capital and credit products to distressed families 
and small businesses. Congress must invest in this important 
economic stimulus tool.
    Secondly, I want to ask the Committee to fund the Minority 
Business Development Agency, MBDA, at $40 million, an $8 
million increase over the Department of Commerce's fiscal year 
2011 budget request of over $32 million for the agency.
    The Administration's $816,000 increase over the fiscal year 
2010 funding level is a modest improvement, but this sum will 
not make the kind of tangible impact my constituents are 
seeking.
    MBDA has served minority businesses since 1969 and it is 
the sole federal agency devoted specifically to the 
establishment and growth of minority businesses in America. 
Through a network of minority business centers, strategic 
partners, MBDA works with minority entrepreneurs who wish to 
grow their businesses in size, scale, and capacity. These firms 
are then in a better position to create jobs, impact local 
economies, and expand into national and global markets.
    In light of the current economic climate which has been 
plagued by persistent job loss and high unemployment rates, 
MBDA can play a central role in mobilizing resources to 
increase minority business capacity and improve economic 
outcomes.
    During fiscal year 2009, with a budget of just under $30 
million, MBDA was able to create 3,024 new jobs and preserve 
thousands more while facilitating $2.9 billion in new business 
to business opportunities, development, and development 
projects.
    My constituents have told me that the MBDA's efforts in 
2009 were helpful to their business expansion and job creation 
endeavors, but they believe more can be done.
    In order for the MBDA to deliver their effective, 
personalized services to more minority entrepreneurs, it is 
vital that the agency have adequate financial resources. The 
agency can use the increased funding to open additional 
business development centers which has been cut, more than 100 
in 1969 to just 40 as of today.
    With 40 million, the MBDA would also be able to increase 
its team of skilled and experienced nationwide staff. By 
adequately funding the MBDA, hundreds more small- and medium-
sized businesses would have access to technical assistance and 
capacity building tools necessary to help them prosper.
    Our relatively small investment in this important agency 
would mean thousands of Americans would be able to either get 
back to work or keep their jobs.
    Lastly, I want to express my strong support for increased 
funding for the Community Development Block Grant. As I 
discussed in my testimony last year, the CDBG Program provides 
vulnerable communities with resources to address a wide range 
of unique community development needs.
    One of the Department of Housing and Urban Development's 
longest-running programs, CDBG helps fund local community 
development activities such as affordable housing, anti-poverty 
programs, economic development initiatives, and infrastructure 
development.
    Unfortunately, CDBG funding has been decreasing over the 
last several budget years, totaling $3.9 billion in fiscal year 
2009.
    The Administration's fiscal year 2010 proposal raised that 
level, funding level to $4.45 billion, almost back to the 
fiscal year 2004 levels. CDBG formula grants rose from $3.6 
billion to over $4 billion in the 2010 budget. Appropriated 
amounts for fiscal year 2010 were $4.45 billion and $3.99 
billion for formula grants. This year, the Administration has 
stayed near these numbers with requests of $4.38 billion and 
$3.99 billion for formula grants.
    I urge this Committee to support funding for the CDBG 
Program at the fiscal year 2010 level of $4.45 billion and 
$3.99 for formula grants.
    Thank you again for the opportunity to testify before this 
Committee today. I look forward to working with you over the 
next several weeks to craft a budget that provides fiscal 
recovery and responsibility while addressing the needs and 
priorities of the people of New York City and all Americans. 
And I yield back the balance of my time.
    [The prepared statement of Yvette Clarke follows:]

   Prepared Statement of Hon. Yvette D. Clarke, a Representative in 
                  Congress From the State of New York

    Mr. Chairman, Ranking Member Ryan, and Members of the Committee, I 
would like to thank you for this opportunity to discuss the federal 
budget's impact on minority and women owned small businesses and other 
engines for community development in New York City. I am quite pleased 
with the direction that the Administration is going, however more can 
be done to support spur innovation and growth by investing in small 
businesses and the communities they serve.
    According to the New York State Small Business Task Force, in New 
York State, small business is big business. Small businesses represent 
over 98 percent of all of the State's private employers and employ 55 
percent of the State's active private sector labor force. Minority- and 
Women-owned small businesses employ nearly 5 million people and make up 
almost 20% of all businesses in the United States. Unfortunately, the 
economic recession has hit these businesses especially hard, forcing 
many to shed jobs or scale back operations. The credit crisis has made 
it more difficult for all small businesses to secure financing; 
limiting growth opportunities and jeopardizing short term business 
stability.
    The President's Fiscal Year 2011 Budget presents us with an 
opportunity to reset the stage for economic growth for the in this 
decade and beyond. As a Member of the House Committee on Small 
Business, I have been in touch with Minority- and Women-owned 
businesses from all across the country, especially those from 
underserved and economically distressed areas that have been 
disproportionately affected by this difficult downturn. Today, I want 
to highlight three critical programs that impact these businesses and 
the communities they serve.
    I first want to ask that you provide $260 million for the Community 
Development Financial Institutions Fund, which is $10 million above the 
Department of Treasury's request of $250 million. I am proposing that 
the additional $10 million be allocated to the CDFI Program. Founded in 
1994, Community Development Financial Institutions Fund, or the CDFI 
Fund, is a much needed economic stimulus tool.
    CDFIs are loan funds, banks, credit unions, community development 
venture capital funds and other organizations principally engaged in 
economic development. CDFI customers are 70 percent low income, 60 
percent minority and 52 percent female. In light of the economic 
downturn and subsequent restriction on lending to low- and moderate-
income families and small businesses, the work of CDFIs is especially 
important right now.
    On December 2, 2009, the FDIC released a study which reported that 
approximately 30 million Americans do not have access to traditional 
banks or credit unions. That means that 54 percent of African American 
households and 43 percent of Hispanic households often turn to 
alternative financial services such as payday loans, title loans, and 
other cash advances, that charge exorbitant rates to access capital. 
CDFIs work every day to provide credit to underserved populations, 
replacing their need to turn to high priced alternative financial 
products. While the President's request of $250 million for FY 2011 
illustrates the Administration's commitment to this important Fund, 
consumer demand for CDFI program assistance has skyrocketed during this 
recession. With the additional $10 million, the CDFI program would 
receive a total of $150 million to expand the availability of 
affordable capital and credit products to distressed families and small 
businesses. Congress must invest in this important economic stimulus 
tool.
    Second, I want to ask the committee to fund the Minority Business 
Development Agency (MBDA) at $40 million, an $8 million increase over 
the Department of Commerce's FY2011 budget request of over $32 million 
for the Agency. The Administration's $816 thousand increase over the 
FY2010 funding level is a modest improvement, but this sum will not 
make the kind of tangible impact my constituents are seeking.
    MBDA has served minority businesses since 1969 and is the sole 
federal agency devoted specifically to the establishment and growth of 
minority businesses in America. Through a network of minority business 
centers and strategic partners, MBDA works with minority entrepreneurs 
who wish to grow their businesses in size, scale, and capacity. These 
firms are then better positioned to create jobs, impact local 
economies, and expand into national and global markets.
    In light of the current economic climate which has been plagued by 
persistent job loss and high unemployment rates, MBDA can play a 
central role in mobilizing resources to increase minority business 
capacity and improve economic outcomes. During FY 2009, with a budget 
of just under $30 million, MBDA was able to create 3,024 new jobs and 
preserve thousands more while facilitating $2.9 billion in new 
business-to-business opportunities and development projects. My 
constituents have told me that MBDA's efforts in 2009 were helpful to 
their business expansion and job creation endeavors, but they believe 
more can be done.
    In order for the MBDA to deliver their effective and personalized 
services to more minority entrepreneurs, it is vital that the Agency 
have adequate financial resources. Te agency can use the increased 
funding to open additional business development centers, which has been 
cut from more than one hundred in 1969, to just forty as of today. With 
$40 million, the MBDA would also be able to increase its team of 
skilled and experienced nationwide staff.
    By adequately funding the MBDA, hundreds more small and medium 
sized businesses would have access to the technical assistance and 
capacity building tools necessary to help them prosper. Our relatively 
small investment in this important Agency would mean that thousands of 
Americans would be able to either get back to work or keep their jobs.
    Lastly, I want to express my strong support for increased funding 
of the Community Development Block Grant (CDBG). As I discussed in my 
testimony last year, the CDBG program provides vulnerable communities 
with resources to address a wide range of unique community development 
needs. One of the Department of Housing and Urban Development's (HUD) 
longest running programs, CDBG helps fund local community development 
activities such as affordable housing, anti-poverty programs, economic 
development initiatives, and infrastructure development.
    Unfortunately, CDBG funding had been decreasing over the last 
several budget years, totaling $3.9 billion in FY 2009. The 
Administration's FY 2010 proposal raised that funding level to $4.45 
billion, almost back to FY 2004 levels. CDBG Formula Grants rose from 
$3.6 billion to over $4 billion in the FY 2010 budget. Appropriated 
amounts for FY 2010 were $4.45 billion and $3.99 billion for formula 
grants. This year, the Administration has stayed near these numbers 
with requests for $4.38 billion and $3.99 billion for formula grants. I 
urge this committee support funding for the CDBG program at the FY 2010 
level of $4.45 billion and $3.99 for formula grants.
    Thank you again for the opportunity to testify before this 
committee today. I look forward to working with you over the next 
several weeks to craft a budget that provides fiscal recovery and 
responsibility, while addressing the needs and priorities of the people 
of New York City and all Americans.

    Mr. Boyd. Thank you, Representative Clarke----
    Ms. Clarke. Thank you.
    Mr. Boyd [continuing]. For your focus on economic 
development and jobs. And we look forward to working with you 
to develop a budget that reflects those priorities.
    Ms. Clarke. Thank you very much.
    Mr. Boyd. At this point, before we recognize the next 
presenter, I would like to turn the gavel over to the gentle 
lady from Minnesota, Representative McCollum.
    Ms. McCollum [presiding]. The Chair recognizes the 
gentleman from Iowa, Mr. Loebsack, for five minutes.

 STATEMENT OF HON. DAVE LOEBSACK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Loebsack. Thank you, Madam Chair.
    I want to thank the Chairman and Ranking Member in 
particular for the opportunity to testify on the fiscal year 
2011 budget. This will certainly be a difficult budget year and 
I believe that we must commit to fiscal responsibility and 
important pay-as-you-go rules.
    This year, we must further rein in spending, reduce the 
deficit, and address our long-term fiscal health by enacting a 
spending freeze, implementing cost-saving measures for the 
federal government, and eliminating redundant and wasteful 
federal spending.
    While these proposals are just first steps, they are an 
important jumpstart to what should be a concerted effort to 
significantly reduce the deficit and work toward long-term 
economic recovery.
    Previously I testified about the importance of actually 
budgeting for disasters and disaster relief costs. This year, 
we must continue a commitment to honesty in the budget by 
accounting for estimated disaster response and relief costs.
    Honesty in the budget is a crucial step toward responsible 
spending and deficit reduction. Just as an Iowa family would 
not honestly omit a cost they know they will face in the future 
from their household budget, neither should the federal 
government pretend that natural disasters will not affect the 
American people.
    I come today to testify like last year about an effort 
relating to disaster response and recovery, specifically the 
Long-Term Disaster Recovery Working Group. The working group 
was formed by the President on September 29th, 2009 and is 
Chaired by the Secretaries of Homeland Security and HUD.
    The purpose of the working group is to gather input 
nationwide from disaster-affected communities and states, other 
stakeholders, emergency managers, first responders, nonprofits, 
and private organizations in order to formulate recommendations 
to improve our nation's disaster response and recovery system.
    In January, I was pleased to be able to host along with HUD 
and the Rebuild Iowa Office the Iowa Disaster Recovery Learning 
Conference at the Kirkwood Center for Continuing Education in 
Cedar Rapids, Iowa. This conference was part of the working 
group's national outreach effort. And while I wish Iowa did not 
have reason to participate, the conference was productive and 
brought together a wide variety of stakeholders throughout Iowa 
and produced common-sense suggestions and ideas for reform.
    During the summer of 2008, the State of Iowa experienced 
the worst national disaster in our history. I want to thank my 
colleagues for working with me last Congress to approve two 
disaster recovery funding bills and a tax assistance package. 
My congressional district had arguably the largest amount of 
damage from the floods and includes Iowa's second largest city, 
Cedar Rapids, which sustained severe damage along with numerous 
other cities such as Iowa City, Palo, and Oakville.
    As Iowans continue to recover, we have a unique opportunity 
and have had a unique opportunity to share what worked, what 
did not, how Iowans and the federal government worked together, 
and how the federal government can be a better partner in the 
recovery and response process.
    After the floods of 2008, I began advocating and bringing 
attention to the need for disaster policy reforms. I will 
continue to advocate for reforms in Iowa's disaster recovery 
needs and would like to enter for the record the common-sense 
recommendations and best practices developed at the Iowa 
Disaster Recovery Learning Conference. I am also sending this 
information to other relevant House Committees and I have that 
information with me today. I would like to enter that as part 
of the record.
    [The attachment of Dave Loebsack follows:]

                   Iowa Disaster Learning Conference

                         breakout notes summary

                            January 29, 2010

Best Practices, Innovations and Lessons Learned in Disaster Recovery 
        Efforts
            Communication
    <bullet> Communication needs to be consistent, from a local source, 
and maintained throughout the recovery.
    <bullet> Communications should include daily reports on road 
statuses, availability of services, etc.
    <bullet> Providing forums like town hall meetings will increase 
consistency and allow for two-way communication.
    <bullet> Manage expectations regarding timelines.
            Data
    <bullet> A system for data sharing needs to be in place. Nonprofits 
and government agencies need to know who is working on what to avoid 
duplicating benefits and to provide for unmet needs.
    <bullet> Electronic records could be shared among entities (after a 
release is signed). This could possibly be in the form of a database or 
an individual assistance card.
    <bullet> Forms and applications should be filled out by agencies, 
not by the people who experienced the disaster.
    <bullet> Stress importance of keeping track of how dollars are 
spent so it does not become a hassle later. Pre-development of a form, 
spreadsheet or database should be considered. Training should be 
provided for case managers.
    <bullet> State agencies and nonprofits can provide training and 
resources to local committees.
            Volunteers & Donations
    <bullet> Best practice models like a volunteer reception center 
(Gulf Coast) to keep volunteers plugged in or a volunteer web tool (Des 
Moines) to match unaffiliated volunteers with local needs, should be 
utilized during future recoveries.
    <bullet> A plan should be in place in advance on how to manage 
donations, including the availability of warehouses and how items can 
be sorted and distributed.
    <bullet> Consider one organization to manage all donations of 
goods. Should there be a set of predetermined questions to assess needs 
of affected communities?
    <bullet> Plug into the Corporation for National and Community 
Service, state service commission and to state and local COADs for 
resources and volunteers.
            Long-Term Recovery
    <bullet> Include a Long-Term Recovery Committee team in the 
Emergency Operations Center (EOC).
    <bullet> Local plans designed by locals to address local issues 
should be in place.
    <bullet> Innovations in local recovery include: Block by Block, 
Feet on the Street, JumpStart
    <bullet> Conduct recovery exercises every 3 to 5 years.
    <bullet> Consider recovery equivalent of National Incident 
Management System (NIMS).
Developing a Planning Framework for Disaster Recovery
            Defining Roles and Responsibilities
    <bullet> Develop common terminology and guidance on federal 
programs that can then be translated into state and local impacts, 
implementation and responsibilities.
    <bullet> Agencies should collaborate on creating recovery plans so 
individual agency roles and responsibilities and clear.
            Strengthening Pre- and Post-Disaster Processes to Better 
                    Include Nonprofits
    <bullet> Dollars should be allocated to disaster recovery planning 
(not just response planning) and associated training, capacity 
building, etc., including seed money and a sustainable funding source 
that is available prior to disasters.
    <bullet> Greater flexibility is needed for local recovery projects/
programs and associated funding sources to reach recovery goals. We 
need to recognize that disasters are local and every community is 
different.
    <bullet> There is a need for a formal structure/framework for 
identifying all necessary partners and their respective roles to 
facilitate an effective recovery planning and implementation process.
    <bullet> The federal government should implement greater recovery 
planning and centralize federal recovery coordination. Partnerships 
should be emphasized to leverage resources.
    <bullet> Consider passing federal recovery funds for planning and 
projects/programs (e.g. CDBG) directly to local governments and 
organizations.
    <bullet> An effective recovery planning process includes meaningful 
participation. Impacted individuals need to be identified and 
encouraged to participate. Facilitators must ensure that input is truly 
considered and respected. Facilitators must effectively communicate the 
process and agreed-upon course of action.
            Capacity Challenges
    <bullet> Greater surge capacity is needed to handle hiring and 
activate partnerships more quickly.
    <bullet> There is a need to ensure that institutional knowledge is 
not lost between disasters.
    <bullet> There is often a shortage of staff with technical skills.
    <bullet> Volunteer burnout can be a capacity challenge.
Strengthening Disaster Recovery Programs, Policy and Funding
            Elements of Successful Disaster Recovery
    <bullet> LTRCs mobilizing that are knowledgeable and recognized in 
the community.
    <bullet> The mental health and state of the community can be a 
useful indicator of recovery efforts. There is a need to recognize that 
recovery has several stages of emotion.
    <bullet> Practicing recovery exercises between disasters will 
increase the successful implementation of recovery efforts.
    <bullet> Successful disaster recovery hinges on partnerships 
between government, nonprofits and local businesses.
    <bullet> Having the ability to disburse funds quickly and to those 
who need it (with limited restrictions, paperwork, etc.) allow for more 
efficient and effective recovery efforts.
    <bullet> To be successful, language and requirements/restrictions 
need to be clearly communicated to case managers and disaster 
survivors.
    <bullet> Co-location of resources and ``one-stop-shops'' make case 
management more effective.
            Milestones/Indicators of Recovery
    <bullet> Closing shelters/ No people in temporary housing units 
(THUs)
    <bullet> No longer debris/sandbags on curbs
    <bullet> Re-opening facilities (schools, jails, churches, etc.)
    <bullet> Infrastructure repair/ replacement
    <bullet> Completed property acquisitions
            Issues
    <bullet> Generational/owner housing issues need to be resolved and 
clarified.
    <bullet> Buyouts and reconstruction processes need to be expedited.
    <bullet> Capacity planning should be a part of pre-disaster period.
    <bullet> More funding is needed for hazard mitigation.
    <bullet> There needs to be more funding options for small 
businesses and landlords.
    <bullet> The recovery process is not well understood. Media 
decreases, funding dries up, volunteers leave, etc.
    <bullet> Fraud protection and property security need to be planned 
for.
    <bullet> More organization is needed in volunteer efforts and 
coordination.
    <bullet> Damage to agricultural assets, farmers with unmet needs 
that weren't addressed by typical funding streams.
            Common Unmet Needs Not Addressed by Current System
    <bullet> There is ``little assistance'' for unmet needs beyond 
general housing, like utilities, first month's rent and deposit, loss 
of private property, etc. Income levels are too restrictive. People who 
make over 150% AMI are victims also.
    <bullet> Generational housing restrictions need to be reworked.
    <bullet> There is no plan in place for disabled persons' temporary 
housing.
    <bullet> Child care is needed during disaster response AND 
recovery.
            Coordinating private and public funding
    <bullet> Training should be given to case managers and survivors on 
how funds can be used and why records need to be kept.
Providing Effective Disaster Case Management
            Providing Case Management
    <bullet> There needs to be a pre-existing case management plan with 
prescribed roles and processes, including a case management flow chart 
with access to local, state and federal resources.
    <bullet> Long term recovery committees (LTRCs) should be activated 
at the same time the EOC is activated. Partners should be in place. 
LTRCs should immediately distribute instructions/checklists and contact 
lists to case managers. Readiness is key.
    <bullet> Individuals should have case managers from the start to 
give them immediate instructions and referral.
            Improving Case Management Practices
    <bullet> A statewide model/guidelines should be developed with 
flexibility to address local needs.
    <bullet> Increase surge capacity by having a bank of interim case 
managers.
    <bullet> Training should be provided for recovery between 
disasters. Having a core of pre-trained case managers would be 
beneficial.
    <bullet> There should be greater penalties for fraud.
    <bullet> Provide assessments in a timelier manner.
    <bullet> Increase the amount of flexible funding.
    <bullet> There needs to be better control over communications, 
keeping them consistent and creating realistic expectations.
            Nonprofits Role in Case Management
    <bullet> Nonprofits assist in immediate information gathering.
    <bullet> Nonprofits serve as a local face and may garner more trust 
than government representatives.
    <bullet> Nonprofits can become a one-stop-shop for resources for 
individuals.
            Data Sharing and Case Management
    <bullet> Data sharing does not exist on a big enough level. There 
should standard templates, policies, procedures and guidelines in 
place.
    <bullet> Data sharing system should be implemented to avoid 
duplicate of benefits (DOB) issues and unmet needs.
    <bullet> A standard reporting sheet should be used so information 
does not have to be collected later on.
    <bullet> A flowchart for the impacted individual on where to go and 
what to do first would make data collection easier.
            Unmet Needs Program
    <bullet> There is a need to have a universal agreement with stores 
ahead of time.
    <bullet> A transition plan should be in place to determine what 
transitioning out will look like and how to accomplish it.

    Mr. Loebsack. I would ask that the Committee give specific 
attention to these issues and ensure both the Department of 
Housing and Urban Development and the Federal Emergency 
Management Agency along with the Department of Homeland 
Security have the resources necessary to continue pursuing this 
effort and the activities of the Long-Term Disaster Recovery 
Working Group.
    Thank you, Madam Chair, for the opportunity to testify 
today and I look forward to working with you in the future and 
this Committee to enact the common-sense reforms proposed by 
states like Iowa to the nation's disaster recovery policies. 
Thank you.
    [The prepared statement of Dave Loebsack follows:]

Prepared Statement of Hon. David Loebsack, a Representative in Congress 
                       From the State of Arizona

    I want to thank the Chairman and Ranking Member for the opportunity 
to testify on the Fiscal Year 2011 Budget. This will certainly be a 
difficult budget year and I applaud the Committee's and 
Administration's commitment to a balanced budget, fiscal 
responsibility, and important ``Pay as You Go'' rules.
    Through its Budget Request, the Administration has taken the first 
step toward reigning in spending, reducing the deficit, and addressing 
our long term fiscal health by proposing a spending freeze, 
implementing cost saving measures for the federal government, and 
eliminating redundant and wasteful federal spending. While these 
proposals are just first steps, they are an important jump-start to 
what should be a concerted effort by Congress and the Administration to 
bring the runaway deficit under control.
    Last year I testified about the importance of actually budgeting 
for disasters and disaster relief costs. I am pleased that in the FY11 
proposal from the President he continues his commitment to honesty in 
the budget by accounting for estimated disaster response and relief 
costs.
    Honesty in the budget is a crucial step toward responsible spending 
and deficit reduction. Just as an Iowa family would not honestly omit a 
cost they know they will face in the future from their household 
budget; neither should the federal government pretend that natural 
disasters won't affect the American people.
    I come today to testify, like last year, about an effort relating 
to disaster response and recovery; specifically, the Long-Term Disaster 
Recovery Working Group.
    The Working Group was formed by the President on September 29, 2009 
and is chaired by the Secretaries of Homeland Security and HUD. The 
purpose of the Working Group is to gather input nationwide from 
disaster-affected communities and states, other stakeholders, emergency 
managers, first responders, non-profits, and private organizations in 
order to formulate recommendations to improve our nation's disaster 
response and recovery system.
    In January, I was pleased to be able to host, along with HUD and 
the Rebuild Iowa Office, the Iowa Disaster Recovery Learning Conference 
at the Kirkwood Center for Continuing Education in Cedar Rapids, Iowa.
    This conference was part of the Working Group's national outreach 
effort, and while I wish Iowa didn't have reason to participate, the 
conference was productive and brought together a wide variety of 
stakeholders throughout Iowa and produced common sense suggestions and 
ideas for reform.
    During the summer of 2008, the State of Iowa experienced the worst 
natural disaster in our history. I want to thank my colleagues for 
working with me last Congress to approve two disaster recovery funding 
bills and a tax assistance package.
    My Congressional District had arguably the largest amount of damage 
from the floods and includes Iowa's second largest city, Cedar Rapids, 
which sustained severe damage along with numerous other cities such as 
Iowa City, Palo, and Oakville.
    As Iowans continue to recover, we had a unique opportunity to share 
what worked, what didn't, how Iowans and the federal government worked 
together, and how the federal government could be a better partner in 
the recovery and response process.
    After the Floods of 2008, I began advocating and bringing attention 
to the need for disaster policy reforms. I will continue to advocate 
for reforms and Iowa's disaster recovery needs and would like to enter 
for the record the common sense recommendations and best practices 
developed at the Iowa Disaster Recovery Learning Conference. I am also 
sending this information to other relevant House Committees.
    I would ask that the Committee give specific attention to these 
issues and ensure both the Department of Housing and Urban Development 
and the Federal Emergency Management Agency, along with the Department 
of Homeland Security, have the resources necessary to continue pursuing 
this effort and the activities of the Long-Term Disaster Recovery 
Working Group.
    Thank you for the opportunity to testify today and I look forward 
to working with you in the future to enact the common sense reforms 
proposed by states like Iowa to the nation's disaster recovery 
policies.

    Ms. McCollum. Thank you, Representative Loebsack, for your 
ideas and suggestions on emergency disaster relief and the 
budget.
    The Chair now recognizes the gentleman from Florida, 
Representative Klein.

STATEMENT OF HON. RON KLEIN, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Klein. Thank you, Madam Chair.
    I appreciate the opportunity for you and this Committee to 
listen to the members and to take the ideas that we are hearing 
from our constituents as we testify before the Budget Committee 
today. I am honored to be here with you and I look forward to 
working with all of you as we move through this process.
    And as I was sitting here waiting to testify, I just 
noticed that these name cards have Office Depot, one of the 
main businesses in my community. Office Depot along with a lot 
of our small businesses are the kinds of businesses that are 
helping engineer our recovery.
    And I just want to acknowledge not only that business, but 
a lot of other local small businesses because as we are working 
through this budget, this budget is going to be all about the 
plans and the architecture for getting small businesses, which 
are the engine to our whole economy, back on track.
    Madam Chair, we recently experienced the worst financial 
downturn since the Great Depression and it is going to take a 
serious effort not only by Congress, but the public and private 
sector to get our economy back on track.
    Unemployment remains unacceptably high and serious problems 
remain in the residential mortgage and commercial real estate 
markets. Small businesses, as we know, are struggling to access 
credit on reasonable terms. And I personally have spent a lot 
of time in my district and here working on getting banks to 
apply prudent standards, but make capital available for our 
small businesses.
    We are fortunately seeing signs of economic recovery with 
the Gross Domestic Product increasing even more than we 
expected in the fourth quarter, very positive numbers, and it 
is not going to be easy, but we know that America will recover 
from this economic slump and, most importantly, we have to use 
this moment as a time to craft plans how we can make our 
economy stronger than ever over the next number of years.
    Emergency measures were taken last year by this Congress to 
prevent the current collapse or the complete collapse of our 
financial system, and these policy responses were essential to 
planning for a successful economic recovery. However, as the 
economy continues to grow more and more and Americans are able 
to go back to work, we must turn our attention to reducing 
long-term budget deficits and reducing our national debt.
    In south Florida, we know that tough times mean tightening 
our belts. Times like this require cutting back. This applies 
to our personal family budgets, our businesses, and our 
government. No exceptions.
    Unfortunately, some in Washington missed that memo. For 
years, spending has been out of control and it is time for all 
of us to take real steps to reduce our deficit.
    As a state legislator in Florida, I participated in the 
balanced budget process for 14 consecutive years and I have 
been and will continue to fight to bring that kind of fiscal 
discipline to Washington as we begin to come out of this 
downturn.
    My parents were a public school teacher, my mom, and my dad 
was a small business owner. He had a variety store. Many of you 
might remember what variety stores were.
    My wife and I passed the lesson on the value of the dollar, 
that my parents taught me, on to our children. Like so many in 
our community, we teach our kids you have to live within your 
means. If you cannot afford something, you cannot buy it. It is 
as simple as that.
    Well, it is time that we heed that advice in Washington as 
well. And that is why I am particularly pleased that something 
that I have been working on, along with many of you, passed 
recently and that is PAYGO legislation. The President signed it 
a week ago.
    PAYGO says that Congress can only create new programs that 
are fully paid for and do not increase the deficit. I have 
supported the passage of this legislation since I arrived in 
Congress and I am glad it is finally the law.
    We know that PAYGO works. It was in place in the 1990s and 
we saw budget surpluses. We had a deficit to start with and 
over that decade, we made that a surplus, we as Americans. When 
it was abandoned in 2000, our deficit exploded over the last 
number of years. That cannot and will not be the case anymore 
as we have now passed PAYGO.
    Now, this is a good first step to rein in our budget, but 
there must be more. Government programs that are not serving 
the American people cost us billions of dollars a year. We need 
to review the budget line by line and squeeze out every 
possible penny of savings, including cutting programs that are 
not working or that duplicate each other.
    Further, I am introducing legislation that puts us on a 
path to fiscal responsibility and balanced budgets. My bill, 
Madam Chair, will require Congress to reduce spending each year 
until the budget is balanced, laying out a clear road map to 
getting our deficit under control.
    Specifically my legislation will require the Budget 
Committee to include a detailed benchmark plan to eliminate the 
budget deficit by 2020 in the current budget resolution, 
including reconciliation instructions to committees as 
necessary to carry out the plan.
    After the road map is established, each subsequent budget 
resolution must meet the goals laid out by the Budget Committee 
to reduce the deficit. If future budget resolutions do not meet 
the benchmarks, then it would not be in order to consider the 
budget resolution in either the House or the Senate except for 
times of economic emergency or war.
    To balance our budget, we will have to make tough choices. 
Putting this road map into place and including enforceable 
points of order will require Congress to decide what priorities 
are most important just like families in south Florida and 
around the country do every day.
    Madam Chair, working together, I really believe we can 
ensure our government continues to meet its commitments and 
provides a foundation for economic growth while protecting 
Medicare, Social Security, and other vital programs.
    We have many opportunities ahead to strengthen our great 
country and I look forward to working with you, Madam Chair, 
our colleagues in the Congress, and the President to ensure 
that we keep our fiscal house in order. And I thank you very 
much for the time.
    [The prepared statement of Ron Klein follows:]

Prepared Statement of Hon. Ron Klein, a Representative in Congress From 
                          the State of Florida

    Thank you, Mr. Chairman, for inviting me to testify before the 
Budget Committee today. I am honored to be here with you, and I look 
forward to working with you as we move forward in this process.
    We recently experienced the worst financial downturn since the 
Great Depression, and it will take a serious effort to get our economy 
back on track. Unemployment remains unacceptably high, and serious 
problems remain in the residential mortgage and commercial real estate 
markets. Small businesses are still struggling to access credit on 
reasonable terms. Yet we are starting to see signs of economic 
recovery, with GDP increasing even more than expected in the fourth 
quarter of 2009. It will not be easy, but America will recover from 
this economic slump and continue to grow until our economy is stronger 
than ever.
    Emergency measures were taken by this Congress to prevent the 
complete collapse of our financial system, and these policy responses 
were essential to ensuring a successful economic recovery. However, as 
the economy continues to grow and more and more Americans are able to 
get back to work, we must turn our attention to reducing long-term 
budget deficits and lowering our national debt.
    In South Florida, we know that tough times mean tightening our 
belts. Times like these require cutting back. This applies to our 
family budgets, our businesses and our government. Unfortunately, some 
in Washington missed that memo. For years, spending has been out of 
control, and it's time for real solutions to reduce our deficit. As a 
state legislator, I participated in a balanced-budget process for 14 
years. I have been and will continue fighting to bring that kind of 
fiscal discipline to Washington.
    My parents, a public school teacher and small business owner, 
taught me early on the value of a dollar. My wife and I passed that 
lesson on to our children. Like so many in our community, we teach our 
kids that you have to live within your means. If you can't afford 
something, you can't buy it.
    It is time that we heed this advice in Washington. That is why I am 
pleased that the President recently signed PAYGO legislation into law. 
PAYGO says that Congress can only create new programs that are fully 
paid for and do not increase the deficit. I have supported the passage 
of this legislation since I arrived in Congress and I am glad that it 
is finally the law. We know PAYGO works. When it was in place in the 
1990s, we saw budget surpluses. When it was abandoned in 2000, our 
deficit exploded. That cannot and will not be the case anymore.
    This is a good first step to reign in our budget deficits, but more 
must be done. Government programs that aren't serving the American 
people cost us billions of dollars a year. We need to review the budget 
line by line and squeeze out every possible penny of savings, including 
cutting programs that aren't working or that duplicate each other.
    Further, I am introducing legislation that puts us on a path to 
fiscal responsibility and balanced budgets. My bill will require 
Congress to reduce spending each year until the budget is balanced, 
laying out a clear roadmap to getting our deficit under control.
    Specifically, my legislation will require the Budget Committee to 
include a detailed benchmark plan to eliminate the budget deficit by 
2020 in the current budget resolution, including reconciliation 
instructions to committees as necessary to carry out the plan. After 
the roadmap has been established, each subsequent budget resolution 
must meet the goals laid out by the Budget Committee to reduce the 
deficit. If future budget resolutions do not meet the benchmarks for 
deficit reduction, then it would not be in order to consider that 
budget resolution in either the House or the Senate, with some 
exceptions for times of economic emergency.
    To balance our budget, we will have to make tough choices. Putting 
this roadmap into place, and including enforceable points of order, 
will require Congress to decide what priorities are most important, 
just like families in South Florida and around the country do every 
day. Working together, we can ensure that our government continues to 
meet its commitments and provides the foundation for economic growth 
while protecting Medicare, Social Security, and other vital government 
programs. We have many opportunities ahead to strengthen our great 
country, and I look forward to working with you, Mr. Chairman, our 
colleagues in the Congress and the President, to ensure that we keep 
our fiscal house in order.

    Ms. McCollum. I thank the gentleman from Florida for his 
ideas to the Committee on how to have fiscal responsibility.
    At this time, this Chair yields the gavel to the gentleman 
from Washington, Mr. Larsen.
    Mr. Larsen [presiding]. The Chair now recognizes the 
gentleman from South Carolina, Mr. Inglis.

STATEMENT OF HON. BOB INGLIS, A REPRESENTATIVE IN CONGRESS FROM 
                  THE STATE OF SOUTH CAROLINA

    Mr. Inglis. I thank the Chair.
    And, Mr. Chairman, I am here to suggest that leadership 
aimed at consensus, plus a crisis, equals change. We have the 
crisis. The question is whether we have leadership aimed at 
consensus. And I think that we are at a historic point where 
perhaps the American people will lead us in Congress to these 
solutions.
    And so what I am here to suggest, Mr. Chairman, is that 
when the federal budget is such that tax receipts only cover 
mandatory spending last year and projected for this year, that 
all tax receipts will only be sufficient to cover Medicare, 
Medicaid, Social Security, and interest on the debt, everything 
else will be borrowing, that that is a sufficient crisis for 
action.
    So if we have leadership and a consensus plus a crisis, we 
can get change. But we have the crisis. The question is whether 
we have leadership aimed at consensus.
    And I am wondering whether this point in our history is a 
unique point where the general interest of the public in 
getting the deficit under control and in paying down the debt 
is beginning to overwhelm the special interests of the few in 
an earmark here, for a private purpose here or there, or a 
special tax loophole here or there, and that this is a truly 
unique moment where people are rising up and they are demanding 
of the Congress that we get the situation under control.
    So what I am here to suggest is that we seize the moment 
and really put forward some bold plans. This week I am excited 
to be a co-sponsor of Representative Ryan's Road Map for 
America's Future. It is a very bold plan.
    And perhaps there is some on the Democratic side of the 
aisle that do not like it, that think it goes too far, but if 
that is the case, what we should expect from those on the other 
side of the aisle is to give us their ideas.
    And we must come together and solve this challenge because 
the American people have figured it out. They know that we can 
go the way of Greece, we can go the way of Argentina, we can 
end up in a place of hyperinflation.
    So what we must do is get our fiscal house in order and the 
way to do that is to make some bold moves. Typically members of 
Congress are afraid that their people will not understand the 
need to make bold changes. But as I said, Mr. Chairman, I think 
that this is a unique time when people are actually realizing 
the great risk that we have and they expect some serious 
action.
    So if I am correct that right now the general interest is 
starting to overwhelm the special interest, then this is a 
perfect time to act, to propose some solutions. The Road Map 
for America's Future is a solution that I am comfortable with. 
There are some things in there that obviously would be changed, 
but the general direction of it is to make significant changes 
to entitlement spending.
    You all remember in the debate in 2008, one of the 
Presidential debates, John McCain was asked what he would do to 
balance the budget and he came up with something about 
earmarks. Barack Obama really had nothing to say about how he 
would balance the budget.
    And Afterwards George Worrell pointed out that it was 
rounding error in the federal budget to speak of entitlements. 
And George Worrell said unless you are speaking of Medicare, 
Medicaid, and Social Security, you are not talking about 
balancing the budget.
    So our challenge here is to have the courage to talk about 
those things. But what I am here to suggest is that right now 
is the time because people are rising up expressing the general 
interest and saying that they really want to see us get the 
deficit under control and pay down the debt, that that is the 
moment to act.
    Leadership aimed at consensus plus a crisis equals change. 
We have got the crisis. The question is whether we can get 
leadership aimed at consensus. I am comfortable putting forth 
the Road Map for America's Future with Paul Ryan. I hope that 
from the other side, we will hear some ideas and we must come 
together and figure out a way to solve this American challenge.
    Thank you for the opportunity to appear before you, Mr. 
Chairman.
    [The prepared statement of Bob Inglis follows:]

  Prepared Statement of Hon. Bob Inglis, a Representative in Congress 
                    From the State of South Carolina

    Chairman Spratt and Ranking Member Ryan, thank you for giving me 
the opportunity to testify about the Budget Resolution for Fiscal Year 
2011.
    In the past, we in Congress would make speeches about our long-term 
entitlement challenges. We spoke about the need to keep Social Security 
and Medicare solvent, even as some proposed adding more seats to the 
sinking ship. This year, we've passed a new marker that should serve as 
a wake up call to the Congress.
    According to the Office of Management and Budget, in 2009, 
mandatory federal spending exceeded total federal receipts for the 
first time. Consider that for a moment. In 2009, the federal government 
spent more on Social Security, Medicare, Medicaid and other mandatory 
programs than it took in through taxes. Everything else in the budget, 
including defense spending, was paid for with borrowed money. Our 
constituents get it, and they're trying to send us a message: stop the 
spending.
    There is a reason that we so rarely balance our budgets. No matter 
who is in power, regardless of party, the special interests have 
outweighed the general interest.
    But something has changed. Faced with the economic challenges of 
the last two years, Americans have had to tighten their belts; they've 
been confronted with the dangers and consequences of living on credit. 
But when they look at their government they don't see those same 
consequences. Instead they see the same old reckless spending and 
borrowing, and they're outraged.
    Today the American people see the danger of continuing on our 
current path and are demanding a change in course. They want us to cut 
spending, and grow the economy so that we can put out nation on a 
sustainable path forward. For once, the general interest is starting to 
outweigh the special interests. We have before us a unique opportunity, 
one that may not come again, to radically transform the way we budget, 
tax, and spend.
    This week I became a cosponsor of Ranking Member Ryan's Road Map 
for America's Future Act, and I believe that proposal holds great 
promise as a way forward. But whatever the path we take, we need to 
agree on this: now is the time to tackle these tough challenges and 
provide future generations with a government that lives within its 
means.
    Thank you.

    Mr. Larsen. Thank you, Mr. Inglis.
    Would you be willing to entertain a question or two?
    Mr. Inglis. Sure.
    Mr. Larsen. Just to clarify, and this is for the record and 
without any prejudice one way or the other towards the concept 
of earmarks. I think you quoted Mr. Worrell as saying it was a 
rounding error to talk of entitlements. Perhaps you meant to 
say a rounding error to talk of earmarks.
    Mr. Inglis. Absolutely, yes. Yes. It is a rounding error to 
speak of entitlements as a way of balancing the budget. Of 
course, it is an important marker of our devotion to balancing 
the budget. But, yeah, the big ones, of course, Medicare, 
Medicaid, Social Security, and those are the ones we have go 
to----
    Mr. Larsen. A rounding error just to talk of earmarks?
    Mr. Inglis. Right.
    Mr. Larsen. Right? Okay. All right, sir.
    And just as a second point, I think generally there are 
many folks on both sides of the aisle who do want to come 
together and solve these larger issues and we have different 
ways of getting at it and perhaps different conditions to 
getting to the table itself, but perhaps approaching the table 
without conditions is perhaps the best way to get started on 
this.
    Mr. Inglis. Yeah. And to control our rhetoric, I think. You 
know, I was here for six years and I was gone six years, came 
back in 2004. And I left and had an unfortunate experience in a 
U.S. Senate race.
    But in that race, what was thrown up to me was, Bob Inglis, 
why were you voting to cut old people's benefits and starve 
school children and all the normal canards that really come 
from the Democratic side of the aisle. Those are the things we 
need to leave aside.
    We need to say, listen, if we are going to--we all have a 
big problem. It is called entitlement spending and we have got 
to get it under control.
    And so if somebody has the courage to step forward, mostly 
because in listening to the American people and listening to 
the determination that I am hearing in my district, now really 
this is the time to act, do something.
    If you then step forward based on that commitment and what 
you are hearing from your people, then it is best if the other 
side does not then start doing things about starving school 
children and all that kind of stuff because the reality is 
nobody wants to starve school children and nobody wants to put 
seniors on the street. But we do need to figure out a way to 
make Medicare sustainable, Medicaid sustainable, Social 
Security sustainable. And so it is important that we come 
together.
    Mr. Larsen. Before I let you go, I just would note that 
some would say that--you said you had an unfortunate experience 
in the U.S. Senate race--some would argue that regardless of 
the outcome of the U.S. Senate race, it is an unfortunate 
experience.
    Having said that, thank you very much for your testimony to 
the Committee.
    Mr. Inglis. Thanks for the opportunity to be here.
    Mr. Larsen. Sure.
    Without objection, the Committee will stand in recess 
subject to the call of the Chair.
    [Recess.]
    Mr. Larsen. Back in order for Members' Day testimony.
    The Chair now recognizes the gentleman from North Dakota, 
Mr. Pomeroy.

 STATEMENT OF HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. I thank the Chair and apologize for the 
portion of the recess that my delayed appearance here 
represents. I was taking in the first part of the Memorial 
Service for our fallen colleague, Jack Murtha. I know we will 
want to remember him and his family in our prayers.
    I would like to thank you for the opportunity to submit 
testimony to the Committee.
    I want to specifically urge this Committee to exclude from 
the House budget resolution proposals under discussion to fund 
the Environmental Protection Agency's efforts to implement 
regulations on greenhouse gas emissions as well as this budget 
should, I believe, strike budget proposals that eliminate tax 
incentives, vital tax incentives for the oil and gas industry.
    I have become increasingly concerned by the steps that the 
EPA has taken in recent months to regulate greenhouse gas 
emissions under the Clean Air Act. The Clean Air Act was passed 
the early part of the last decade for purposes of dealing with 
acid rain, principally smog and acid rain.
    Well, the Supreme Court ruled that the Clean Air Act can 
indeed provide basis for this agency to move forward with a 
whole slate of regulations on greenhouse gas emissions, 
something that was not contemplated in the drafting of the 
statute and does not produce an appropriate resolution for this 
country.
    The EPA is expected to soon finalize a rule to regulate the 
greenhouse gas emissions from light-duty vehicles. What 
concerns me in particular is not the light-duty vehicles, the 
mobile source regulations that would extend from the agency, 
but the subsequent triggering of regulatory reach to stationary 
sources that emit greenhouse gases such as power plants and 
factories for regulation.
    In anticipation of this outcome, the EPA has announced a 
proposed rule requiring large industrial facilities and power 
plants to obtain construction operating permits covering their 
emissions. These programs would require facilities to 
demonstrate the use of best available control technology and 
energy efficiency measures to minimize greenhouse gas 
emissions. The President's fiscal year 2011 budget proposes to 
provide more than $50 million to develop and implement these 
regulations.
    I believe that these regulations are ill conceived 
fundamentally because they are based on a statute that was 
initially enacted to address an entirely different range of 
issues. I believe that Congress should take the authorizing 
step of putting in place a statute relative to greenhouse gas 
emissions before agency activity moves forward.
    Again, the Supreme Court has held that greenhouse gas 
emissions can move forward under the Clean Air Act, but 
Congress ultimately is the ultimate decider of the basis by 
which this agency acts. And by dealing with this in the budget 
and appropriation process, we can prohibit the agency from 
acting under the wrong statute until the right statute is put 
into place.
    Our nation's energy sector is the heart of everything we 
do, provides the gas that fuels our cars, electricity that 
turns on our lights, and the fuel that heats our home.
    In North Dakota and many parts of the country, the energy 
sector is a primary engine that has kept our economy strong 
while the rest of the country has struggled.
    The current Clean Air Act was not developed for greenhouse 
gas emissions and it does not work to try and shoehorn 
greenhouse gas emissions into this statute.
    The obvious potential, a lawsuit that will result from 
EPA's proposed rule relates to changing the regulatory 
threshold for stationary sources. I think we would all agree 
the thresholds in current law are completely unworkable for 
greenhouse gases.
    There are significant questions as to whether EPA has the 
authority to change this threshold for purposes of attaching 
their regulatory reach. If it is found that they do not have 
the authority, we could be looking at potentially millions of 
stationary sources now requiring review.
    There are also significant concerns over the availability 
of technology to meet regulations. Under the proposed rule, the 
EPA can force an emitter to install a Best Available Control 
Technology that is known by the acronym BACT.
    In the early years of this program and for the foreseeable 
future, it is unclear what EPA would consider BACT compliant. 
As of yet, no commercially available technology for many 
existing sources and technologies for new plants that are 
either unproven or incredibly expensive.
    I am wondering about the jobs this summer in the coal 
generating facilities found in the plains of North Dakota. 
Normally you would have the utilities or the co-ops making 
decisions to do their annual plant upgrades. This has the 
positive effect of lowering emissions and keeping the plant at 
best operating standard.
    What will be placed in question this summer is whether or 
not that kind of investment will even be made because it will 
not know whether or not it will pass muster with rules yet to 
be promulgated by the EPA on best available control technology.
    I think we could lose jobs. We could lose jobs as early as 
this summer and freeze everything in place in terms of plant 
maintenance, a very unfortunate result.
    Now, should Congress ever institute a greenhouse gas 
regulation law, and I believe it will, it is likely to include 
substantial flexibility that will recognize economic concerns 
or create sensitive concerns and other issues that come to the 
floor in the legislative process and are appropriately 
considered as part of an enactment.
    Now, the EPA does not have this reach and this look as they 
move their regulation forward. That, again, is why we need to 
put the statute in place first before the regulation.
    For these reasons, I believe it is critical that Congress 
prevent the regulations and stop the cart from being put in 
front of the horse. Let us prevent the regulations from being 
implemented.
    I have introduced legislation, Save our Energy Jobs Act, 
H.R. 4396, that would remove the current authority to implement 
the regulations under that Supreme Court ruling until Congress 
puts the statute in place.
    Now, just in my final moment, Mr. Chairman, to the 
Committee today, I would like to discuss proposals to eliminate 
tax incentives for fossil fuels.
    Domestic oil and gas development is critical to America's 
economic and strategic future and the majority of this 
development is currently being undertaken by independent 
producers, the very producers who will be hit hardest by the 
elimination of these tax incentives.
    These independent producers come into North Dakota, develop 
technologies that can recover what is now estimated four 
billion barrels of oil, completely changing the economic 
outlook for North Dakota, but making a substantial change also 
in what we think can be contributed to domestic energy needs.
    A primary example, 115,000 barrels per day moving to now 
more than 240,000 barrels per day just in the last two years 
alone.
    As is the case with most new domestic sources of oil and 
gas, this development is not cheap. The new wells which go two 
miles down and then horizontally two miles cost several 
millions of dollars from lease to completion and the majority 
again of the companies picking these up are independent 
producers. They depend upon the existing tax structure which 
has basically allowed the financing of this extraordinary 
capital requirement to develop these oil fields.
    Now, unless we are going to risk busting up the search for 
new domestic sources of fossil fuel, I believe that we need to 
keep these into place. And I would urge that as you put your 
budget together, you reject those budget proposals submitted by 
the Administration.
    Thank you for your kind attention and I value the 
opportunity to put this into the record. Thank you.
    [The prepared statement of Earl Pomeroy follows:]

 Prepared Statement of Hon. Earl Pomeroy, a Representative in Congress 
                     From the State of North Dakota

    Chairman Spratt and Ranking Member Ryan, I would like to thank you 
for the opportunity to testify before the committee today regarding the 
Budget Resolution for fiscal year 2011. In particular, I urge you to 
not include in the House Budget Resolution proposals under discussion 
to fund the Environmental Protection Agency's efforts to implement 
regulations on greenhouse gas emissions and to eliminate tax incentives 
for the oil and gas industry.
    I have become increasingly concerned by the steps that the 
Environmental Protection Agency (EPA) has taken in recent months to 
regulate greenhouse gas emissions under the Clean Air Act, a bill 
actually intended by Congress to primarily regulate smog and acid rain. 
In fact, the EPA is expected to soon finalize a rule to regulate 
greenhouse gas emissions from light-duty vehicles under the Clean Air 
Act which would subsequently subject stationary sources that emit 
greenhouse gases, such as power plants and factories, to regulation. In 
anticipation of this outcome, the EPA has announced a proposed rule 
requiring large industrial facilities and power plants to obtain 
construction and operating permits covering their emissions. These 
permits would require facilities to demonstrate the use of best 
available control technologies and energy efficiency measures to 
minimize greenhouse gas emissions. The President's Fiscal Year 2011 
Budget proposes to provide more than $50 million to develop and 
implement these regulations. I believe that these regulations are ill-
conceived and urge the Committee to not provide any consideration for 
their implementation within Congress's Fiscal Year 2011 Budget.
    Our nation's energy sector is at the heart of everything we do--it 
provides the gas that fuels our cars, the electricity that turns on the 
lights, and the fuel that heats our homes. In North Dakota and many 
other parts of the country, the energy sector is the primary engine 
that has kept our economy strong while the rest of the country has 
struggled with the economic crisis. The current Clean Air Act was 
developed for significantly different purposes than regulating 
greenhouse gases. If we shoehorn the regulation of greenhouse gases 
into these existing regulatory structures we will almost certainly see 
a tremendous amount of litigation and costs around the implementation 
of these rules.
    One obvious potential lawsuit that will certainly result from the 
EPA's proposed rule relates to changing the regulatory threshold for 
stationary sources. While I think we would all agree that the 
thresholds in current law are completely unworkable for greenhouse 
gases, there are significant questions as to whether EPA has the 
authority to make this change. If it is found that the EPA does not 
have this authority we could be looking at millions of potential 
sources that would be regulated including small business, family farms 
and even some homes.
    There are also significant concerns over the availability of 
technology to meet regulations. Under the proposed permitting 
requirements the EPA can force an emitter to install a Best Available 
Control Technology (BACT) to meet emissions. In the early years of this 
program and for the foreseeable future it is unclear what EPA would 
consider a BACT as there is as of yet no commercially available 
technology for many existing sources and technologies for new plants 
are either unproven or incredibly expensive.
    This could have the effect of increasing energy costs dramatically 
in a short period of time, driving employers out of business and 
costing jobs. This is especially dangerous for energy intensive places 
like North Dakota. Significant portions of our population live on a 
fixed income and rely on electricity to heat their homes during our 
cold winters. The Clean Air Act does not provide a mechanism to assist 
individuals and businesses with increased costs caused by regulations. 
These costs will inevitably be passed along to consumers forcing low 
income families to face the difficult decision between heating their 
homes, buying food or paying for critical medicines.
    Should Congress ever institute a greenhouse gas regulation law, it 
is likely to include substantial flexibility to address economic 
concerns of trade sensitive industries and to mitigate the effects of 
the policy on end energy users. With the current EPA proposal there is 
no such flexibility.
    For these reasons I believe that it is critical that Congress act 
to prevent these regulations from being implemented. To that end I have 
introduced H.R. 4396, the Save Our Energy Jobs Act Legislation to 
remove EPA's current authority to implement these regulations, 
restoring that authority to Congress where it belongs. In addition, I 
urge the committee to not provide for the implementation of these 
regulations within the House Budget.
    I would like to use my remaining time to discuss the proposals to 
eliminate tax incentives for fossil fuels. Domestic oil and gas 
development is critical to America's economic and strategic future and 
the majority of this development is currently being undertaken by 
independent producers, the very producers who will be hit hardest by 
the elimination of these tax incentives.
    A prime example of how the oil and gas industry can be an engine 
for economic growth can be seen in North Dakota. While many other 
states around the country have been facing high unemployment rates and 
budget deficits, North Dakota has the country's lowest unemployment 
rate at 4.4 percent and has a budget surplus of nearly $1 billion. Much 
of this success can be attributed to the remarkable development of the 
Bakken oil formation in North Dakota. Since the beginning of 2007 
production has soared from 115,000 barrels per day to more than 240,000 
barrels per day at the end of 2009, making North Dakota the 4th largest 
oil producing state, up from 9th just 3 short years ago. This has 
provided an ample source of jobs and tax revenue back to the state.
    As is the case with most new domestic sources of oil and gas this 
development is not cheap. New wells in the Bakken cost several million 
dollars from lease to completion, with the majority of the companies 
drilling these wells being independent producers. These companies do 
not have the large sums of capital available to them that major 
integrated producers have. The ending of tax incentives, such as the 
expensing of Intangible Drilling Costs, will have the greatest effect 
on these producers who will be forced to spend capital on their tax 
liabilities rather than new wells. This will lead directly to less 
domestically produced oil, increased dependence on foreign oil and 
higher oil costs in general. It is critically important that the United 
States continue to explore for and develop its domestic energy 
resources. Inclusion of proposals to eliminate tax incentives for oil 
and gas, however would have a significant impact on that development 
and I would ask that they not be included in the House Budget.
    Mr. Chairman, I would again like to thank you for the opportunity 
to appear before your committee today to express a few of my priorities 
for the Fiscal Year 2011 House Budget Resolution. It is critical that 
Congress work to ensure that the United States maintain an energy 
policy that will incentivize new sources of domestic energy and does 
not place undo burdens on its citizens and businesses. Budget proposals 
that call for unrestrained regulation of industry and increased taxes 
on development of domestic resources would have the exact opposite 
effect. Thank you.

    Mr. Schrader [presiding]. Thank you, Mr. Pomeroy, and thank 
you for your advocacy on behalf of your State of North Dakota.
    The Chair now recognizes the gentleman from California, Mr. 
Sherman.

 STATEMENT OF HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Sherman. Thank you, Mr. Chairman.
    I will be brief, so the staff should be on the phones 
trying to get your next entertainer, excuse me, Member of 
Congress here to make a presentation.
    I come here to support the land acquisition activity in the 
President's budget and perhaps to urge you to even expand it. 
The national parks are important, particularly in a time of 
recession, first because families need to get outdoors, whether 
it be for a day trip or for a vacation that they can afford 
even when they are cutting back. And our national parks provide 
that.
    Second to preserve our environment, there is nothing more 
important than the National Park System. Our National Park 
System not only needs to be operated, it needs to add 
additional land within the existing borders of our national 
parks and national recreation areas.
    I am particularly here to focus on the Santa Monica 
Mountains National Recreational Area. The Los Angeles 
Megalopolis is under-parked in terms of the amount of parkland 
we have in the region, but we are blessed that right at the 
fringes of our region, we have a unit of the National Park 
Service, namely the Santa Monica Mountains National Recreation 
Area, which is visited by some 33 million people a year, 
visiting both the mountains and the beaches contained within 
its borders. This means that it is by far the most visited unit 
of the National Park System and, yet, much of the land has not 
been acquired and you have a patchwork of state and federal and 
private land within its borders.
    Critical to the park meeting its needs are the acquisition 
of the Zuma/Trancas Canyon watersheds. The President's budget 
provides $3.75 million to acquire 16 tracts totaling 286 acres 
of core habitat in these canyons. The total cost of acquiring 
all the relevant land would be $6 million and would include 28 
parcels. The owners have expressed a willingness to sell to the 
National Park Service subject to negotiation of the price.
    So I would hope that you would preserve, and perhaps 
expand, the federal land acquisition activity in the budget and 
that within that activity, when you see the amount put forward 
for the Santa Monica Mountains, that you would at least 
preserve the $3.75 million and if I have been particularly 
persuasive, increase it has high as $6 million so that we can 
do the in-fill buying to preserve critical habitat and to build 
and preserve what is already the most visited unit of the 
National Park System.
    I do not know if you have any questions.
    [The prepared statement of Brad Sherman follows:]

 Prepared Statement of Hon. Brad Sherman, a Representative in Congress 
                      From the State of California

    Mr. Chairman, thank you for the opportunity to convey my top 
priority for the Fiscal Year 2011 Budget. The Department of the 
Interior Fiscal Year 2011 Budget provides $3.75 million to acquire 16 
tracts totaling 286 acres to protect core habitat in Zuma/Trancas 
Canyons in the Santa Monica Mountains National Recreation Area. I 
strongly support the Administration's request and urge the Committee to 
include the request in the final Budget.
    The National Park Services ranks the preservation of Zuma/Trancas 
Canyons watersheds and coastal estuaries as the top priority for land 
acquisition in the Santa Monica Mountains. The Santa Monica Mountains 
National Recreation Area Land Protection Plan identifies 484 acres in 
the watersheds for acquisition by the National Park Service. This 
includes 28 legal parcels with an estimated fair market value of 
$6,000,000. The parcel owners have expressed a willingness to sell to 
the National Park Service subject to an agreeable value.
    The National Park Service has preserved approximately 6,500 acres 
or over 50 percent of the Zuma/Trancas Canyons watersheds, insuring 
their long-term preservation for public enjoyment. However, high-end 
real estate development on the remaining private in-holdings threatens 
to displace critical habitat and degrade park scenery and coastal water 
quality. Hiking trails within the canyons provide scenic views of the 
Pacific Ocean, numerous waterfalls, and natural solitude. This 
acquisition not only identifies critical open space for habitat 
protection, but it also seeks to secure critical recreational trail 
connections for the public. An additional $2.6 million will be required 
to purchase the remaining 198 acres of undeveloped parkland within 
Zuma/Trancas Canyons.
    Each year over 33 million visitors enjoy the Santa Monica Mountains 
National Recreation Area's world-renowned beaches and explore the 
park's mountains, including its 60-mile Backbone Trail, which stretches 
across the Santa Monica Mountains and traverses through Zuma/Trancas 
Canyons. To date, the National Park Service has acquired 22,000 acres 
of parkland using Land and Water Conservation Funds totaling $163 
million. The Santa Monica Mountains National Recreation Area has one of 
the largest backlogs of acquisition needs in the national park system. 
Approximately 20,595 acres remains to be acquired to complete the Land 
Protection Plan recommendations. The value of these lands is estimated 
to be over $57 million.
    Mr. Chairman, I urge the Committee to budget $3.75 million to 
acquire 286 acres of core habitat in Zuma/Trancas Canyons in the Santa 
Monica Mountains National Recreation Area. Thank you for this 
opportunity to convey my support for this important priority in the 
Fiscal Year 2011 Budget.

    Mr. Schrader. Do not, but I appreciate your advocacy on 
behalf of the Santa Monica area and the National Park System. 
Certainly excellent points and I would support that action. 
Thank you very much.
    Mr. Sherman. Thank you.
    Mr. Schrader. Next we will hear from Mr. Johnson from 
Georgia.

STATEMENT OF HON. HENRY ``HANK'' JOHNSON, JR., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF GEORGIA

    Mr. Johnson. Thank you, Mr. Chairman, for holding this 
hearing today and giving me the opportunity to testify upon 
President Obama's fiscal year 2011 budget proposal.
    The spending decisions made in this budget will have a 
tremendous effect on the lives of my constituents and all 
Americans for many years to come.
    I am pleased that we have a presidential budget request 
that focuses on promoting economic recovery and makes the 
necessary investments so that constituents in George's Fourth 
District will have the opportunity for a better future.
    I strongly urge this Committee to give high priority to 
economic recovery and job creation, foreclosure prevention, 
viral hepatitis funding, justice programs to decrease 
recidivism, and transportation and infrastructure project 
funding that is very aggressive.
    We can all agree that the key to jump-starting our economy 
is to put Americans back to work. I share the President's goal 
of creating jobs for all Americans. Georgia's unemployment rate 
is 10.3 percent which is higher than the national unemployment 
average or the national unemployment rate which is 9.7 percent. 
Therefore, my priority is to preserve and to create new jobs.
    I applaud the President's budget request for $100 billion 
for a jobs package to spur economic growth. We need to continue 
to invest in programs that help laid off workers and their 
families receive the help they need until they can find a job. 
This is why I also supported President Obama's proposal to 
extend unemployment benefits and COBRA health insurance premium 
assistance.
    Foreclosure prevention programs are also necessary to 
facilitate economic recovery. Foreclosure rates remain at all-
time highs and are up 15 percent from January 2009. I am deeply 
concerned about this issue as Georgia is among the top ten 
states with the highest foreclosure rates. More than 1,000 
homes are in the foreclosure process every month in my district 
and we need to do more to stem this tide.
    President Obama's fiscal year 2011 budget requests $88 
million for HUD to support home ownership and foreclosure 
prevention and $20 million to combat mortgage fraud.
    In addition, the President's budget requests $250 million 
for the Neighborhood Reinvestment Corporation's grant. Of that, 
$113 million is requested for foreclosure prevention activities 
which is a $48 million increase over the 2010 request.
    I applaud President Obama for investing in these 
foreclosure prevention programs.
    I value the health of my constituents also. Additional 
funding for viral hepatitis programs at the CDC is essential 
for battling hepatitis B and C. Three to five million people 
are projected to or, put it like this, three to five million 
people are currently infected with either the hepatitis B or 
the hepatitis C virus and do not know it.
    And many of those with respect to hepatitis C are 
approaching eligibility for Medicare because it is kind of a 
baby boomer type of phenomenon at this point, but the cost to 
society for treating liver cancer and, in fact, liver cancer 
cases, cases of liver cancer are among the fastest growing 
cancer rates in this nation.
    So it is very important that we bulk up the 19.5, I believe 
is the budget request for the CDC viral hepatitis program. And 
you can see viral hepatitis actually kills more people per year 
than does HIV. HIV funding is about $800 million per year 
versus the 19 for hepatitis B and C and a higher death rate for 
hepatitis C.
    So it is important that we develop a comprehensive viral 
hepatitis program to prevent new infections and control the 
spiraling cost of treating chronic infections.
    The President's fiscal year 2011 budget only requests $21.1 
million for these activities. Although this is a $1.8 million 
increase from the President's fiscal year 2010 request, it is 
still not enough. At least $50 million should be allocated to 
ensure that the CDC can adequately fund its viral hepatitis 
programs.
    And it is important that we do this so that the CDC can 
conduct the various studies that would be necessary in order to 
show that there is a real need for increased funding for 
prevention efforts, for educating healthcare providers, and 
others about how to stop the transmission of these viruses.
    I also urge the full funding of the Second Chance Act, the 
COPS Program and Byrne Justice Grant programs to combat crime 
and reduce recidivism.
    Furthermore, substantial funding is necessary for mass 
transit and infrastructure programs. Investing in mass 
transportation and infrastructure projects will create jobs, 
allow people who want to work, it will give them an option for 
getting to work and will ultimately revitalize our economy by 
creating jobs.
    Again, thank you for holding this hearing and giving me the 
opportunity to testify. And I yield back the balance of my 
time.
    [The prepared statement of Henry ``Hank'' Johnson follows:]

     Prepared Statement of Hon. Henry C. ``Hank'' Johnson, Jr., a 
          Representative in Congress From the State of Georgia

    Thank you Chairman Spratt, and Ranking Member Ryan for holding this 
hearing today, and giving me the opportunity to testify upon President 
Obama's Fiscal Year 2011 Budget proposal.
    The spending decisions made in this budget will have a tremendous 
effect on the lives of my constituents and all Americans for many years 
to come.
    I am pleased that we have a presidential budget request that 
focuses upon promoting economic recovery and makes the necessary 
investments so that constituents in Georgia's Fourth Congressional 
District will have the opportunity for a better future.
    I strongly urge this Committee to give high priority to economic 
recovery and job creation, foreclosure prevention, viral hepatitis 
funding, justice programs to decrease recidivism, and transportation 
and infrastructure projects.
    We can all agree that the key to jumpstarting our economy is to put 
Americans back to work. I share the President's goal of creating jobs 
for all Americans. Georgia's unemployment rate is 10.3 percent, which 
is higher than the national unemployment rate of 9.7 percent. 
Therefore, my priority is to preserve and create jobs.
    I applaud the President's budget request of $100 billion for a jobs 
package to spur economic growth. We need to continue to invest in 
programs that help laid-off workers and their families receive the help 
they need until they find new jobs. This is why I also support 
President Obama's proposal to extend unemployment benefits and COBRA 
health insurance premium assistance.
    Foreclosure prevention programs are also necessary to facilitate 
economic recovery. Foreclosure rates remain at an all time high and are 
up 15 percent from January 2009. I am deeply concerned about this issue 
as Georgia is among the top ten states with the highest foreclosure 
rates. More than 1,000 homes are in the foreclosure process every month 
in my district, and we need to do more to stem the tide.
    President Obama's Fiscal Year 2011 Budget requests $88 million for 
HUD to support home ownership and foreclosure prevention and $20 
million to combat mortgage fraud. In addition, the President's Budget 
requests $250 million for the Neighborhood Reinvestment Corporation's 
grant. Of that, $113 million is requested for foreclosure prevention 
activities, which is a $48 million increase over the 2010 request. I 
applaud President Obama for investing in these foreclosure prevention 
programs.
    I value the health of my constituents, too. Additional funding for 
viral hepatitis programs at the CDC is essential for battling hepatitis 
B and C. Increased funding is critical in developing a comprehensive 
viral hepatitis program to prevent new infections and control the 
spiraling cost of treating chronic infections. The President's Fiscal 
Year 2011 Budget only requests $21.1 million for these activities. 
Although this is a $1.8 million increase from the President's fiscal 
Year 2010 request, it's still not enough. At least $50 million should 
be requested to ensure that the CDC can adequately fund its viral 
hepatitis programs.
    I also urge the full funding of the Second Chance Act, the COPS 
Program, and Bryne Justice Grant Program to combat crime and reduce 
recidivism.
    Furthermore, substantial funding is necessary for mass transit and 
infrastructure programs. Investing in mass transportation and 
infrastructure projects will create jobs, allow people who want to work 
an option for getting to work and will ultimately revitalize our 
economy by creating jobs.
    Again, thank you for holding this hearing and giving me the 
opportunity to testify. I yield back the balance of my time.

    Mr. Schrader. Thank you very much, Representative. 
Appreciate your testimony and your tireless advocacy for those 
in your district and this country. Thank you.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Schrader. Turn to the Honorable Congressman from New 
York, Mr. Eliot Engel.

  STATEMENT OF HON. ELIOT ENGEL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Engel. Thank you. Thank you very much for holding this 
hearing today and for the listening to us, I almost feel guilty 
making you sit through all this, but I do appreciate it. Thank 
you very, very much.
    I represent New York's 17th District, and that is the 
northern most part of New York City and the northern and 
western suburbs.
    What I would like to discuss is the need for increased 
funding to the Refugee School Impact Grant Program though the 
Office of Refugee Resettlement, Administration for Children & 
Families of the Department of Health & Human Services, and it 
involves Haiti and the earthquake in Haiti.
    I have a population of about 35,000 Haitians in my 
district, and obviously we are all aware of the devastation 
caused by the earthquake in Haiti, we have welcomed Haitian 
refugees, Haitian immigrants, and Haitian-Americans returning 
to the U.S., yet the influx of refugee children into our local 
schools is putting a devastating strain on school districts.
    The districts are already feeling their budgets are 
constrained, due to the severe recession we are experiencing, 
you add this on top of it, it is very, very difficult. I have 
heard this concern not only from my New York colleagues, but 
also my colleagues from South Florida, as well as other areas 
that have large numbers of Haitian-American population.
    It is estimated in New York that $15,536 is spent per pupil 
for overall education spending. Haitian refugee school children 
will also need more specialized support, requiring additional 
funds per pupil.
    The superintendent of the East Ramapo Central School 
District in Rockland County in my district has estimated that 
100 to 200 Haitian children will enter their schools by the end 
of the year and more the following year. The cost to the East 
Ramapo Central School District could be over several million 
dollars to educate and support these school children.
    Since many refugee students arrive without school records, 
teachers and specialists often need to test entering refugee 
student's academic knowledge and language ability to know what 
grade in which to place them in. Also, many of the refugee 
school children need more support than traditional students for 
services such as grief counseling, teachers trained in cultural 
sensitivity, English as a second language courses, even 
supplies such as backpacks and notebooks.
    The Refugee School Impact Grant Program provides support to 
impacted school districts, such as the East Ramapo Central 
School District, with the funds necessary to pay for activities 
that will lead to the effective integration and education of 
all refugee children.
    Funding allows for educational support activities, such as 
English as a Second Language training, after school tutoring, 
remedial summer programs, or bilingual/bicultural aides. These 
services are desperately needed for Haitian refugee school 
children. I am privileged, as I said before, to represent a 
large concentration of Haitians and Haitian-Americans.
    Local school district superintendents in Rockland County 
have already made clear the need for additional financial 
assistance required to address the influx of refugee children 
into local schools.
    It is shocking to note that during fiscal year 2010, 2009, 
2008, 2007, the funding for the Refugee School Impact Grant 
remained at just $15 million.
    Within the Administration for Children and Families fiscal 
year 2011 congressional justification, a request is made again 
for only the same $15 million for this necessary grant program.
    The fiscal year 2011 budget request was released after the 
earthquake in Haiti, yet there was not a proactive initiative 
to increase the funding for this program. So it seems a bit 
silly that considering we had the earthquake in Haiti and 
considering we now have an influx of Haitian children coming to 
this country, that the $15 million request would remain 
stagnant. And as I mentioned, that was the same request going 
back three years ago as well. And so with these new 
circumstances there certainly should be an increase in this 
request.
    Now an additional $25 million was allocated for Social 
Service grant programs to assist Emerging Populations Programs, 
that does not include assistance for school districts. So it is 
a bit strange that we would have an additional $25 million for 
that, but not have anything on top of what we have been asking 
for the past three years for school districts.
    I fully support funding President Obama's fiscal year 2011 
budget request to fund the Social Services Programs of the ORR 
at $253 million, an increase of $25 million above fiscal year 
2010; however, I strongly encourage additional funding above 
the $15 million for the Refugee School Impact Grant Program as 
well.
    Obviously it is our responsibility to assist our local 
school districts in educating newly arrived refugee school 
children and provide them with the proper resources so they may 
fully integrate into our society.
    I urge the Budget Committee to increase funding for the 
Refugee School Impact Program above $15 million in the fiscal 
year 2011 in the budget resolution. I will also be working with 
my colleagues on the House Appropriations Committee for an 
increase in funding for this program to be included in any 
future Haiti supplemental.
    So I thank you again for the opportunity to testify before 
the Budget Committee today, and I look forward to working with 
you and answering any questions you may have.
    [The prepared statement of Eliot Engel follows:]

Prepared Statement of Hon. Eliot L. Engel, a Representative in Congress 
                       From the State of New York

    Chairman Spratt and Ranking Member Ryan, thank you for holding 
today's hearing and for the opportunity to discuss one of my priorities 
for New York's 17th District in the Fiscal Year 2011 Federal Budget. 
Specifically, I would like to discuss the need for increased funding to 
the Refugee School Impact Grant Program though the Office of Refugee 
Resettlement, Administration for Children & Families, Department of 
Health & Human Services.
    We are all aware of the devastation caused by the earthquake in 
Haiti, and have welcomed Haitian refugees, Haitian immigrants and 
Haitian-Americans returning to the U.S. Yet the influx of refugee 
children into our local schools is putting a devastating strain on 
school districts. The districts are already feeling their budgets are 
constrained due to the severe recession we are experiencing. I have 
heard this concern not only from my New York colleagues, but also my 
colleagues from South Florida as well.
    It is estimated in New York that $15,536 is spent per pupil for 
overall education spending. Haitian refugee school children will also 
need more specialized support, requiring additional funds per pupil. 
The superintendent of the East Ramapo Central School District has 
estimated that 100-200 Haitian children will enter their schools by the 
end of the year. The cost to the East Ramapo Central School District 
could be over several million dollars to educate and support these 
school children.
    Since many refugee students arrive without school records, teachers 
and specialists often need to test entering refugee student's academic 
knowledge and language ability to know what grade to place them. Also, 
many of the refugee school children need more support than traditional 
students for services such as grief counseling, teachers trained in 
cultural sensitivity, English as a Second Language courses, even 
supplies such as backpacks and notebooks.
    The Refugee School Impact Grant Program provides support to 
impacted school districts, such as the East Ramapo Central School 
District, with the funds necessary to pay for activities that will lead 
to the effective integration and education of all refugee children. 
Funding allows for educational support activities, such as English as a 
Second Language training, after school tutoring, remedial summer 
programs, or bilingual/bicultural aides. These services are desperately 
needed for Haitian refugee school children.
    I am privileged to represent a large concentration of Haitians and 
Haitian-Americans. Local school district superintendents in Rockland 
County have already made clear the need for additional financial 
assistance to address the influx of refugee children into local 
schools. It is shocking to note during FY2010, 09, 08, and 07 the 
funding for the Refugee School Impact grant program remained at $15 
million. Within the Administration for Children and Families FY2011 
Congressional Justification, a request is made again for only $15 
million for this necessary grant program. The FY2011 Budget Request was 
released after the earthquake in Haiti, yet there was not a proactive 
initiative to increase the funding for this program.
    However, an additional $25 million was allocated for Social Service 
grant programs to assist Emerging Populations programs, which does not 
include assistance for school districts. I support fully funding 
President Obama's FY2011 budget request to fund the Social Services 
programs of the ORR at $253 million, an increase of $25 million above 
FY2010. However, I strongly encourage additional funding above $15 
million for the Refugee School Impact Grant Program as well.
    It is our responsibility to assist our local school districts in 
educating newly arrived refugee school children, and provide them with 
the proper resources so they may fully integrate into our society. I 
urge your Committee to increase funding for the Refugee School Impact 
Program above $15 million in the FY2011 in the Budget Resolution. I 
will also be working with my colleagues on the House Appropriations 
Committee for an increase in funding for this program to be included in 
any future ``Haiti Supplemental.''
    Thank you again for the opportunity to testify before the Budget 
Committee today. I look forward to working with you and answering any 
questions you may have.

    Mr. Schrader. Thank you very much, representative, I 
appreciate your comments and certainly well stated and very 
compelling arguments about the increase necessary given the 
extremely extraordinary and horrific situation that is now 
going on in Haiti, so as the Chair I will take that in 
advisement and talk to my colleagues.
    Mr. Engel. Thank you very much.
    Mr. Schrader. Thank you very much. Well the Chair will 
stand in recess subject to call the Chair for a little bit.
    [Recess]
    Mr. Schrader. Back to order. Welcome the Honorable 
Representative Davis from Illinois. Appreciate your attending 
and look forward to your comments.

STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis. Thank you very much Mr. Chairman, and I would 
like to begin by thanking Chairman Spratt, Ranking Member Paul 
Ryan and other Members of the Budget Committee for opportunity 
to appear here today.
    Never before has there been a level of economic distress 
and uncertainty that for generations to come would marvel or 
match what we are experiencing today. According to a recent CBO 
report, ``the recession has lowered employment by about 11 
million'' and automatic stabilizers will add to/increase the 
federal budget deficit of about ``$400 billion'' in 2010 and 
2011. And while economic indicators suggest we have passed the 
trough of the recession, forecasters predict that recovery will 
be slow.
    As we move from recession to recovery, we must examine the 
efficacy of federal programs in fulfilling intended outcomes 
and resolve fragmented service-delivery at every level. More 
broadly, we must utilize current economic conditions to our 
advantage to advance cooperation, coordination, and 
collaboration among federal, state, and local agencies 
affecting our children well-being and our nation's future.
    To this end, I commend President Obama for his 
comprehensive approach to budgeting and I commend him for 
holding the line, but at the same time recognizing that there 
are areas where we need to provide every level of service that 
we possibly can.
    In particular I am very much concerned about the whole 
entry of re-entry, and I urge the Budget Committee to try and 
make sure that we fully fund something called the Second Chance 
Program, and that we budget the kind of resources for those 
activities that can be instrumental in helping people reconnect 
with society in a very meaningful way.
    In addition to that, all of us know that education is 
important for having a decent and good life in this country, 
and I would urge that we put as many resources into education 
at every level beginning with early childhood all the way 
through to the highest levels of education that are needed in 
our society.
    I also want to mention the whole need for health awareness, 
health education, and health promotion. We talk a great deal 
about what it costs to provide health services, but I can 
assure you that if we help people learn how to better care for 
themselves we can reduce the cost of delivering care, we can 
increase and improve the health status of our citizens, and we 
can make America a better place in which to live. And one of 
the areas in which we can do that through is community health 
centers which I consider to be the best thing that has happened 
to ambulatory healthcare in this country since the Indians 
discovered corn flakes. And so obviously I am very high on this 
type of program, and I want to thank you for the opportunity to 
be here and to testify, and I know that Chairman Spratt and the 
Committee have done exceedingly well in years past, I have no 
reason to believe that anything will be done differently this 
year, and so I want to commend Representative and Chairman John 
Spratt for the tremendous work that he has done, and certainly 
my commendations go to the Ranking Member, Paul Ryan from 
Wisconsin. And I thank you very much and yield back the balance 
of my time.
    [The prepared statement of Danny K. Davis follows:]

Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       From the State of Illinois

    Good Morning, I would like to begin by thanking Chairman John 
Spratt, Ranking Member Paul Ryan and Members of the Budget Committee 
for today's hearing on the proposed FY '11 budgetary spending and 
agenda.
    Never before has there been a level of economic distress and 
uncertainty for generations to come. Indeed, according to a recent CBO 
report, ``the recession has lowered employment by about 11 million'' 
and automatic stabilizers will add to/increase the federal budget 
deficit of about ``$400 billion'' in 2010 and 2011. (January 2010) 
While economic indicators suggest we have passed the trough of the 
recession, forecasters predict the recovery will be slow.
    As we move from recession to recovery, we must examine the efficacy 
of federal programs in fulfilling intended outcomes and resolve 
fragmented service-delivery at every level. More broadly, we must 
utilize current economic conditions to our advantage to advance 
cooperation, coordination and collaboration among federal, state and 
local agencies affecting our children well-being and our nation's 
future.
    To this end, I commend President Obama for his comprehensive 
forward-focus approach of investing in public programs to better serve 
poor, low-income Americans living at/below the poverty line by:
    <bullet> Expanding the Race to the Top competition, which 
encourages successful educational reforms at the state and local level;
    <bullet> Increasing Community Health Centers (CHC) funding aimed at 
renovating and improving CHC facilities and knowledge management 
systems;
    <bullet> Spurring innovative interagency partnership between HHS 
and DOJ for Drug Courts, Reentry Programs and Residential 
(institutions);
    <bullet> Increasing Department of Labor's WIA/Transitional jobs 
appropriations, which includes funding for Section 212 of Second 
Chance, transferable funding to Health and Human Services and the 
Department of Justice for pilot and demonstrational transitional job 
programs in HHS, DOJ and increasing Youth Build programs for high 
school dropouts who've reenrolled in alternative schools; and lastly
    <bullet> Establishing a new Fatherhood, Marriage, and Families 
Innovation Fund in an attempt to build stronger evidence-base service 
intervention models aimed at removing barriers to employment and 
increasing family functioning and parenting capacity.
    These issues and near and dear to my heart and I wholeheartedly 
support the Administration's proposed budget and agenda to invest in 
our children well-being and nation's economic viability.
    In closing, thank you Chairman Spratt and Ranking Member Ryan for 
today's hearing and for the opportunity to lend my voice in the call 
for Responsible Government.

    Mr. Schrader. Thank you very much, appreciate the comments 
from the gentleman from Illinois, very excellent comments 
recognizing the investments the President and hopefully the 
Congress will be putting into the re-entry issues, educational 
levels, and our community health centers. Really good comments, 
thank you.
    Next we have the Honorable Congresswoman from California, 
Ms. Lee.

  STATEMENT OF HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Lee. Thank you very much. Well first let me thank you 
for inviting the Congressional Black Caucus to come share the 
priorities of our fiscal year 2011 budget. The Congressional 
Black Caucus budget priorities are a reflection of our values 
and address many of the challenges that we face as a nation.
    While some are saying that the economy is in recovery, it 
is clear that we must do more to create jobs and help 
struggling families get back on their feet. We must maintain 
our commitment to the families who are struggling to find work, 
facing foreclosures, eviction, and even homelessness. We must 
especially focus on increasing support for the chronically 
unemployed.
    By all credible amounts the Obama administration and this 
Congress saved our economy from total collapse under the weight 
of the failed policies of the past, but our budget must do more 
to help American families who still suffer the consequences of 
the ongoing economic crisis.
    As the House Budget Committee begins to consider the 
President's fiscal 2011 budget, the Congressional Black Caucus 
respectfully highlights the following priorities that the 
Committee should consider. A full list will be submitted for 
the record.
    First, job creation and economic development. Our efforts 
on job creation must do more to specifically target the 
chronically unemployed for opportunities for job training and 
employment. The solutions that are included in our budget must 
include worker training and the use of existing federal 
programs that can target job creation to those communities with 
the highest rates and longest history of unemployment.
    The budget must support the growth of a green economy by 
including the $275 million in dedicated funding passed by the 
house in the Jobs for Main Street Act of 2009.
    The CBC recommends a larger increase for Function 150 to 
account for additional aid for emergency relief, reconstruction 
in long-term development efforts in Haiti.
    We also recommend that additional funds be allocated 
towards the global fight for HIV Aids, Tuberculosis, and 
Malaria. We will improve global peace and security by 
increasing funding for USAID, migration and refugee assistance, 
peace keeping efforts, and our international education, 
healthcare, and cultural exchange programs, child survival and 
health programs, and development assistance.
    The CBC also supports reducing funding for the Failed 
Ballistic Missile Defense Program in vigorously targeting 
waste, fraud, and abuse at the Defense Department.
    With regard to healthcare the CBC continues to support the 
President's call for health insurance reform. The CBC urges the 
Budget Committee to account for the cost and savings of health 
insurance reform with a public health insurance option to 
ensure that the 45 million uninsured Americans, 4 million of 
whom are children, have access to quality and affordable 
healthcare.
    The CBC urges the committee to account for funding efforts 
to combat and reduce juvenile crime in efforts to rehabilitate 
ex-offenders, as my colleague just so brilliantly set forth.
    We urge full funding of the Second Chance Act, and much 
needed assistance in increases for youth crime intervention 
programs, and to account for the passage of the Youth PROMISE 
Act.
    The CBC strongly supports the President's request to 
include $8.1 billion to strengthen vital nutrition program 
during this terrible recession.
    We urge the committee to budget for extensions to vital 
programs like unemployment insurance, Medicaid, and the 
Recovery Act's COBRA subsidy, and to include funds for a robust 
reauthorization of the TANF Block Grants.
    Let thank the committee again for the opportunity to share 
the priorities of the Congressional Black Caucus. If there are 
no objections I would like to submit detailed list for the 
record.
    The CBC has a broad range of priorities with a common 
purpose to safeguard our shared values and to invest in an 
America that will ensure opportunities and prosperity for 
generations to come.
    [The prepared statement of Barbara Lee follows:]

 Prepared Statement of Hon. Barbara Lee, a Representative in Congress 
                      From the State of California

    Thank you Chairman Spratt, Ranking Member Ryan and the members of 
the Budget Committee for giving me the opportunity to share with you, 
the priorities of the Congressional Black Caucus for the FY 2011 
Budget.
    Let me also thank Congressman Bobby Scott and Congresswoman Gwen 
Moore and every member of the CBC and their staffs for their work in 
support of the CBC and our goals for this year's budget.
    Mr. Chairman, a budget is moral document. It shines a light on what 
the priorities of our government are. It also defines what we as a 
community, as a society and as a nation hold dear.
    That's why I am pleased that the CBC's budget priorities are a 
reflection of our values and addresses many of the challenges that we 
face as a nation.
    While some are saying that the economy is in recovery it is clear 
that we must do more to create more jobs and help struggling families 
get back on their feet.
    We must maintain our commitment to the families who are struggling 
to find work, facing foreclosure, eviction and even homelessness.
    We must especially focus on increasing support for the chronically 
unemployed.
    By all credible accounts, the Obama Administration and this 
Congress saved our economy from total collapse under the weight of the 
failed policies of the past.
    But our budget must do more to help the American families who still 
suffer the consequences of the ongoing economic crisis.
    As the House Budget Committee begins to consider the President's 
Fiscal Year 2011 Budget, the Congressional Black Caucus respectfully 
highlights the following priorities that the Committee should consider.
    A full list will be submitted for the record.
                 job creation and economic development
    Our efforts at job creation must do more to specifically target the 
chronically unemployed for opportunities for job training and 
employment.
    The solutions included in the budget must include worker training 
and the use of existing federal programs that can target job creation 
to those communities with the highest rates and longest history of 
unemployment.
    The budget must support the growth of a Green Energy Economy by 
including the $275 million in dedicated funding passed by the House in 
the Jobs for Main Street Act of 2009.
                         international affairs
    The CBC recommends a larger increase for Function 150 to account 
for additional aid for emergency relief, reconstruction and long term 
development efforts in Haiti.
    We also recommend that additional funds be allocated towards the 
Global Fund to Fight AIDS, Tuberculosis and Malaria.
    We will improve global peace and security by increasing funding for 
USAID; migration and refugee assistance; peacekeeping efforts in 
Darfur; international education, healthcare and cultural exchange 
programs; child survival and health programs; and development 
assistance.
                            national defense
    The CBC supports reducing funding for the failed Ballistic Missile 
Defense program and vigorously targeting waste, fraud and abuse at the 
Defense Department.
                               healthcare
    The CBC continues to support the President's call for health 
insurance reform. The CBC urges the Budget Committee to account for the 
cost and savings of health insurance reform with a public health 
insurance option to ensure that the 45 million uninsured Americans 
(four million of whom are children) have access to quality and 
affordable healthcare.
                            justice programs
    The CBC urges the Committee to account for funding efforts to 
combat and reduce juvenile crime and efforts to rehabilitate ex-
offenders. We urge full funding of the Second Chance Act, much needed 
increases in youth crime intervention programs and to account for 
passage of the Youth PROMISE Act.
                            income security
    The CBC strongly supports the President's request to include $8.1 
billion strengthen vital nutrition programs during this terrible 
recession.
    We urge the Committee to budget for extensions to vital programs 
like Unemployment Insurance, Medicaid, and the Recovery Act's COBRA 
subsidy and include funds for a robust reauthorization of the Temporary 
Assistance for Needy Families (TANF) block grant.
                                closing
    Let me thank the committee again for the opportunity to share the 
priorities of Congressional Black Caucus with you today and if there 
are no objections I would like to submit a detailed list for the 
record.
    The Congressional Black Caucus has a broad range of priorities but 
with a common purpose, to safeguard our shared values and to invest in 
an America that will ensure opportunities and prosperity for 
generations to come.

    [Additional submission of Ms. Lee follows:]

   Congressional Black Caucus (CBC) Priorities for the FY 2011 Budget

    As the House Budget Committee begins to draft the Congressional 
Budget Resolution for Fiscal Year 2011, the Congressional Black Caucus 
highlights the following priorities:
                 job creation and economic development
    The CBC urges Congress to utilize future jobs bills to expand 
unemployment insurance and COBRA benefits; Locally-directed funding for 
Summer Youth Employment and collegiate level apprenticeships and/or 
fellowships; Create direct public job initiatives, involving the 
Department of Labor Employment & Training Administration and the 
Corporation for National and Community Service, to maximize direct 
training and hiring; Enforce the minority contracting requirements 
under the Department of Transportation; Promote equal access to funding 
for Projects of National Significant and National Corridor grant in the 
extension of SAFETEA-LU; include language access and culturally 
competent staff for job programs; include disaggregated data 
collection; and provide access to capital and technical assistance to 
micro and small businesses.
    We ask that the budget include funding for the On-the-Job Training 
program in a future jobs bill and use the targeted approach to funding 
and program distribution for the bill by incorporating Public Use 
Microdata Areas (PUMA's) and/or other authorized approaches to identify 
and target areas with poverty rates of 15 percent or higher or 
unemployment of greater than 10 percent.
    The CBC urges the Committee to ensure continued support for the 
growth of a Green Energy Economy by including the $275 million in 
dedicated energy efficiency and renewable energy training programs 
(Green Jobs Act), funding passed by the House in the Jobs for Main 
Street Act of 2009.
                            national defense
    The CBC supports robust funding for our troops and America's 
national defense. The CBC supports reducing funding for the failed 
Ballistic Missile Defense program and reallocating those funds within 
the Defense Department to fund increases in shipbuilding, troop 
readiness, military and civilian pay, cancer research, and mental 
health services.
    However, the Defense Department is notoriously known for being one 
of the more wasteful federal agencies. The CBC commends the President 
for his continued efforts to reform and improve DoD procurement 
practices and his commitment to end wasteful and redundant weapons 
systems. The CBC has consistently fought for funding to weed out waste, 
fraud and abuse within the Department of Defense. In 2001, the 
Government Accountability Office made 3,099 recommendations to reduce 
waste, fraud and abuse at the Department. According to a December 2009 
report by the GAO, the Department has implemented 60.6% of the 
recommendations. According to the GAO, the Department has decided to 
not implement 12% of the recommendations and has yet to act on 27% of 
them. The CBC encourages the Budget Committee to again include the 
necessary funding for the Defense Department to implement the remaining 
GAO recommendations and to provide justifications to the Congress on 
each of their decisions not to implement the recommendations. The CBC 
also recommends that the Committee provide the necessary funding for a 
new GAO report on waste, fraud and abuse at the Department of Defense.
                         international affairs
    The CBC commends the President for again requesting an increase of 
nearly $8 billion for the Department of State and other international 
programs in FY2011, which is a 15.6% increase over the enacted FY2010 
level. However, the CBC recommends a larger increase for Function 150 
to account for additional and much needed aid for emergency relief, 
reconstruction and long term development efforts in Haiti. The CBC also 
recommends that additional funds also be allocated towards the Global 
Fund to Fight AIDS, Tuberculosis and Malaria; USAID; migration and 
refugee assistance; peacekeeping efforts in Darfur; education, 
healthcare and cultural exchange programs; child survival and health 
programs; and development assistance.
    As our combat presence in Iraq continues to wind down in FY 2011, 
the CBC also urges the Budget Committee to further account for the need 
to increase Iraqi humanitarian assistance in FY 2011. Since the 
President has escalated U.S. military involvement in Afghanistan, the 
CBC also urges the Committee to budget for additional humanitarian 
assistance to Afghanistan.
                            income security
    The CBC strongly supports the President's request to include $8.1 
billion for discretionary nutrition programs, such as the Supplemental 
Nutrition Assistance Program and WIC as well the $10 billion over 10 
years to strengthen Child Nutrition and WIC Reauthorization 
legislation.
    We urge the Budget Committee to include extensions to vital 
programs like Unemployment Insurance, Medicaid, and the Recovery Act's 
COBRA subsidy. The CBC commends the President for including funds to 
establish a practical, national asset limit floor across means-tested 
human services, food, and cash assistance programs. We plan to continue 
to work to help the millions of families who have been forced to 
receive government assistance due to the economic downturn. As more and 
more Americans lose their jobs, it makes little sense to force families 
to drain their savings to the extent necessary to qualify for certain 
temporary economic assistance programs.
    The CBC also urges the Committee to consider including the 
necessary budget authority to account for the cost of increasing the 
federal minimum wage and indexing it to inflation. Finally, the 
Committee should also consider the cost of redefining the Federal 
Poverty Level, which is currently $22,050 for a family of four (100%). 
The CBC urges the creation of a Decent Living Standard Threshold to 
determine the amount of annual income that would allow an individual to 
live beyond deprivation at a safe and decent, but modest, standard of 
living.
    The CBC also strongly urges that the Committee include funding to 
accommodate the overdue reauthorization of the Temporary Assistance for 
Needy Families (TANF) block grant. Due to the economic downturn and 
subsequent rise in poverty, TANF, which was last reauthorized in the 
Deficit Reduction Act of 2005 and has annually been flat funded since 
its enactment in 1996, is in need of a substantial increase in funding. 
Along with this increased funding, the CBC urges that the Committees of 
jurisdiction work to reform this work-based program to adequately work 
in a recession where there are very few jobs, expand access to basic 
and post-secondary vocational education, expand eligibility, re-
evaluate time limits, expand access to supportive services like child 
care, and increase the amount of cash assistance for TANF recipients.
                            housing programs
    The housing crisis lies at the center of the economic problems we 
face today. The CBC encourages the Committee to reverse eight years of 
underfunding of the nation's affordable housing programs and we are 
pleased that the Administration has proposed a HUD budget that 
increases funding for the Department by 19 percent. We urge the 
Committee to match this aggressive budget authorization and to support 
large investments into the Community and Regional Development and the 
Income Security functions in order to account for increases in 
Affordable Housing programs.
    Specifically, the Committee should consider including the necessary 
budget authority to fund the Section 8 public housing operating subsidy 
at 100% of need. In addition, the Committee must also consider 
providing sufficient budget authority for the renewal of all Section 8 
vouchers currently in use.
    Although the public housing capital fund received an injection of 
$4 billion in the American Recovery and Reinvestment Act, this only 
represented 12.5 percent of the estimated $32 billion backlog in 
deferred capital needs. The President's FY2011 Budget cuts the fund by 
more than $450 million. The CBC urges the Committee to reject this cut 
and to provide the necessary budget authority to meet deferred capital 
needs.
    The President's budget cuts the Supportive Housing for the Elderly 
(Section 202) program by more than $550 million and the Supportive 
Housing for Persons with Disabilities (Section 811) program by $210 
million. The CBC strongly urges the Committee to reject these cuts. 
These supportive housing programs are vital to millions of Americans 
and should not be cut during an economic recession.
    We urge the committee to continue our commitment to support the Low 
Income Housing Tax Credit (LIHTC) program as the economic crisis has 
undermined the intended funding source even as it increases the need 
for more affordable housing. It is a vital tool for our affordable 
housing community to leverage federal dollars to provide critically 
needed housing and will create jobs, stimulate the economy and take 
advantage of the window of opportunity created by the large drop in 
housing prices.
    The CBC urges the Budget Committee reject the President's $9.9 
million cut from the Fair Housing Assistance Program (FHAP) and the 
Fair Housing Initiatives Program (FHIP). These programs comprise the 
federal government's primary expenditures at the state and local levels 
on enforcing the nation's fair housing laws that combat housing 
discrimination and ensure equal housing opportunities. The CBC believes 
that sustained funding for this program is critically important as the 
housing market slowly recovers.
    Additionally, while the CBC supports the positive new programs, 
such as Bank on USA and the National Healthy Food Financing Initiative 
included in the President's proposals on CDFI's, we are concerned that 
the recently enacted Capital Magnet Fund is being cut off during a 
critical time for affordable housing. For many of the same reasons we 
must continue to support the LIHTC programs, we must support the 
Capital Magnet Fund. Programs that leverage federal dollars to create 
public/private partnerships which invest in our most vulnerable 
communities are absolutely critical, now more than ever.
                            justice programs
    The CBC urges the Committee to account for funding efforts to 
combat and reduce juvenile crime and efforts to rehabilitate ex-
offenders. The CBC urges the full funding of the Second Chance Act, 
which provides transitional assistance to assist ex-offenders in coping 
with the challengers of reentry. Removing barriers to reentry has 
proven to reduce recidivism, which in the long run reduces crime. In 
addition, the Committee should account for much needed increases in 
youth crime intervention programs. The CBC also urges the Committee to 
account for passage of the Youth PROMISE Act, a comprehensive gang and 
youth violence prevention bill, and allocate funding at authorized 
levels. Research has shown that targeting funding towards intervention 
rather than incarceration is more effective at reducing crime and 
saving the taxpayer money in the long run.
    The CBC has always supported efforts to increase funding for the 
Justice Assistance Program, the Juvenile Justice Program, Civil Rights 
Enforcement, the COPS Program, the Byrne Justice Grant Program, and 
State and Local Law Enforcement Assistance. The CBC urges the Committee 
to account for sustaining many of the important increases for these 
programs that were included in the American Recovery and Reinvestment 
Act.
                               education
    The CBC offers its full support to the President's budget request 
for a $3 billion increase in K12 education programs as well as the 
additional $1 billion promised to Congress by the President upon 
passage of an overhaul of the Elementary and Secondary Education Act. 
However, the CBC is concerned with the President's new focus on 
competitive grant funding for education, his proposal to flat fund 
Title I, and his increased emphasis on charter schools. In addition, 
the CBC would like to see continued and sustained increases in 
education funding, especially for Title I and IDEA.
    The CBC wholeheartedly supports the President's continued efforts 
to reform and expand the Pell Grant program.
    The CBC also supports increases to Race to the Top and Promise 
Neighborhoods. At the same time, we urge the Committee to account for 
needed increases in funding for Head Start, TRIO (including Upward 
Bound), GEAR UP, Youth Build, and vocational education programs. In 
addition, the CBC urges the Committee to account for funding for 
expanded grants to states for workplace and community transition as 
authorized in the Higher Education Opportunity Act. These grants will 
better assist and encourage incarcerated individuals who have obtained 
a secondary school diploma or its recognized equivalent to acquire 
educational and job skills.
    Finally, the CBC urges the Committee to account for fully funding 
the historic increases in funding for Historically Black Colleges and 
Universities and Minority Serving Institutions authorized in the Higher 
Education Act reauthorization enacted in 2008.
                             transportation
    The CBC supports, in general, the Views and Estimates of the 
Committee on Transportation and Infrastructure for FY 2011 urges that 
programs within the jurisdiction of the Transportation and 
Infrastructure Committee be funded at the authorized funding levels in 
FY 2011. The Transportation and Infrastructure Committee's legislative 
priorities this year include: authorization of surface transportation 
programs; reauthorization of the Federal Aviation Administration, the 
Economic Development Administration; selected provisions of the Clean 
Water Act and the Comprehensive Environmental Response, Compensation, 
and Liability Act, the Coast Guard, and the Federal Emergency 
Management Agency; and enactment of a water resources development act. 
The CBC urges that the Congressional Budget Resolution meet the 
important funding needs identified by the Transportation and 
Infrastructure Committee, to improve our nation's infrastructure and 
transportation safety and ensure that vital services, such as those 
provided by the Coast Guard, are maintained.
                                commerce
    The CBC supports the inclusion of funding for the Minority 
Institutions Digital and Wireless Technology Opportunity Act. The 
primary focus of the Act is to award grants, contracts and cooperative 
agreements to eligible institutions ``* * * to acquire equipment, 
instrumentation, networking capability, hardware and software, digital 
network technology , wireless technology, and infrastructure to further 
the objective of the Program.'' Funding for technological updates is a 
crucial step towards reducing the `digital divide' among African 
Americans, Asian Americans, Latinos, Native Americans, and other 
minority groups.
    In addition, the CBC urges the Committee to account for increased 
funding for the Small Business Administration and Minority Business 
Development programs.
                               healthcare
    The CBC continues to support the President's call for health 
insurance reform. The CBC urges the Budget Committee to account for the 
cost and savings of health insurance reform with a public health 
insurance option to ensure that the 45 million uninsured Americans 
(four million of which are children) have access to quality and 
affordable healthcare.
    In addition, the CBC urges the Committee to account for the 
following:
    <bullet> Funding the Ryan White HIV/AIDS program at $2.307 billion 
to support care and treatment programs at the local level to address 
the needs of people living with HIV/AIDS. This includes a $2 million 
increase in Part D funding that effectively prevents mother to child 
transmission of HIV.
    <bullet> Funding for CDC Prevention activities for HIV, STD, TB and 
Viral Hepatitis at $1.5 billion (an increase of nearly $500 million) to 
fund testing initiatives and support innovative prevention efforts at 
the local level.
    <bullet> Funding for Housing for people living with HIV/AIDS 
(HOPWA) at $360 million an increase of $50 million to provide 
supportive housing for people with AIDS.
    <bullet> Funding for comprehensive sex education programs that will 
be authorized by the REAL Act with at least $50 million this year to 
reduce spread of HIV and other sexually transmitted diseases and reduce 
unintended pregnancies.
    <bullet> Adopt the Presidential request of $2.19 million in funding 
for the National Center on Minority Health and Health Disparities at 
NIH.
    <bullet> Reserve funding ($3.5 billion) for the Health Equity and 
Accountability Act (not yet enacted).
    <bullet> Funding an increase of $12 million to the Title X family 
planning program.
    <bullet> Adopt the President's request of $2.436 billion for 
Community Health Centers.
    <bullet> Funding of $5.3 million for the Community Outreach 
Demonstration Project that supports 17 community-based demonstration 
sites in providing comprehensive care for newborns diagnosed with 
Sickle Cell Anemia, and increase of $300,000.
    <bullet> Funding of $23 million for the Health Careers Opportunity 
Program to assist individuals from disadvantaged backgrounds to receive 
the education necessary to enter a health profession.
                                veterans
    The House Budget Committee has shown a commitment to increased 
funding for the Department of Veterans Affairs. Last year, with the 
support of the CBC, Congress passed legislation that provided $50.6 
billion in advanced appropriations for the V.A. medical care program so 
that our veterans are not hindered by budget delays. The CBC commends 
the President's budget for building upon the significant increases 
appropriated to the V.A. since 2009 and sustaining those increases over 
the next five years. The CBC urges the Committee to include this 
increase and ensure that the necessary budget authority is available to 
continue to account for the large increase in V.A. claims, the need to 
hire more caseworkers to address the V.A. claims backlog, and to 
adequately fund mental health services.
    President Obama and Veterans Affairs Secretary Shinseki have 
committed to an ambitious but achievable plan to end veterans 
homelessness within five years. An integral part of meeting that 
commitment is ongoing funding for HUD-VASH, a program that pairs HUD 
Section 8 housing vouchers with intensive VA case management services, 
to provide permanent supportive housing for severely disabled homeless 
veterans. However, the President's Budget requests no funding for this 
program in FY 2011. It is estimated that approximately 60,000 homeless 
veterans will need HUD-VASH vouchers. Over the past three fiscal years, 
Congress has appropriated $75 million a year for 10,000 new vouchers--
for a total of 30,000 vouchers. To continue moving towards the goal of 
ending veterans' homelessness, the CBC urges the Budget Committee to 
provide the necessary budget authority for these vouchers.
                               tax policy
    The CBC has consistently advocated for the immediate repeal of the 
2001 and 2003 Bush Tax Cuts that affect the top two income brackets. 
The CBC commends the President for allowing these tax cuts for the 
wealthiest Americans to expire at the end of 2010. The CBC also 
supports the President's proposal to tax banks to recoup billions of 
dollars in taxpayer money provided through the Troubled Asset Relief 
Program. However, the CBC urges the Budget Committee to continue to 
review inequities within the tax code that benefit the wealthiest 
American families.
    The CBC also urges the Committee to account for expanding the 
earned income tax credit and child tax credit and make the increases in 
the American Recovery and Reinvestment Act permanent.
                  additional economic recovery efforts
    The American Recovery and Reinvestment Act has created or saved 
more than one million jobs. However, unemployment in urban areas and 
minority communities remains very high. The $15 billion Jobs bill 
recently passed by the Senate is not adequately funded nor targeted 
enough to alleviate the economic suffering in these communities. The 
President's budget proposed funding for a $100 billion temporary jobs 
initiative. In addition, the President has also requested $76 billion 
for temporary extensions of policies currently in place to strengthen 
the economic recovery, such as extending the Making Work Pay tax 
credit, the COBRA health insurance subsidy, and temporary bones 
depreciation provisions. The President's budget also requests an 
additional $90 billion for the extension of various mandatory 
initiatives, including a 6-month extension of FMAP relief to states, 
the TANF Emergency Fund, unemployment benefits, and the $250 refundable 
economic recovery payment to seniors and veterans. The CBC urges the 
Committee to account for these proposals that will have a direct and 
significant impact on urban and minority communities.
                            other priorities
    <bullet> Fully fund the Community Development Block Grant
    <bullet> Increased funding for the Public Housing Capital Fund to 
continue to address eight years of stagnant funding under the Bush 
Administration
    <bullet> Fully fund the Child Care and Development Block Grant
    <bullet> Fully fund the Social Services Block Grant
    <bullet> Increased funding for HOPE VI
    <bullet> Fully fund the Neighborhood Stabilization Program
    <bullet> Increased funding for the Affordable Housing Trust Fund
    <bullet> Support for the creation of a National Infrastructure Bank
    <bullet> Continued funding for Hurricane Katrina recovery and 
rebuilding efforts
    <bullet> Increased funding for the Environmental Justice Small 
Grants Program
    <bullet> Increased funding for the National Underground Railroad 
Network to Freedom program at the National Park Service.
    <bullet> Restore funding and a revenue source for the Superfund 
clean up

    Mr. Etheridge [presiding]. Without objection that will be 
included, and I thank the gentle lady for her comments and her 
commitment to making life better for everybody.
    Ms. Lee. Thank you so much.
    Mr. Etheridge. Thank you much. And without objection the 
Committee stands in recess subject to call of the chair.
    [Recess.]
    Mr. Etheridge. Calling this meeting back to order. I would 
recognize the gentle lady from Florida, Ms. Kosmas for her 
comments.

STATEMENT OF HON. SUZANNE KOSMAS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Ms. Kosmas. Thank you Mr. Chairman. I want to thank the 
Chairman and the Ranking Member and the Members of the 
Committee for giving me this opportunity to address you 
regarding an issue frankly that is of very serious importance 
to me in my district and to the nation as a whole, not only as 
a national security issue and an economic issue, but frankly an 
issue in my mind that effects our ability to inspire a 
generation coming now for 21st Century jobs and the kind of 
economic security that this Nation needs and deserves.
    This is about actually the human space flight program, and 
we are in my district experiencing right now a transition of 
our human space flight program from the space shuttle program 
based on low earth orbit to a Next Generation Transportation 
and Exploration Program, and frankly the President's proposal 
in his budget to cancel the Constellation Program and proceed 
with the retirement of the shuttle fleet with no clear plans or 
goals for exploration has very far reaching implications. It 
threatens our leadership in space, it leaves us without the 
ability to independently launch Americans or to access the 
International Space Station for an unknown amount of time, and 
to devastate a unique world class workforce and industrial base 
that will be very difficult for us to reassemble.
    The impacts of this proposal will be felt by the entire 
nation. Tens of thousands of high paying, highly skilled jobs 
are on the line across the country at small, medium, and large 
suppliers who support both the shuttle and the Constellation 
Programs.
    Our nation's economic prosperity and the national security 
are also at stake, as I mentioned before, if we do not pursue 
technological innovation and protect our unique capabilities, 
we risk failing to inspire future generations of scientists and 
engineers, for NASA missions have inspired untold numbers of 
Americans to pursue science technology, engineering, and math.
    Congress must signal to the Administration as well as to 
industry and our international partners, as well as future 
generations of rocket scientists and explorers, that we will 
not cede our leadership in space or here on earth. We must make 
the commitment to funding a robust human space flight program 
if we want to ensure our nation's future as the leader in 
technology and innovation.
    While there is much debate over the future direction of our 
space program there is an area of consensus, and that is that 
among the members, the President, and the community, and that 
is the need to extend the life of the International Space 
Station through at least 2020. Nearly complete after a decade 
of construction the International Space Station now holds great 
promise as a national laboratory that will benefit all 
Americans, and I urge you to budget the funds necessary to 
extend its life and operation.
    However, there is only one existing vehicle with the 
capability to deliver certain pieces of hardware that would 
enable this longer life span of the International Space 
Station, maintain continued U.S. independent access to space 
and to ensure the station's research mission is maximized to 
the fullest extent possible, and that is the space shuttle.
    I am currently drafting legislation with colleagues in both 
houses that would spread out the four remaining shuttle 
missions and potentially add a certain number of additional 
flights following a review by NASA of hardware that will be 
essential to maintaining the station.
    I believe that as we debate long-term future of our human 
space program it is prudent to take steps to ensure that the 
space shuttles can continue to operate in order to fully 
support and service the International Space Station. This 
action will also help to preserve the highly skilled workforce 
and operational expertise that will be needed for the next 
generation program.
    I urge you to include in the fiscal year 2011 budget 
resolution 1.2 billion in additional funds for the Space 
Shuttle Program above the President's request, to possibly 
spread out the remaining manifest, and to add missions such as 
STS 135, as well as 100 million in additional funds for the 
International Space Station in order to provide for the 
procurement of additional hardware.
    Our Human Space Program is as I said before a national 
treasure. It has served as a source of inspiration, innovation, 
and pride for scientists and engineers and for all of America, 
and it has accelerated the development of technologies that 
improve lives here on earth and it has greatly contributed to 
our nation's economic and national security.
    We should take steps to protect our strategic capabilities, 
including the Shuttle Program and its highly skilled workers 
while Congress debates the President's budget proposal and the 
future of our Space Program.
    Thank you very much.
    [The prepared statement of Suzanne Kosmas follows:]

   Prepared Statement of Hon. Suzanne M. Kosmas, a Representative in 
                   Congress From the State of Florida

    Chairman Spratt, Ranking Member Ryan and Members of the Committee--
thank you for allowing me the opportunity to address you regarding an 
issue of great importance not only to my district, but to the nation as 
a whole--the transition of our human space flight program from the 
space shuttle program based in low-Earth orbit to a next generation 
transportation and exploration program.
    The President's proposal to cancel the Constellation program and 
proceed with the retirement of the shuttle fleet, with no clear plans 
or goals for exploration, will have far-reaching implications--it will 
threaten our leadership in space, leave us without the ability to 
independently launch Americans or access the International Space 
Station for an unknown amount of time, and devastate a unique, world-
class workforce and industrial base that will be difficult to 
reassemble.
    The impacts of this proposal would be felt by the entire nation. 
Tens of thousands of high-paying, highly-skilled jobs are on the line 
across the country at small, medium, and large suppliers who support 
both the Shuttle and Constellation programs. Our nation's economic 
prosperity and national security will also be at stake if we do not 
pursue technological innovation and protect our unique capabilities. 
And we risk failing to inspire future generations of scientists and 
engineers--for NASA's missions have inspired untold numbers of 
Americans to pursue STEM fields.
    Congress must signal to the Administration--as well as to industry, 
our international partners, and future generations of rocket scientists 
and explorers--that we will not cede our leadership in space--or here 
on Earth. We must make the commitment to funding a robust human space 
flight program if we want to ensure our nation's future as the leader 
in technology and innovation.
    While there is much debate over the future direction of our space 
program, there is one area of consensus among Members, the President, 
and domestic and international scientific communities--and that is the 
need to extend the life of the International Space Station (ISS) 
through at least 2020. Nearly complete after a decade of construction, 
the ISS now holds great promise as a National Laboratory that will 
benefit all Americans and I urge you to budget the funds needed to 
extend its operation.
    However, there is only one existing vehicle with the capability to 
deliver certain pieces of hardware that will enable a longer lifespan 
of the ISS, maintain continued U.S. independent access to space, and 
ensure the station's research mission is maximized to fullest extent 
possible--and that is the space shuttle.
    I am currently drafting legislation with colleagues in both houses 
that would spread out the four remaining shuttle missions and 
potentially add a certain number of additional flights following a 
review by NASA of hardware that will be essential to maintaining the 
station. I believe that as we debate long-term future of our human 
space program, it is prudent to take steps to ensure the Space Shuttles 
can continue to operate in order to fully support and service the ISS. 
This action will also help to preserve the highly-skilled workforce and 
operational expertise that will be needed for the next generation 
program.
    I urge you to include in the FY11 budget resolution $1.2 billion in 
additional funds for the space shuttle program above the President's 
request, to possibly spread out the remaining manifest and add 
missions, such as STS-135, as well as $100 million in additional funds 
for the International Space Station in order to provide for the 
procurement of additional hardware.
    Our human space program is a national treasure. It has served as a 
source of inspiration for young scientists and engineers, it has 
accelerated the development of technologies that improve lives here on 
Earth, and it has greatly contributed to our nation's economic and 
national security. We should take steps to protect our strategic 
capabilities--including the shuttle program and its highly-skilled 
workers--while Congress debates the President's budget proposal and the 
future of our human space flight program.

    Mr. Etheridge. Thank you, gentle lady and thank her very 
much for her comments, and it will be included in the record. 
Thank you, ma'am.
    Ms. Kosmas. Thank you so much, appreciate the opportunity.
    Mr. Etheridge. I now recognize the gentleman from Florida, 
Mr. Posey for five minutes.

STATEMENT OF HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Posey. Thank you, Mr. Chairman, I would like to echo 
the comments of my colleague, Congresswoman Kosmas, and I 
appear before the Committee today to ask that you include 
sufficient funding for NASA to accomplish two specific 
missions.
    First, to fly the shuttle through fiscal year 2011 
including at least two missions, one of which would be to 
launch the Alpha Magnetic Spectrometer, and second, sufficient 
funding to continue the development of the Constellation 
Program.
    The NASA proposal outlined by the Administration several 
weeks ago is seriously lacking in vision and mission. It 
appears to have been developed on the fly with little 
coordination with public and private stakeholders.
    Just one glaring example is NASA's surprising decision to 
terminate the Constellation program. The Air Force last year 
indicated that Constellation's delay would adversely impact our 
military solid-rocket-motor industrial base. One can only 
assume that the Administration's proposal to cancel 
Constellation would be devastating for national security.
    NASA fails to fully understand, or at least obviously does 
not take into consideration the much broader military, 
industrial, and economic implications of their proposals. It 
would be irresponsible for Congress to embrace this plan 
without further scrutiny.
    NASA was placed on hold last year as the Augustine 
Committee undertook a review of our nation's Space Flight 
program. The Augustine report made clear, what many of us 
already knew, if America is to have a robust space exploration 
program it must have a budget to match it.
    That, my friends, is the essential question before you and 
this Congress. Are we going to have a robust space program and 
continue down the path forged by John F. Kennedy or are we 
going to return to the days of Sputnik when the United States 
took a back seat. Are we going to cede space to Russia and 
China?
    Apollo 7 astronaut Walter Cunningham said the 
Administration's proposal, ``accelerates America's downward 
spiral toward mediocrity in space exploration.'' Apollo 17 
astronaut Harrison Schmitt said the plan would, and I quote
    ``cede the Moon to China, the American Space Station to 
Russia, and assign liberty to the ages. Other nations would 
accrue the benefits--psychological, political, economic, and 
scientific--that the United States harvested as a consequence 
of Apollo's success 40 years ago. This lesson has not been lost 
on our ideological and economic competitors.'' End of quote.
    Will the future that this Committee sets for our nation be 
bold or will it be mediocre? Bold demands a rejection of the 
Administration's plan. Our space program has generated 
thousands of inventions and spin offs that have been translated 
directly into the creation of tens of thousands of jobs right 
here in America that have contributed to our economic 
dominance.
    The Administration makes two high risk mistakes. Number 
one, they bet our nation's entire space program on yet unproven 
commercial vendors. While I hope that commercial vendors will 
one day be able to get us there, we should not bet the whole 
program on that unproven hope.
    Number two, the Administration puts Russia in the driver's 
seat by relying solely on them to get our astronauts to the 
space station and back safely.
    According to the Augustine Committee and information I have 
received from NASA and contractors, the annual cost of flying 
the shuttle may cost up to one billion for two flights per 
year, much less than generally expected. For a budget equal to 
a fraction of one percent of the stimulus, we can extend the 
shuttle for another year or two and provide a smoother 
transition for thousands of Americans who rely on our space 
program for the well being at a time when our unemployment rate 
is at its highest in three decades.
    Extending the shuttle through fiscal year 2011 is essential 
if we are to accommodate the launch of the Alpha Magnetic 
Spectrometer, which may not be ready until the spring of 2011, 
several months beyond the Administration's arbitrary December 
31st, 2010 deadline for the last shuttle launch.
    Providing sufficient funding for Constellation will ensure 
that we do not abandon the investments already made. To that 
end we should work to see that the space gap is minimized. Let 
us heed the words of space pioneer Gene Cernan, the last human 
to walk on the moon, who said just last week, ``Now is the time 
for wiser heads in Congress to prevail. Now is the time to 
overrule mediocrity. Now is the time to be bold, innovative, 
and wise in deciding how we invest in the future of America.''
    Thank you very much, Mr. Chairman.
    [The prepared statement of Bill Posey follows:]

  Prepared Statement of Hon. Bill Posey, a Representative in Congress 
                       From the State of Florida

    Chairman Spratt, Ranking Member Ryan, Members of the Committee: 
Thank you for the opportunity to testify today. You have likely already 
heard a great deal about the President's FY 2011 budget request for the 
National Aeronautics and Space Administration (NASA). Today, I appear 
before this Committee to ask that the Committee provide NASA with 
sufficient resources to continue Shuttle operations through at least 
Fiscal Year 2011, sufficiently fund Constellation and see that the 
space gap between the two is minimized. I am here to tell you why this 
is the wisest policy.
    The plan for human space flight, as outlined by the Administration, 
is significantly lacking in detail and appears to have been developed 
with little or no coordination with public and private stakeholders.
    One glaring example is NASA's announced decision to seek 
termination of the Constellation program. This decision will adversely 
impact our nation's solid-rocket-motor industrial base, which is 
critical to our military. In a report from last June to the Congress, 
the Air Force said that delays in the Constellation program could have 
significant negative impact on the industrial base. When questioned 
about this issue last week, Air Force Secretary Donley testified that 
``we have a challenge on the solid-rocket-motor industrial base and on 
the booster industrial base.''
    NASA is making the decision in a vacuum, and does not fully 
understand, or at least obviously does not take into consideration, the 
much broader military, industrial, and economic implications. The plan, 
and I use that term lightly, demands considerably more discussion and 
public scrutiny. I am very concerned that they continue to develop this 
plan ``on the fly'' and that it is irresponsible for the Congress to 
embrace it without considerably more input from all the stakeholders.
    Over the course of the last year we lost precious time in charting 
a course for the future for our nation's human space flight program. 
NASA remained without an Administrator for much of the year, and NASA 
was essentially placed on hold as the Augustine Committee undertook a 
review of our nation's human space flight program. All the while NASA 
continued to approach the impending retirement of the Shuttle fleet. 
Over the years, the Constellation program continued to be underfunded.
    The Augustine Committee report made clear what many of us already 
knew: If America is to have a robust space exploration program it must 
have a budget to match it. That, my friends, is the essential question 
before you and this Congress. Are we going to continue to have a robust 
space program and continue on the path forged by John F. Kennedy? Or, 
are we going to return to the days of Sputnik, when the United States 
took a back seat to space exploration. Are we going to cede space to 
Russia and China? Apollo 7 astronaut Walter Cunningham recently said 
that the Administration's proposal ``accelerates America's downward 
spiral toward mediocrity in space exploration.''
    I think Apollo 17 astronaut and former U.S. Senator Harrison 
Schmitt summarized it best last week when he wrote that this proposal 
``would cede the Moon to China, the American Space Station to Russia, 
and assign liberty to the ages. Other [nations] would accrue the 
benefits--psychological, political, economic, and scientific--that the 
United States harvested as a consequence of Apollo's success 40 years 
ago. This lesson has not been lost on our ideological and economic 
competitors.''
    It is my sincere hope that it will not be lost on this Congress 
either. This Committee is the one that will take the first step 
regarding the President's NASA budget. I urge you, my colleagues, to 
think about the future we are building for our children and 
grandchildren. Will it be a future where we do mediocre things or will 
it be one where we embark to accomplish bold things?
    Some have suggested that this is a question of jobs. That is true. 
The lives of tens of thousands of Americans will be disrupted if the 
Administration's proposal is adopted. There will be 10,000 direct jobs 
and according to a recent economic impact assessment as many as 23,000 
jobs will be lost--almost immediately--in my district and that of Rep 
Suzanne Kosmas to my north. We are still waiting on a current NASA 
Workforce Transition Strategy report. The Consolidated Appropriations 
Act of 2008 requires NASA to produce this strategy every six months; 
the last one Congress received is from July of 2009. This is further 
evidence of a failure to plan for the future and follow Congressional 
intent. We need a better landing and a smoother transition for our 
nation's premier space launch workforce. This is a highly skilled 
workforce that cannot be replaced, and will be lost if we travel down 
the proposed path.
    Space exploration touches the life of every American. Our space 
program has generated thousands of inventions and spinoffs that have 
translated directly into the creation of tens of thousands of jobs 
right here in America. If we accept the Administration's plan, we will 
be abandoning a robust space program. They may protest that it is not 
abandonment, but that is exactly what it is. And, as a result we will 
lose these future benefits, and we will see China, Russia, India and 
others become the beneficiaries of a robust and superior space program.
    Countless products in our homes, offices, cars and airplanes owe 
their existence or widespread use to space exploration. Yet we often 
take for granted cell phones, GPS, carbon monoxide detectors, Velcro, 
lithium batteries, and advanced weather forecasting, just to name a 
few. We will be compromising advanced micro-gravity research. It is no 
doubt that our space program leads to cutting edge, high-skilled jobs 
and inspires the leaders of tomorrow to study Science, Technology, 
Engineering and Mathematics (STEM) fields. Among great human 
achievements, space exploration is inspiring in a way like no other.
    Under the current plan, NASA is betting our nations' entire space 
program on yet unproven commercial vendors. I am very supportive of 
commercial, but I am concerned about sole reliance on entrepreneurs for 
the short-term. NASA has taken the mistaken step of once again putting 
Russia in the critical path for our research on the International Space 
Station. We saw how this almost jeopardized the ISS from the very 
outset and raised the cost of the ISS.
    The Committee should also be aware that retiring the Shuttle will 
generate far less in savings that what has generally been believed. 
This is due to several factors. By abandoning the Shuttle prior to 
fulfilling our commitments to fly foreign astronauts to the ISS through 
2020, NASA will incur hundreds of millions in costs associated with 
purchasing seats for foreign astronauts on Russian vehicles--a price 
Russian Space Agency officials just said they would raise once they are 
the only game in town. Also, hundreds of millions of dollars in 
infrastructure costs will not turn into savings as many assume, but 
rather those costs will continue to recur but from an accounting 
perspective will be assigned to another account.
    According to the Augustine Committee, and information I have 
received from NASA, the annual cost of flying the Shuttle may cost up 
to about $1.3 billion for two flights per year. However, that cost can 
be cut significantly based on discussions with the contractors who 
currently operate the Shuttle for NASA. I would ask the Committee 
provide sufficient funding to allow up to two shuttle flights in Fiscal 
Year 2011 for the many reasons I have outlined for you. Thus, for a 
budget equal to a fraction of one percent of the stimulus, we can 
extend the Shuttle for one year and provide a smoother transition for 
our nation's space program and tens of thousands of dedicated workers.
    Furthermore, although the Shuttle's current manifest includes four 
remaining launches, NASA needs to act now to assure that even these 
missions are completed. NASA's current, inflexible policy on flying the 
Shuttle beyond calendar year 2010 jeopardizes the last scheduled 
Shuttle mission, which would transport the Alpha Magnetic Spectrometer 
(AMS) to ISS. It is my understanding that this mission may not be ready 
until spring of 2011, beyond NASA's arbitrary deadline. Fully funding 
Shuttle operations through FY 2011 will not only provide for smoother 
transition, but it will ensure that our commitments to our 
international partners regarding the AMS are fully met. Absent the 
Shuttle, there is no means of getting AMS to the ISS. Let's also 
remember that Endeavor just completed its 24th mission. It was designed 
for 100 missions.
    In addition to extending Shuttle operations, the Committee should 
provide sufficient funding to continue with the Constellation program. 
It makes little sense to abandon Constellation given the investments 
already made and the termination costs estimated to be in the range of 
$2.5 billion. We had a successful test flight of the Ares 1-X rocket in 
October and are building on that success.
    Congress must act today to save our space program. The plan 
presented by the Administration has gaping holes and is not ready for 
prime time. They need to go back to the drawing board and the Congress 
needs to join with the voices of our nation's space pioneers like Gene 
Cernan, the last human to walk on the moon, who said last week, ``Now 
is the time for wiser heads in Congress to prevail. Now is the time to 
overrule * * * mediocrity. Now is the time to be bold, innovative and 
wise in deciding how we invest in the future of America.''
    We have a come a long way since Alan Shepard became the first 
American in space in 1961. I urge you, my colleagues, to work together 
to ensure that our 50 years of leadership in space is not abandoned. 
America is looking to us for leadership.

    Mr. Etheridge. I thank the gentleman for his comments that 
are well taken by this Committee, and appreciate it very much 
and it will be entered into the record.
    Mr. Posey. Thank you.
    Mr. Etheridge. Thank you. If the gentle lady from Illinois 
would like to go ahead we will move her up in the order since 
our previous speaker is not here. Mrs. Halvorson, you are 
recognized for five minutes.

   STATEMENT OF HON. DEBORAH HALVORSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mrs. Halvorson. I appreciate that, Mr. Chairman. Thank you 
Mr. Chairman, Ranking Member Ryan, and Members of the Committee 
on the Budget for the opportunity to testify today regarding 
the budget resolution for fiscal year 2011.
    I just want to take a few minutes to talk about funding for 
the water infrastructure in the fiscal year 2011 budget.
    My district covers parts of eight counties in Illinois and 
includes urban, suburban, and rural communities. Whenever I am 
back in my district and visiting all of these communities, one 
of the issues I fear or hear--I fear I hear because it is all 
the same--I hear about most often is water infrastructure. 
Mayors and other local elected officials tell me about the 
urgent need to upgrade existing waterways and drinking water 
systems in their communities. So the need is especially urgent 
in smaller towns in the rural areas of my district.
    As Members of Congress it is our responsibility to stand up 
for the needs of our constituents and the communities we 
represent, and that is why there are most urgent needs.
    Water infrastructure is not a Democrat or a Republican 
issue, it is an area where we can come together across the 
aisle and deliver real results. My office receives more funding 
requests for water infrastructure than any other project. These 
projects include replacement of wastewater treatments plants 
and drinking water systems and installation and upgrade for 
collector sewers, storm sewers, and sewer pipes. The towns in 
my district urgently need to complete these projects, but lack 
financial resources to do so. That is why federal funding for 
water infrastructure is so critical.
    And I was pleased that the American Recovery and 
Reinvestment Act included $6 billion in total funding for the 
Clean Water and Drinking Water State Revolving Funds. These 
programs help states optimize or capitalize low interest loans 
to help the communities fund much needed water infrastructure 
improvements.
    Congress should build on the progress made by the Recovery 
Act by continuing to fund EPA's water infrastructure programs 
at robust levels.
    The President's fiscal year 2011 budget proposal increases 
funding for STAG by approximately 14 percent, but it reduces 
the budget authority for Clean Water SRF and Drinking Water SRF 
compared to fiscal year 2010 levels.
    So I urge the Committee on the Budget to at least maintain 
budget authority for these programs at 2010 levels, or even 
consider including an increase.
    While I understand the need to bring some fiscal discipline 
to our budget process, we can't ignore our country's 
infrastructure needs.
    So I look forward to working with you and making this 
happen. Thank you, Mr. Chairman, for allowing me to be here and 
thank you for considering my requests.
    [The prepared statement of Deborah Halvorson follows:]

 Prepared Statement of Hon. Deborah L. Halvorson, a Representative in 
                  Congress From the State of Illinois

    Thank you Chairman Spratt, Ranking Member Ryan, and members of the 
Committee on the Budget for the opportunity to testify today regarding 
the Budget Resolution for Fiscal Year 2011.
    I want to take a few minutes to talk about funding for water 
infrastructure in the Fiscal Year 2011Budget.
    My district covers parts of eight counties in Illinois and includes 
urban, suburban, and rural communities.
    Whenever I'm back in my district and visiting all of these 
communities, one of the issues I hear about most often is water 
infrastructure.
    Mayors and other local elected officials tell me about the urgent 
need to upgrade aging wastewater and drinking water systems in their 
communities.
    The need is especially urgent in smaller towns in the rural areas 
of my district.
    My office receives more funding requests for water infrastructure 
than any other project.
    These projects include replacement of wastewater treatments plants 
and drinking water systems and installation and upgrade of collector 
sewers, storm sewers, and sewer pipes.
    The towns in my district urgently need to complete these projects, 
but lack the financial resources to do so.
    That's why federal funding for water infrastructure is so critical.
    I was pleased that the American Recovery and Reinvestment Act 
included $6 billion in total funding for the Clean Water and Drinking 
Water State Revolving Funds.
    These programs help states capitalize low interest loans to help 
communities fund much need water infrastructure improvements.
    Congress should build on the progress made by the Recovery Act by 
continuing to fund the EPA's water infrastructure programs at robust 
levels.
    The President's Fiscal Year 2011 Budget proposal increases funding 
for STAG by approximately 14%, but it reduces budget authority for 
Clean Water SRF and Drinking Water SRF compared to Fiscal Year 2010 
levels.
    I urge the Committee on the Budget to at least maintain budget 
authority for these programs at 2010 levels, or even consider including 
an increase.
    While I understand the need to bring some fiscal discipline to our 
budget process, we can't ignore our country's infrastructure needs.
    Failure to address them will result in public health hazards in 
communities in my district and throughout the country.
    It will also hinder the ability of these communities to attract new 
economic development.
    Robust investment in modern water infrastructure will help these 
communities provide a good quality of life and economic opportunity for 
their citizens.
    Chairman Spratt and Ranking Member Ryan, thanks again for your 
consideration of my input, I yield back the balance of my time.

    Mr. Etheridge. I thank the gentle lady for her testimony 
and certainly those are issues that are critical not only to 
her district but to this country.
    Mrs. Halvorson. Thank you.
    Mr. Etheridge. And with that the Committee will stand in 
recess.
    [Recess.]
    Mr. Etheridge. The Committee now resumes and we welcome the 
gentleman from California, the Chairman of the Veterans 
Committee, Mr. Filner, for such comments that he will make and 
you are recognized for five minutes.

STATEMENT OF HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Mr. Chairman, and we appreciate of 
course the work that this committee does for all of us in the 
Congress.
    Our Committee, the Committee on Veteran's Affairs supports 
the President's historic budget request with an additional 
recommendation of $571 million for needed investments in VA 
infrastructure and to address concerns raised during our budget 
hearing last month.
    This year's budget, as you know, is the first submitted in 
accordance with the advanced appropriations legislation that 
was enacted last year, and that we all supported. The 
President's request for VA medical care, which was appropriated 
last year, requests $48.2 billion, an increase of 8.3 percent. 
This year's budget requests the same funding level for fiscal 
year 2011, and includes an estimate for VA medical care for 
fiscal year 2012 of an additional $2.8 billion above the levels 
of fiscal year 2011 levels.
    We recommend an additional $221 million for medical care in 
the Medical Facilities account to fund non-recurring 
maintenance at the levels that we had in fiscal year 2010 
levels.
    We are also recommending $60 million above the President's 
request in order to provide for increases due to biomedical 
inflation and to ensure that VA research receives the 
appropriated support it needs and does not need to rely on 
over-optimistic estimates of so-called third-party funding.
    For our construction accounts, the Committee is 
recommending an additional $165 million for Minor Construction, 
that is for projects under $10 million, and we recommend $90 
million for Grants for Construction of State Extended Care 
Facilities. This additional funding will help reduce the 
backlog of our Priority 1 projects, that is those high-priority 
projects where state monies are already in place, and we also 
recommend an additional $5 million for the Grants for 
Construction of State Veterans Cemeteries.
    In addition, we recommend an additional $12 million for the 
Inspector General, $18 million for additional vocational 
rehabilitation and employment counselors, and $3 million in 
additional funding for the Education division.
    Overall, the President's budget requests a total funding 
level of $60.3 billion, which is nearly an 8 percent increase 
over fiscal year 2010. We recommend a total funding level of 
$60.9 billion, and the Independent Budget, which is a budget 
put together by the various veteran service organizations as a 
way to have that outside input, has recommended slightly 
higher, $61.5 billion.
    And this is important, Mr. Chairman. Building on our 
commitment to increase investments to bolster VA construction 
and infrastructure spending, the Committee's Views and 
Estimates will also include a recommendation, sort of off 
budget, of an additional $700 million in infrastructure 
spending if Congress moves forward with a new round of 
legislation to address the economic crisis in jobs.
    This additional funding, I want to point out, would be 
targeted to projects already identified and almost shovel ready 
by the VA and meet current needs, and that is if we pass a 
stimulus bill. We have, I think, a very good already identified 
set of projects that could use, as we said so, $700 million.
    We support the President's budget with additional 
investment spending, and we also want to work closely with you 
of course and the Appropriations Committee as you move forward 
to ensure the fiscal year 2012 funding is sufficient.
    We thank you for all the work that you do on behalf of the 
Congress and the United States.
    [The prepared statement of Bob Filner follows:]

  Prepared Statement of Hon. Bob Filner, a Representative in Congress 
                      From the State of California

    <bullet> The Committee on Veterans' Affairs supports the 
President's historic budget request and recommends an additional $571 
million for needed investments in VA infrastructure and to address 
concerns raised during our budget hearing last month.
    <bullet> This year's budget is the first submitted in accordance 
with the advance appropriations legislation that was enacted last year, 
and that we all supported.
    <bullet> The President's request for VA medical care, which was 
appropriated last year, requests $48.2 billion, an increase of $3.7 
billion or 8.3%. This year's budget requests the same funding level for 
FY 2011 and includes an estimate for VA medical care for FY 2012 of an 
additional $2.8 billion above FY 2011 levels.
    <bullet> The Committee is recommending an additional $221 million 
for medical care in the Medical Facilities account to fund non-
recurring maintenance at FY 2010 levels.
    <bullet> The Committee is also recommending $60 million above the 
President's request in order to provide for increases due to biomedical 
inflation and to ensure that VA research receives the appropriated 
support it needs and does not need to rely on over-optimistic estimates 
of third-party funding.
    <bullet> For the VA's construction accounts, the Committee is 
recommending an additional $165 million for Minor Construction (which 
provides funding for projects costing less than $10 million). We 
recommend $90 million for Grants for Construction of State Extended 
Care Facilities. This additional funding will help reduce the backlog 
of Priority 1 projects (those high-priority projects where State monies 
are already in place). We also recommend an additional $5 million for 
the Grants for Construction of State Veterans Cemeteries.
    <bullet> The Committee is also recommending an additional $12 
million for the Inspector General and $18 million for additional 
vocational rehabilitation and employment counselors and $3 million in 
additional funding for the Education division.
    <bullet> Overall, the President's budget requests a total funding 
level (with collections) of $60.3 billion, a $4.3 billion increase over 
FY 2010 (a nearly 8% increase). The Committee is recommending a total 
funding level of $60.9 billion. The Independent Budget has recommended 
$61.5 billion
    <bullet> Building on our commitment to increase investments to 
bolster VA construction and infrastructure spending, the Committee's 
Views and Estimates will also include a recommendation of an additional 
$700 million in infrastructure spending if Congress moves forward with 
a new round of legislation to address our economic crisis. This 
additional funding would be targeted to projects already identified by 
the VA and meet current needs.
    <bullet> The Committee's recommendation supports the President's 
budget, adds additional investment spending and provides the VA the 
resources it needs in the coming year. We will also work closely with 
you and our colleagues on the Appropriations Committee as the process 
moves forward to ensure that FY 2012 funding is sufficient to meet the 
health care needs of veterans.
    <bullet> The Committee's recommendation, and the President's 
budget, makes needed investments to VA's infrastructure and research 
efforts to improve health care quality and access while we take steps 
to ensure that the historic funding increases provided to veterans' 
programs since the start of the 110th Congress are spent wisely.
    <bullet> Thank you, Mr. Chairman and Members of the Committee.

    Mr. Etheridge. Thank the gentleman. And as someone who 
represents your great post at Fort Bragg and Pope Field and a 
VA center rather adjacent to it, we thank you for your 
testimony, and certainly there is a great need for our men and 
women who are returning and those who have served this country 
over the years. Thank you, and we appreciate your testimony.
    Mr. Filner. Thank you, sir.
    Mr. Etheridge. We now would recognize the gentle lady from 
Ohio, Ms. Sutton, for five minutes. Thank you for being here 
this morning.

 STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Mr. Chairman, for the opportunity to 
testify before the Budget Committee today. I am very proud to 
have served on the Budget Committee in 2007 in my first year of 
Congress, and I am pleased to join you today to speak about the 
budget issues of importance to Ohio's 13th Congressional 
District.
    The budget is a moral document that reflects the priorities 
and values of our nation, and the 2011 budget builds on the 
Recovery Act by focusing on long-term economic recovery and job 
creation, which is critically important to the people that I 
serve.
    Today I would like to discuss a few of the programs that 
are vital to those I represent.
    I urge the Committee to support the $420 million, the same 
level as enacted last year, for the Staffing for Adequate Fire 
and Emergency Response Grant Program, and $420 million for the 
Assistance to Firefighters Act Grants. Now more than ever these 
grant opportunities are important to prevent the layoffs of 
needed firefighters and to ensure that our fire departments 
will have the equipment necessary and the training necessary to 
keep us in our communities safe.
    And I support the President's request for an almost 50 
percent increase in community-oriented policing services, also 
known as COPS funding, which will add an additional 50,000 
police officers to our streets. Every day our first responders 
are in our communities providing essential services and keeping 
our families safe.
    We need a budget that recognizes, Mr. Chairman, the need 
for job creation that will provide funding for research and 
development and support programs to ensure that our workers 
have the education and skills necessary for the jobs of the 
future. And I support the President's increase of 6.4 percent 
for research and development.
    To give an example of how important this is to our district 
and to our future, the University of Akron is a world leader in 
polymer research, and now is the home of the nation's first 
bachelor's degree program in corrosion engineering, and the 
cost of corrosion in the United States is an astounding $260 
billion a year. That is right, we lose $276 billion a year to 
corrosion, and we can mitigate it thanks to the research and 
the investments that are going on in this area.
    Research investments in these areas lead to job creation, 
marketable technologies. And in the case of corrosion 
mitigation, immense savings for the U.S. government and 
taxpayers.
    With the Recovery Act the U.S. had made significant 
progress on battery materials, including the development of new 
lithium ion batteries, and we should continue to provide robust 
funding for advanced battery manufacturing in the United States 
to further help jump start a new multi-billion dollar industry 
which will provide great potential for those I represent.
    I also urge the Committee to support an additional $25 
million for the Advanced Technology Vehicles Manufacturing 
Incentive Program. This program provides low cost loans to auto 
companies for investments in engineering, component production, 
and the retooling of existing factories to manufacture new 
advanced technology vehicles such as hybrids, plug in hybrids, 
advance diesel and fuel cell cars. Clean energy means American 
jobs now and in the future. It is not a question of jobs or the 
environment, it is a question of jobs and the environment. We 
must take care of both.
    Manufacturing in the United States creates jobs, and I urge 
the Committee to fully fund the Manufacturing Extension 
Partnership. This program has helped create or retain over 419 
jobs in my district alone over the last four years, and it is 
the only national initiative to support, strengthen, and grow 
U.S. manufacturing.
    During these challenging economic times state and local 
organizations also need resources to invest in and expand 
economic opportunities for low income families, and the 
Community Development Block Grants provide those resources. I 
cannot stress enough the positive impact these grants have had 
in my congressional district, and I urge the Committee to 
support the President's request of $4.4 billion for the 
Community Development Fund.
    I am also pleased to support an increase of 20 percent 
since 2009 in funding for the Veterans Administration, and I 
support the President's request for $800 million in funding to 
help end veteran homelessness.
    I was inspired to go into public service by the work of 
Mitch Snyder who fought tirelessly to end homelessness for our 
veterans. No American, especially a veteran, should ever have 
to live without a roof over his head or her head. The nearly 1 
million veterans in Ohio and 24 million nationwide deserve 
nothing less than our full support, and I support the 
President's request of $5.2 billion for mental healthcare for 
veterans, an increase of 8.5 percent over the 2010 enacted 
level.
    Far too many of our servicemembers return from Iraq and 
Afghanistan with post traumatic stress disorder and traumatic 
brain injury. Taking care of our servicemembers, veterans and 
their families, especially in times of war, is of the utmost 
importance.
    And Americans need quality, affordable healthcare 
regardless of income, age, employment, gender, or pre-existing 
condition. In Ohio alone there are over 1.3 million people 
without health insurance, and since I was here last year that 
number has increased by 100,000 people. Our nation, our 
businesses, and our citizens cannot continue to function in our 
dysfunctional healthcare system, and as one who has served on 
this esteemed Committee I know it is difficult to balance the 
competing priorities before you, but I urge you, as you do so, 
keep the needs of working families in mind as you make those 
decisions. We cannot afford to turn our backs on hard-working 
Americans and those who want to work during these challenging 
economic times.
    Thank you for the opportunity to appear before you today, 
Mr. Chairman.
    Mr. Blumenauer [presiding]. Without objection the Committee 
stands in recess subject to the call of the Chair.
    [Recess.]
    Mr. Blumenauer. Mr. Walz, welcome.

 STATEMENT OF HON. TIM WALZ, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MINNESOTA

    Mr. Walz. Thank you, Mr. Chairman, I appreciate the 
opportunity for being here. I wanted to thank you as the acting 
Chairman, Chairman Spratt, and Ranking Member Ryan for the work 
you do. Critically important and I personally, as a 
constituent, am happy for the work you do.
    I want to just mention a couple things. Last year I came 
and testified especially dealing with veterans' issues, and I 
will talk a little bit more in the future. Many, many good 
things are happening, even at a time of great economic 
distress. And I think about a year after I was here last time 
testifying watching the changes that we have made, just 
yesterday in my home State of Minnesota they released numbers, 
15,600 new jobs created in January. That is the largest 
increase in over five years.
    While things are not out of the woods yet, there are signs 
that things are starting to move in the right direction.
    This budget has to continue to balance our short-term focus 
on economic recovery, while at the same time bringing about 
long-term economic transformation that will put us back on a 
path of fiscal responsibility.
    I am personally encouraged by the comments the President 
has made in his budgets on both of these fronts, and I 
appreciate that he recognizes we need to make tough choices to 
get our house back in order.
    I want to take a minute to touch on something, it has 
become a hot topic nowadays, it is something that I have been 
concerned about quite a while, and I know this Committee has, 
and that is the issue of debt and deficit. I am pleased this 
year that we passed, and the President signed into law, 
statutory PAYGO. This was the same policy that was in effect 
the last time we had a balanced budget under President Clinton, 
and I believe it is a good first step.
    I am also pleased that the President's proposal saves $23 
billion in fiscal year 2011 by cutting or eliminating 120 
programs that aren't performing. It also invests increased 
oversight and accountability and reduces improper payments at 
all levels of government. This has the potential to save tens 
of billions of dollars.
    While I believe it is a good first step, I believe there is 
much more to be done. I believe the only way we will ever find 
solutions to the pressing and difficult question is to put our 
partisanship aside and work across the aisle to solve this, 
that is why I am pleased the President has established a 
bipartisan Deficit Commission.
    I would also like to personally thank Speaker Pelosi for 
her commitment to bringing these recommendations for a vote on 
the House floor, it is something I believe needs to be done. 
Ultimately, we can't wait to kick this one down the road and it 
needs to be solved now.
    The second thing I would like to touch on and thank this 
Committee and all of Congress, as a Member of the House 
Veterans' Affairs Committee and a 24 year veteran myself, the 
commitment that has been made over the past two congresses to 
providing the highest quality of care and access to our 
veterans is unprecedented. Anyone can stand around and say they 
support veterans and stand in front of them at ceremonies, but 
standing behind them fulfilling our moral obligation is 
something that this Congress is beginning to do.
    That budget is not just a fiscal document, it is a moral 
document, and it is never more true than with our veterans. I 
have consistently said I believe we need to balance our budget. 
We can't do it on the backs of veterans.
    The President's proposal continues the recent record of 
strong funding for our veterans and improved access to care. It 
continues our investment ensuring that soldier's transition 
seamlessly from the DoD to the VA when they return home, and 
makes sure the VA works more efficiently for future 
generations.
    I am looking forward to continuing to work with Secretary 
Shinseki and Gates to make sure that our servicemen and women 
can get the best care possible.
    One area that we could be doing more is in the VA Office of 
the Inspector General. The VA's OIG has the weakest oversight 
of any agency due to the lack of funding. At the same time 
every one dollar that the OIG spends it nets $38 in savings 
through reducing fraud, waste, and abuse. If we could plus up 
that budget making sure the OIG had the resources necessary, we 
will make sure that the resources this Congress puts forward 
will be delivered towards veterans.
    Again, Mr. Chairman, I thank you for the work you do in 
this Committee, look forward to working with colleagues on 
tackling this, and I am absolutely convinced that this budget 
is going in the right direction. Thank you.
    [The prepared statement of Tim Walz follows:]

    Prepared Statement of Hon. Timothy J. Walz, a Representative in 
                  Congress From the State of Minnesota

    Chairman Spratt, Ranking Member Ryan, members of the Committee on 
the Budget, thank you for the opportunity to testify here today. I 
appreciate the very important work that you do and I am honored to be 
able to contribute in a small way today by sharing with you some of the 
issues that are important to me and that I am focused on this year.
    Last year, I commented that Congress was crafting and considering a 
budget in the midst of the worst economic crisis in a generation. Now, 
a year later, we are starting to see signs of economic recovery. Just 
yesterday, my home state of Minnesota that we've created 15,600 jobs in 
January, the largest increase since 2005 and our unemployment rate 
continues to drop.
    These are all encouraging signs, but we are not out of the woods 
yet.
    This budget has to continue to balance our short term focus on 
economic recovery, while at the same time bringing about a long-term 
economic transformation that will put us back on the path to fiscal 
responsibility. I am encouraged by the commitments the President's 
budget makes on both of these fronts and I appreciate that he 
recognizes that we need to make tough choices to get our fiscal house 
back in order.
    I want to take a minute to touch on something that has become a 
very hot topic in Washington these days, but something that I have been 
concerned about for quite some time and that is our debt and deficit.
    I am pleased that this year, we passed and the President signed 
into law statutory PAY-GO.
    This was the same policy that was in effect the last time we had a 
balanced budget under President Clinton and I believe it is a good 
first step to put us back on the road to fiscal discipline.
    I am also pleased that the President's proposal saves $23 billion 
in Fiscal Year 2011 by cutting or eliminating 120 programs that just 
are not smart investments. It also invests in increased oversight and 
accountability to reduce improper payments at all levels of government. 
This has the potential to save taxpayers tens of billions of dollars 
per year.
    While I believe these are all good first steps, I believe we will 
have to do more. I believe the only way we will ever find solutions to 
this pressing and difficult issue is to put partisanship aside and work 
across the aisle to make hard, but necessary choices.
    That is why I am pleased the President has established a bi-
partisan Deficit Commission. I have personally asked Speaker Pelosi to 
commit to bringing the recommendations the commission gives us to a 
vote on the House floor and I am please she has done so.
    Ultimately, we cannot wait for our kids and our grandkids to solve 
this problem. When I think about my own kids and the students I taught 
at Mankato West High School, I know we cannot just kick the can down 
the road.
    The second thing I want to touch on is veterans' issues. As a 
member of the House Veterans' Affairs Committee and a 24-year veteran 
myself, ensuring that our veterans have access to the highest quality 
benefits and care is one of my top priorities.
    Of course, anyone can say they support veterans but looking at our 
funding priorities is how you tell whether we're putting out money 
where our mouth is and fulfilling our moral obligation to our veterans. 
Our budget is not just a fiscal document, it is a moral document and 
that is especially true when we are talking about our nation's 
veterans.
    I have consistently said that while I believe we need to balance 
our budget, we must not do it on the backs of our veterans.
    The President's proposal continues the recent record of strong 
funding for our veterans community to improve access to care and 
eliminate the claims backlog. It continues our investment in ensuring 
that soldier's transition seamlessly from DOD to the VA when they 
return home and that the VA works more efficiently for future 
generations. I am looking forwarding to continuing to work with 
Secretary Shinseki and Secretary Gates to make sure that our servicemen 
and women get the best possible care.
    One area where we could be doing more is with VA Office of the 
Inspector General. VA's OIG has the weakest oversight to agency staff 
ration in the federal government. At the same time, every $1 spent on 
the OIG nets $38 in savings through reducing waste, fraud, and abuse. 
By investing more in OIG, we could not only make the VA more efficient, 
but we could free up additional funding to ensure that we fulfill our 
responsibility to those who have put their lives on the line in service 
our country.
    Thank you again for the opportunity to testify here today and thank 
you again for the work you are doing on behalf of our country.

    Mr. Blumenauer. Thank you. Deeply appreciate your time and 
your testimony. Congressman McMahon.

STATEMENT OF HON. MICHAEL McMAHON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. McMahon. Thank you, Mr. Chairman, and I want to thank 
you for providing me this opportunity to testify before you 
today. And I want to give you a special thanks and also to 
Chairman Spratt for your continued leadership and your work to 
help get us back on a path towards fiscal responsibility 
through your work here on the Budget Committee.
    As you know, Mr. Chairman, I have been an outspoken 
advocate for addressing the mental health needs of our 
returning soldiers, all of our returning warriors. The brave 
men and women in our armed forces continue to be placed in 
harm's way in Iraq, Afghanistan, and other foreign theaters. 
And we know that the least we can do to thank these brave 
warriors, the sailors, the airmen, the soldiers, the marines, 
is to take care of them when they get home.
    I applaud the President's latest budget for taking steps in 
addressing the needs of our veterans' mental health, but it 
doesn't go far enough. In December 2009, I, along with my good 
friend Congressman Tom Rooney, sent a letter to the President 
recommending a $750 million increase in veterans' mental health 
funding for fiscal year 2011.
    I come here today, Mr. Chairman, to urge this Committee to 
incorporate in your budget resolution an increase in support 
for veterans' mental health by $750 million above what was 
allocated by the Congress in fiscal year 2010, and to work with 
the appropriators to accomplish this critical funding level.
    Over the last year, I have worked closely with the 
Administration to promote better healthcare for our 
servicemembers, including improved mental health counseling and 
a targeted response by the United States Department of Defense 
to deal with the record numbers of suicides by active duty 
servicemembers. President Obama, The Department of Defense, and 
the Department of Veterans' Affairs have all stated that the 
mental health of our vets is one of their top priorities.
    My first piece of legislation in Congress was H.R. 1308 
that we introduced, the Veterans' Mental Health Assessments and 
Screenings Act. This bill mandates in person post-deployment 
mental health screenings for all servicemembers returning from 
active duty to defeat the stigma of seeking help for Post 
Traumatic Stress Disorder and Traumatic Brain Injury.
    Despite the wide, bipartisan support this bill received and 
its inclusion in the fiscal year 2010 Defense Authorization, 
the rates of suicide are growing.
    As Members of Congress, we have unfortunately become 
accustomed to hearing about the lack of assistance our 
servicemen and women receive as they silently suffer from 
invisible injuries such as PTSD and TBI. Last year there were 
over 340 active duty and reservist suicides; we lost more 
veterans to suicides in 2009 than we lost men and women in 
combat. This is a disgrace, Mr. Chairman. It is unacceptable to 
those who lay their lives on the line for our country, to their 
families, and ultimately to the American people, and this 
problem will only get worse as tens of thousands of our troops 
come home from Iraq and Afghanistan in the next few years.
    We worked to secure additional support for mental health 
funding in last year's defense budget, increased the mental 
health force in the military, and formed the Invisible Injuries 
Caucus to get our colleagues more involved on these issues, but 
we have been told time and time again that the main obstacle 
that stands in the way of bringing down the rate of solider 
suicides is the need for additional resources from Congress to 
hire more mental health professionals for screenings and 
treatments.
    Increased funding will allow the Department of Defense to 
move away from numerous pilot programs and provide a consistent 
and comprehensive post deployment screening program 
administered by trained mental health professionals.
    I commend the Administration for showing a commitment to 
our active duty Members with their fiscal year 2011 budget 
request that focuses on overhauling the transition process from 
the military to civilian life.
    The President's proposal will provide some funds for our 
local VA hospitals and equip them with resources and staff to 
address veterans' needs. It also will help expand inpatient, 
residential, and outpatient mental health programs with an 
emphasis on integrating mental health services with primary and 
specialty care. But with two active wars, the mental health 
needs of our vets are growing so fast that the President's 
proposal barely scratches the surface on giving our vets the 
care they so rightfully have earned and deserve.
    The additional $750 million I am requesting now will allow 
the DoD and VA to be proactive in screening for PTSD and 
intervening early on in order to prevent chronic problems and 
reduce the skyrocketing rate of soldier suicides.
    Through all of this, I think we can agree that prevention 
is the key, so I look forward to crafting an enhanced suicide 
prevention campaign targeted at educating active duty members, 
veterans and their families. Education is the only way we can 
reduce the stigmas associated with seeking help with mental 
injuries. It is one of our most solemn obligations as Members 
of Congress to improve the lives of the men and women who have 
sacrificed so much for our country.
    Our budget is a statement about priorities. As you prepare 
the budget resolution, Mr. Chairman, that will guide the debate 
in the months ahead, I urge you to increase the budget by $750 
million to fund veterans' mental health. Our servicemen and 
women have defended their country with honor and we owe them 
the best benefits and services available.
    I thank you for your attention and for your dedication in 
putting together that list of priorities so important for our 
Nation known as our budget.
    Thank you, sir.
    [The prepared statement of Michael McMahon follows:]

  Prepared Statement of Hon. Michael E. McMahon, a Representative in 
                  Congress From the State of New York

    Chairman Spratt, Ranking Member Ryan, thank you for providing this 
opportunity for me to testify before you today. I would like to offer a 
particular thank you to Chairman Spratt for your continued leadership, 
and your work to help get us back on a path towards fiscal 
responsibility.
    As you know, I have been an outspoken advocate for addressing the 
mental health needs of our returning soldiers. The brave men and women 
in our armed forced continue to be placed in harm's way in Iraq, 
Afghanistan, and other foreign theaters. And we know that the least we 
can do to thank these brave soldiers, sailors, airmen, marine is to 
take care of them when they get home.
    I applaud the President's latest budget for taking steps in 
addressing the needs of our veterans' mental health. But it doesn't go 
far enough. In December 2009, I, along with my good friend Congressman 
Tom Rooney, sent a letter to the President recommending a $750 Million 
increase in veterans' mental health funding for FY 2011.
    I come here today to urge this committee to incorporate in your 
budget resolution, an increase in support for Veterans' Mental health 
by $750 million above what was allocated by the Congress in FY 2010, 
and to work with the appropriators to accomplish this critical funding 
level.
    Over the last year, I have worked closely with the Administration 
to promote better healthcare for our service members, including 
improved mental health counseling and a targeted response by the United 
States Department of Defense to deal with the record numbers of 
suicides by active duty service members. President Obama, The 
Department of Defense, and the Department of Veterans' Affairs have all 
stated that the mental health of our vets is one of their top 
priorities.
    My first piece of legislation in Congress was HR 1308, the 
Veterans' Mental Health Assessments and Screenings Act. This bill 
mandates in person post-deployment mental health screenings for ALL 
service members returning from active duty to defeat the stigma of 
seeking help for Post Traumatic Stress Disorder (PTSD) and Traumatic 
Brain Injury (TBI).
    Despite the wide, bi-partisan support this bill received and its 
inclusion in the FY10 Defense Authorization, the rates of suicide are 
growing.
    As members of Congress, we have unfortunately become accustomed to 
hearing about the lack of assistance our service men and women receive 
as they silently suffer from invisible injuries such as PTSD and TBI.
    Last year, there were over 340 active-duty and reservist suicides; 
we lost more veterans to suicides in 2009 than we lost men and women in 
combat.
    This is a disgrace. It is unacceptable to those who lay their lives 
on the line for our country, to their families and, ultimately to the 
American people.
    And this problem will only get worse as tens of thousands of our 
troops come home from Iraq and Afghanistan in the next few years.
    We worked to secure additional support for mental health funding in 
last year's defense budget, increased the mental health force in the 
military and formed the Invisible Injuries Caucus to get our colleagues 
more involved on these issues.
    But we have been told time and time again that the main obstacle 
that stands in the way of bringing down the rate of solider suicides is 
the need for additional resources from Congress to hire more mental 
health professionals.
    Increased funding will allow the DoD to move away from numerous 
``pilot programs'' and provide a consistent and comprehensive post 
deployment screening program administered by trained mental health 
professionals.
    I commend the administration for showing a commitment to our active 
duty service members with their FY2011 budget request that focuses on 
overhauling the transition process from the military to civilian life.
    The President's proposal will provide some funds for our local VA 
hospitals and equip them with resources and staff to address veterans' 
needs. It also will help expand inpatient, residential, and outpatient 
mental health programs with an emphasis on integrating mental health 
services with primary and specialty care.
    But with two active wars, the mental health needs of our vets are 
growing so fast that the President's proposal barely scratches the 
surface on giving our vets the care they so rightfully have earned and 
deserve.
    The additional $750 I am requesting now will allow the DoD and VA 
to be proactive in screening for PTSD and intervening early on in order 
to prevent chronic problems and reduce the skyrocketing rate of soldier 
suicides.
    Through all of this, I think we can agree that prevention is the 
key, so I look forward to crafting an enhanced suicide prevention 
campaign targeted at educating active duty members, veterans and their 
families. Education is the only way we can reduce the stigmas 
associated with seeking help with mental injuries.
    It is one of our most solemn obligations as Members of Congress to 
improve the lives of the men and women who have sacrificed so much for 
our country. Our budget is a statement of our priorities.
    As you prepare the budget resolution that will guide the debate in 
the months ahead, I urge you to increase the budget by $750 million to 
fund veterans' mental health. Our service men and women have defended 
their country with honor and we owe them the best benefits and services 
available.
    Thank you again for the opportunity to testify.

    Mr. Blumenauer. Thank you. We deeply appreciate your time 
and your insights.
    Mr. McMahon. Likewise.
    Mr. Blumenauer. Congressman Tonko.
    Mr. Tonko. Chairman Blumenauer.
    Mr. Blumenauer. How are you?
    Mr. Tonko. Very well, thank you.
    Mr. Blumenauer. Welcome.

STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Tonko. Thank you very much. Chairman Blumenauer, I want 
to thank you for offering me this opportunity to speak here 
this afternoon. I represent the twenty first Congressional 
District of New York, also known as the Capital Region. The 
area is home to many towns which saw a boom during the first 
industrial revolution. However, since those times, we have seen 
a dwindling population in response to more and more companies 
closing or moving overseas.
    In recent years, one of our prime focuses has been 
promoting research companies and funding to help revive the 
Capital Region and all of Upstate New York. Even with the 
recent revival, we still have work to do when it comes to 
transforming our region back into an innovation powerhouse, as 
it was when GE was founded in Schenectady, NY or ``the electric 
city.''
    To successfully accomplish this goal, we must see 
additional federal funding in the areas of energy, of 
infrastructure, of community development, and certainly of 
public health programs. It is time that Washington fully 
invests in the sciences and works to truly promote an energy 
agenda. It is often quoted that ``a crisis is a terrible thing 
to waste.''
    Mr. Chair, we have a crisis in this country. Our country's 
energy system is in shambles and it is time for us to lay out 
the blueprint for a bold new vision here in the United States.
    I believe that the budget should do much more to provide 
funding to the Department of Energy to increase funding for 
research, development, demonstration and deployment of energy 
efficiency, renewable energy, smart grid, and advanced vehicle 
technologies.
    I would recommend that the House budget resolution include 
robust funding for Function 270, consistent with the 
President's budget proposal. We need to drill and mine energy 
efficiency like we currently drill for oil and mine for coal; 
investment focused on demand-side energy solutions rather than 
simply through supply-side, which can be carried out by 
increased funding in areas such as the Energy Efficient Block 
Grant Program.
    As we did during the Space Race so many years ago, we must 
turn towards innovation and leadership on the energy front to 
lead the world again. We can effectively become the standard 
bearer in energy policy and energy sources by ensuring that we 
increase funding for research and development to put 
investments towards advanced energy programs, including 
advanced battery and storage programs.
    For decades, upstate urban cores in New York State, once 
the center of bustling economic and manufacturing activity, 
have been slowly eroding away. Urban areas in my congressional 
district, such as Albany, Troy, Schenectady, and Amsterdam, to 
name a few, served as the engine for our upstate's economy and 
growth. However, for decades these cities have sat in a state 
of disrepair as the population moves away and businesses have 
dwindled.
    For the sake of our economy, environment,and the 
preservation of culture and architecture, we must commit 
funding to rebuild our aging infrastructure and funding to 
preserve our most historical places.
    Water and sewer infrastructure investments are crucial to 
redevelop our urban centers. Many of the towns in my district 
have water and sewer infrastructure which is over 80 years old. 
For safety, security, and developmental needs, it is critical 
that we replace these systems. Local taxpayers cannot bear the 
entire burden of upgrading this essential infrastructure. Many 
are living in communities that have seen a declining tax base. 
New systems encourage both economic and population growth in 
urban areas that would then rebuild that declining tax base.
    Besides rebuilding aging infrastructure in our urban areas 
we must also preserve sites that are historically significant. 
Doing so will increase community spirit as well as generate 
much needed tourism dollars.
    A new U.S. Cultural and Heritage Tourism Marketing Council 
and the U.S. Department of Commerce study revealed that 
cultural heritage travelers contribute more than $192 billion 
annually to the United States economy.
    That is why for the fiscal year 2011 budget I support 
increased funding for the National Heritage Area Program 
through the Heritage Partnership Program of the National Park 
Service. Increased funding, which is at least equal to last 
year's level would preserve the ability of the National 
Heritage Areas to continue their work to sustain partnerships 
that foster job creation and economic, cultural, historic, 
environmental, and community development.
    In addition to providing increased funding for fiscal year 
2011, I want to take this time to encourage my colleagues in 
Congress to work with me to find additional revenue streams for 
these vital programs, ongoing revenue streams that will provide 
stability and certainty to the work they do.
    I also ask that the committee reject the language in the 
President's fiscal year 2011 budget proposal as it would impose 
stifling limitations on NHAs, the Heritage Areas.
    Most alarming is the language that would change the current 
distribution of funds used to support all 49 congressionally 
authorized National Heritage Areas by eliminating support to 22 
of them.
    I also consider the arts a very important part of not only 
the education of our children, but also our American cultural 
fabric. This sector of the economy has traditionally been 
supported by philanthropic donations, as well as by state and 
federal dollars. Unfortunately, because of the economic 
downturn, many art programs have seen their donations plummet, 
forcing them to lay off employees and reduce services.
    This is why I ask that Congress respectfully increase 
support for the Office of Museum Services within the Institute 
of Museum and Library Services program. Museums are a vital 
part of our communities and our educational infrastructure. 
Each year museums provide more than 18 million instructional 
hours to schoolchildren and educators and spend more than $14.5 
billion in their communities. They are economic engines 
employing more than a half million Americans, spurring local 
tourism and contributing to the cultural fabric of our nation.
    Lastly, we must increase federal funding for the Community 
Mental Health Services Block Grant, which is the single largest 
federal funding source for mental health programs. It is 
dedicated to improving state and local mental health safety net 
systems and serves over 6 million Americans each year. In these 
difficult economic times more Americans are losing their health 
insurance coverage and more states are facing major deficits 
and impending budget cuts. Adults and children with mental 
health issues are accessing the public mental healthcare system 
in greater numbers, and state mental health authorities are 
reporting an increased demand for their services. At the same 
time, many states are being forced to cut mental healthcare 
funding because of the economic downturn.
    Just as we should make federal investments into programs 
that can improve our economy, we must also make investments 
into programs that improve the health of our nation and her 
people.
    Again, I want to thank you Chairman, and the entire 
committee, for the opportunity to allow me to come before you 
today and present some of my highest priorities.
    Thank you.
    [The prepared statement of Paul Tonko follows:]

Prepared Statement of Hon. Paul D. Tonko, a Representative in Congress 
                       From the State of New York

    Chairman Spratt, Ranking member Ryan, respected members of the 
committee, I want to sincerely thank you for giving me the opportunity 
to speak here today. I represent the twenty first congressional 
district of New York, also known as the Capital Region. The area is 
home to many towns which saw a boom during the first industrial 
revolution. However, since those times, we have seen a dwindling 
population in response to more and more companies closing or moving 
overseas. In recent years, one of our prime focuses has been promoting 
research companies and funding to help revive the Capital Region and 
all of Upstate New York.
    Even with the recent revival, we still have work to do when it 
comes to transforming our region back into an innovation powerhouse, as 
it was when GE was founded in Schenectady, NY or ``the electric city.'' 
To successfully accomplish this goal, we must see additional federal 
funding in the areas of energy, infrastructure, community development, 
and public health programs.
    It is time that Washington fully invests in the sciences and works 
to truly promote an energy agenda. It is often quoted that ``a crisis 
is a terrible thing to waste.'' Mr. Chairman, we have a crisis in this 
country. Our country's energy system is in shambles and it is time for 
us to lay out the blueprint for a bold new vision here in the United 
States.
    I believe that the budget should do much more to provide funding to 
the Department of Energy to increase funding for research, development, 
demonstration and deployment of energy efficiency, renewable energy, 
smart grid, and advanced vehicle technologies. I would recommend that 
the House Budget Resolution include robust funding for Function 270--
consistent with the President's budget proposal.
    We need to drill and mine energy efficiency like we currently drill 
for oil and mine for coal; investment focused on demand-side energy 
solutions rather than simply through supply-side, which can be carried 
out by increased funding in areas such as the Energy Efficient Block 
Grant Program.
    As we did during the Space Race so many years ago, we must turn 
towards innovation and leadership on the energy front to lead the world 
again. We can effectively become the standard bearer in energy policy 
and energy sources by ensuring that we increase funding for Research & 
Development to put investments towards advanced energy programs--
including advanced battery and storage programs.
    For decades, upstate urban cores, once the center of bustling 
economic and manufacturing activity, have been slowly eroding away. 
Urban areas in my district, such as Albany, Troy, Schenectady and 
Amsterdam, to name a few, served as the engine for our upstate's 
economy and growth. However, for decades these cities have sat in a 
state of disrepair as the population moves away and businesses have 
dwindled. For the sake of our economy, environment and the preservation 
of culture and architecture, we must commit funding to rebuild our 
aging infrastructure and funding to preserve our most historical 
places.
    Water and sewer infrastructure investments are crucial to redevelop 
our urban centers. Many of the towns in my district have water and 
sewer infrastructure which is over 80 years old. For safety, security 
and developmental needs, it is critical that we replace these systems. 
Local taxpayers cannot bear the entire burden of upgrading this 
essential infrastructure. New systems encourage both economic and 
population growth in urban areas.
    Besides rebuilding aging infrastructure in our urban areas, we must 
also preserve sites that are historically significant. Doing so will 
increase community spirit as well as generate much needed tourism 
dollars. A new U.S. Cultural and Heritage Tourism Marketing Council and 
the U.S. Department of Commerce study revealed that cultural heritage 
travelers contribute more than $192 billion annually to the U.S. 
economy.
    That is why for the fiscal year 2011 budget I support $18 million 
for the National Heritage Area Program through the Heritage Partnership 
Program of the National Park Service (NPS). This funding, which is 
equal to last year's level, would preserve the ability of the National 
Heritage Areas (NHAs) to continue their work to sustain partnerships 
that foster job creation and economic, cultural, historic, 
environmental, and community development. I also ask that the committee 
reject the language in the President's FY 2011 budget proposal as it 
would impose stifling limitations on NHAs. Most alarming is the 
language that would change the current distribution of funds used to 
support all 49 congressionally authorized National Heritage Areas by 
eliminating support to 22 of them.
    I also consider the arts a very important part of not only the 
education of our children, but also our American culture. This sector 
of the economy has traditionally been supported by philanthropic 
donations, as well as by state and federal dollars. Unfortunately, 
because of the economic downturn, many art programs have seen their 
donations plummet, forcing them to lay off employees and reduce 
services. This is why I ask that Congress increase support for the 
Office of Museum Services (OMS) within the Institute of Museum and 
Library Services (IMLS) program.
    Museums are a vital part of our communities and educational 
infrastructure. Each year, museums provide more than 18 million 
instructional hours to schoolchildren and educators and spend more than 
$14.5 billion in their communities. They are economic engines--
employing more than a half million Americans, spurring local tourism 
and contributing to the cultural fabric of our nation.
    Lastly, we must increase federal funding for the Community Mental 
Health Services Block Grant (CMHSBG), which is the single largest 
federal funding source for mental health programs. It is dedicated to 
improving state and local mental health safety net systems and serves 
over six million Americans each year.
    In these difficult economic times, more Americans are losing their 
health insurance coverage, and more states are facing major deficits 
and impending budget cuts. Adults and children with mental health 
issues are accessing the public mental health care system in greater 
numbers, and state mental health authorities are reporting an increased 
demand for their services. At the same time, many states are being 
forced to cut mental health care funding because of the economic 
downturn. Just as we should make federal investments into programs that 
can improve our economy, we must also make investments into programs 
that improve the health of our nation.
    Again, I want to thank Chairman Spratt, Ranking Member Ryan and the 
rest of the committee for allowing me to come in today.

    Mr. Blumenauer. We appreciate your presentation and your 
thoughtfulness, it is very helpful.
    Mr. Tonko. Thank you, Chairman.
    Mr. Blumenauer. Congressman Quigley.

 STATEMENT OF HON. MIKE QUIGLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Quigley. Thank you, Mr. Chairman. Never been on this 
side of pushing the buttons.
    I want to thank the Chairman and Members of the committee 
for the opportunity to testify today.
    Our nation is on an unsustainable fiscal path. Taking into 
account widely expected policy changes the CBO projects that by 
2035 the public debt will be almost twice the amount of our 
entire GDP. By 2050 it projects that the public debt will be 
more than three times the amount of GDP. While there are those 
who hold great disdain for our government, I think that our 
government's mission matters. Government can improve people's 
lives and keep them safe. Government's mission matters and that 
is precisely why our national debt is so troubling.
    If we can't get our finances in order how can we ask 
taxpayers to trust us with their hard earned dollars? How can 
we ask taxpayers to tighten their belts when your balance sheet 
is so unbalanced?
    To earn the public's trust, our government needs to be more 
transparent, more accountable, and more honest, and it all 
begins with our budget. We need to fix the short side of 
accounting that massively underestimates the cost of spending 
programs. The ten-year budget window is too easily gamed. A 
measure for which costs escalate in year 2011 can be called 
budget neutral while it was not.
    We need to consider the net present value of spending 
measures that escalate in cost outside the budget window. We 
also need to adopt accrual, a standard for private business as 
well as state and local governments. Like what is done in the 
financial report of the U.S.
    By taking into account the promises made yesterday to spend 
tomorrow we can provide a more accurate picture of our fiscal 
position.
    If Greece were obligated to use full and honest accounting 
to budget its 2001 currency swap deal with Goldman Sachs it 
would not have been able to hide its deteriorating finances 
behind an upfront payment on the exchange.
    Similar budgetary gimmickry here at home prevents us from 
properly evaluating our own finances. We also need to expand 
the scope of the budget to include implicit government 
guarantees of GSEs like Fannie Mae and Freddie Mac, as well as 
other financial exposures. We need to bring tax expenditures 
onto the federal budget by recording them as simultaneous 
collections and outlays. Only by capturing the scope of tax 
expenditures, nearly $1.2 trillion in redistributed revenue, 
can we gain an honest and accurate picture of government.
    These are only the first steps, but unless we reinvent the 
way government does business and get our finances in order we 
won't be nearly as successful in achieving our other 
priorities.
    Finally, we need debt reduction targets in place to 
demonstrate our seriousness about tackling the debt problem. 
Even if we can't agree on how to reduce our debt to GDP ratio, 
we should all come to a consensus on achievable targets.
    That is why next week I am introducing a ``Sense of the 
House'' Resolution establishing sustainable debt and deficit 
targets. I urge you to join me in co-sponsoring this 
resolution, especially if you believe that government's mission 
matters. The best way to achieve better healthcare coverage or 
a stronger national defense is to restore the public's trust in 
government, and that means making government more transparent, 
more accountable, and more honest.
    Again, thank you for your time.
    [The prepared statement of Mike Quigley follows:]

 Prepared Statement of Hon. Mike Quigley, a Representative in Congress 
                       From the State of Illinois

    Mr. Chairman--thank you for the opportunity to testify today.
    Our nation is on an unsustainable fiscal path.
    Taking into account widely expected policy changes, the CBO 
projects that by 2035 the public debt will be almost twice the amount 
of our entire GDP.
    By 2050, it projects that the public debt will be more than three 
times the amount of GDP.
    While there are those who hold great disdain for our government--I 
believe that government's mission matters.
    Government can improve people's lives and keep them safe.
    Government's mission matters, and that's precisely why our national 
debt is so troubling.
    If we can't get our finances in order, how can we ask taxpayers to 
trust us with their hard-earned dollars?
    How can we ask taxpayers to tighten their belts when our balance 
sheet is so unbalanced?
    To earn the public's trust, our government needs to be more 
transparent, more accountable, and more honest.
    And it all begins with our budget.
    We need to fix the short-sighted accounting that massively 
underestimates the cost of spending programs.
    The 10 year budget window is too easily gamed--a measure for which 
costs escalate in year 11 can be called budget neutral, but it is not.
    We need to consider the net present value of spending measures that 
escalate in cost outside the budget window.
    We also need to adopt accrual accounting--the standard for private 
business as well as state and local governments, and what's used in the 
Financial Report of the U.S.
    By taking into account the promises made yesterday to spend 
tomorrow, we can provide a more accurate picture of our fiscal 
position.
    If Greece were obligated to use full and honest accounting to 
budget its 2001 currency swap deal with Goldman Sachs, it wouldn't have 
been able to hide its deteriorating finances behind an upfront payment 
on the exchange.
    Similar budget gimmickry here at home prevents us from properly 
evaluating our own finances.
    We also need to expand the scope of the budget to include implicit 
government guarantees of GSEs like Fannie Mae and Freddie Mac, as well 
as other fiscal exposures.
    And we need to bring tax expenditures onto the federal budget--by 
recording them as simultaneous collections and outlays.
    Only by capturing the scope of tax expenditures--nearly $1.2 
trillion in redistributed revenue--can we gain an honest and accurate 
picture of government.
    These are only first steps.
    But unless we reinvent the way government does business and get our 
finances in order, we won't be nearly as successful in achieving our 
other priorities.
    Finally, we need debt reduction targets in place--to demonstrate 
our seriousness about tackling the debt problem.
    Even if we can't all agree on how to reduce our debt to GDP ratio, 
we should all come to a consensus on achievable targets.
    That's why, next week, I'm introducing a ``Sense of the House'' 
resolution establishing sustainable debt and deficit targets.
    I urge you to join me in cosponsoring this resolution, especially 
if you believe that government's mission matters.
    The best way to achieve better health care coverage or a stronger 
national defense is to restore the public's trust in government--and 
that means making government more transparent, accountable, and honest.
    Thank you for your time.

    Mr. Blumenauer. Thank you. Great observations and we 
appreciate you joining us. Congressman McGovern.

STATEMENT OF HON. JAMES McGOVERN, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you very much. And Mr. Chairman, I want 
to thank the committee for this opportunity to testify about 
the fiscal year 2011 budget resolution.
    As a member of the Budget Committee, I understand the 
difficult fiscal and budgetary constraints facing us this year 
and in the immediate future. It is important, therefore, that 
we outline clearly in the budget resolution the most important 
priorities for our country and its economic recovery, and for 
our people, especially those who are most vulnerable.
    Mr. Chairman, as you know, I am committed to ending hunger 
in America and around the world. I believe we can end hunger, 
but we haven't yet mustered the political will to do so.
    We need to fully fund the President's Global Food Security 
Initiative, and that means robust funding for the International 
Affairs 150 account. Domestically, despite the budgetary 
difficulties facing us, increasing funding for programs like 
school breakfasts and lunches, and after school and summer 
meals is something we simply must do. It is an investment in 
the health of our nation, not just the physical health of our 
citizens, but our economic health. Hunger and poor nutrition 
among children translates into lost productivity and 
significant healthcare costs throughout the lifetime of an 
adult.
    Mr. Chairman, we need to take dramatic action and address 
the growing number of children who rely on discounted and free 
meals during the school year and summer months.
    I commend President Obama for including a $1 billion 
increase in funding for the Child Nutrition Programs in his 
fiscal year 2011 budget. It is a bold step, it is a necessary 
step if we are indeed going to provide more breakfasts, more 
after school snacks, and more summer meals to children.
    Along with expanding these programs so they reach currently 
eligible children, we must also focus on improving the 
nutritional quality of the food served at school and provided 
through all our federal child nutrition programs.
    While the USDA has laid out principles for the Child 
Nutrition Reauthorization Act, it has not yet provided the kind 
of detailed legislative language or a detailed budget estimate 
for these improvements. In fact, our colleague on the Budget 
Committee and Chair of the Agriculture Appropriations 
Subcommittee, Congresswoman Rosa DeLauro, recently asked 
Secretary Vilsack how much his proposals would cost and if they 
fit within the $1 billion increase in the President's budget. 
Unfortunately, Secretary Vilsack at this time could not provide 
a specific line by line response, precisely because the 
Department has yet to release a detailed cost estimate.
    Two years ago this committee built into the budget 
resolution a reserve fund for the Farm Bill. That reserve fund, 
initially set at $20 billion, was used to enact a $4.9 billion 
increase in the Food Stamp Program, now called SNAP.
    The fiscal year 2010 budget resolution included a similar 
deficit-neutral reserve fund for the Child Nutrition 
Reauthorization Bill.
    I respectfully request that this committee include this 
language in the fiscal year 2011 budget resolution so we can 
provide the best improvements possible to this important set of 
programs.
    Mr. Chairman, we owe it to our children to properly invest 
in the Child Nutrition Programs. We owe it to our nation to 
clearly signal that ending child hunger and improving child 
nutrition and health are national program and budget 
priorities.
    The Institute of Medicine has called for significant 
improvements in these programs, and ultimately we can address 
hunger, improve nutrition, and help combat obesity and 
associated health problems by starting with our young children 
in schools.
    Let me conclude, Mr. Chairman, by focusing on just one more 
issue confronting our budget decisions, namely the wars in Iraq 
and Afghanistan.
    Before this Congress takes up the President's fiscal year 
2010 supplemental appropriations request and the fiscal year 
2011 budget, the total cumulative appropriations for the Afghan 
and Iraq wars is $1.08 trillion according to the Congressional 
Research Service. This figure does not include the costs to 
support our returning veterans with benefits and healthcare, or 
the interest on the war-related debt or aid to our allies. In 
constant 2008 dollars this war spending exceeds what we spent 
on any prior war in the history of the United States of America 
with the exception of World War II.
    Mr. Chairman, in a nutshell, these wars are bleeding our 
nation's fiscal and economic health dry. They are robbing us of 
the resources we need to invest in the economic recovery of 
America, in a 21st Century infrastructure, in national 
priorities such as education and healthcare, in our own 
homeland security, and in taking care of our most vulnerable 
children, seniors, neighbors, and veterans.
    Mr. Chairman, we must find a way to pay for these wars and 
to end them. Compared to the Bush Administration's handling of 
these war costs, I commend President Obama for including in his 
regular fiscal year 2011 budget request a greater portion of 
spending related to our policy in Iraq and Afghanistan, 
especially on the non-military side of the ledger. 
Unfortunately, most of our military operations continue to be 
deficit-funded and placed on the taxpayer credit card.
    I strongly urge this committee to include provisions in the 
fiscal year 2011 budget resolution that preclude escalating war 
spending, require payment and offsets for war spending, and 
help pave the path to bring our servicemen and women home as 
soon as possible.
    Thank you, Mr. Chairman, for the opportunity to bring these 
priorities to the attention of the Committee.
    [The prepared statement of James McGovern follows:]

   Prepared Statement of Hon. James P. McGovern, a Representative in 
                Congress From the State of Massachusetts

    Mr. Chairman, I want to thank the Committee for this opportunity to 
testify about the Fiscal Year 2011 Budget Resolution. As a member of 
the Budget Committee, I understand the difficult fiscal and budgetary 
constraints facing us this year and in the immediate future. It is 
important, therefore, that we outline clearly in the Budget Resolution 
the most important priorities for our country and its economic 
recovery, and for our people, especially those who are most vulnerable.
    Mr. Chairman, as you know, I am committed to ending hunger in 
America and around the world. I believe we can end hunger, but we 
haven't yet mustered the political will to do so. Despite the budgetary 
difficulties facing us, increasing funding for programs like school 
breakfasts and lunches, and after school and summer meals is something 
we simply must do. It is an investment in the health of our nation--not 
just the physical health of our citizens, but our economic health. 
Hunger and poor nutrition among children translate into lost 
productivity and significant health care costs throughout the lifetime 
of an adult.
    Mr. Chairman, we need to take dramatic action and address the 
growing number of children who rely on discounted and free meals during 
the school year and summer months.
    I commend President Obama for including a one billion dollar 
increase in funding for the Child Nutrition Programs in his FY 2011 
Budget. It is a bold step--it is a necessary step--if we are indeed 
going to provide more breakfasts, more after school snacks and more 
summer meals to children. Along with expanding these programs so they 
reach currently eligible children, we must also focus on improving the 
nutritional quality of the food served at school and provided through 
all our federal child nutrition programs.
    While the USDA has laid out principles for the Child Nutrition 
Reauthorization Act, it has not yet provided the kind of detailed 
legislative language or a detailed budget estimate for these 
improvements. In fact, our colleague on the Budget Committee and Chair 
of the Agriculture Appropriations Subcommittee, Congresswoman DeLauro, 
recently asked Secretary Vilsack how much his proposals would cost and 
if they fit within the $1 billion increase in the President's budget. 
Unfortunately, Secretary Vilsack could not provide a specific line-by-
line response precisely because the Department has yet to release a 
detailed cost estimate.
    Two years ago, this Committee built into the budget resolution a 
reserve fund for the Farm Bill. That reserve fund--initially set at $20 
billion--was used to enact a $4.9 billion increase in the Food Stamp 
program, now called SNAP. The FY 2010 Budget Resolution included a 
similar deficit-neutral reserve fund for the Child Nutrition 
Reauthorization bill. I respectfully request that this Committee 
include this language in the FY 2011 Budget Resolution so we can 
provide the best improvements possible to this important set of 
programs.
    Mr. Chairman, we owe it to our children to properly invest in the 
Child Nutrition Programs. We owe it to our nation to clearly signal 
that ending child hunger and improving child nutrition and health are 
national program and budget priorities. The Institute of Medicine has 
called for significant improvements in these programs. Ultimately, we 
can address hunger, improve nutrition and help combat obesity and 
associated health problems by starting with our young children in 
schools.
    Let me conclude, Mr. Chairman, by focusing on just one more issue 
confronting our budget decisions--namely the wars in Iraq and 
Afghanistan. Before this Congress takes up the President's FY 2010 
supplemental appropriations request and the FY 2011 budget, the total 
cumulative appropriations for the Afghan and Iraq wars is $1.08 
trillion dollars, according to the Congressional Research Service. This 
figure does NOT include the costs to support our returning veterans 
with benefits and health care, or the interest on war-related debt or 
aid to our allies. In constant 2008 dollars, this war spending exceeds 
what we spent on any prior war in the history of the United States with 
the exception of World War II.
    Mr. Chairman, in a nutshell, these wars are bleeding our nation's 
fiscal and economic health dry. They are robbing us of the resources we 
need to invest in the economic recovery of America, in a 21st Century 
infrastructure, in national priorities such as education and health 
care, in our own homeland security, and in taking care of our most 
vulnerable children, seniors, neighbors and veterans.
    Mr. Chairman, we must find a way to pay for these wars and to end 
them. Compared to the Bush Administration's handling of these war 
costs, I commend President Obama for including in his regular FY 2011 
Budget Request a greater portion of spending related to our policy in 
Iraq and Afghanistan, especially on the non-military side of the 
ledger. Unfortunately, most of our military operations continue to be 
deficit-funded and placed on the taxpayer credit card.
    I strongly urge this Committee to include provisions in the FY 2011 
Budget Resolution that preclude escalating war spending, require 
payment and offsets for war spending and help pave the path to bring 
our servicemen and women home as soon as possible.
    Thank you, Mr. Chairman, for the opportunity to bring these 
priorities to the attention of the Committee.

    Mr. Blumenauer. Thank you for your testimony, I deeply 
appreciate it. We will take a 15 second recess.
    [Recess.]
    Mr. McGovern [presiding]. The Budget Committee will 
reconvene, and we are happy to welcome the Honorable Dina Titus 
from Nevada, and we very much appreciate you being here and 
look forward to hearing your testimony. You may proceed.

STATEMENT OF HON. DINA TITUS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF NEVADA

    Ms. Titus. Thank you, Mr. Chairman for this opportunity to 
testify about my priorities for the fiscal year 2011 budget 
resolution.
    Like all Americans, my constituents in Southern Nevada have 
been struggling. Our state has the highest foreclosure rate and 
the second highest unemployment in the nation, and our state 
legislature just finished a special session where they were 
forced to make another round of drastic cuts to education and 
other state agencies.
    Las Vegas is no long recession proof. It used to be that if 
you had two nickels to rub together you would come to Las Vegas 
in hopes of changing your luck. That is not true anymore. If 
people don't have disposable income in Iowa and Georgia they 
can't come to Nevada for fun and for business.
    So it is very clear to me that job creation must be the 
central focus of the 2011 budget resolution. We need to put 
Americans to work in clean energy jobs and other emerging 
fields so that the United States can position itself as a 
leader in this global economy.
    It is my strong belief that the 2011 budget should 
incentivize domestic manufacturing of clean energy technologies 
like solar, wind, and geothermal. A focus on domestic 
manufacturing ensures that we don't trade a dependence on 
foreign oil for a reliance on clean energy exports from 
countries like China. We need to make the mirrors, make the 
windmills here in this country. And although we have started to 
see signs of growth in our economy, we will not be fully 
recovered until Americans are back to work.
    I also strongly believe that the budget resolution must 
work to reign in the deficit and restore fiscal responsibility. 
All across Southern Nevada my constituents are tightening their 
belts, and they expect the U.S. Congress to do the same.
    Under the President's budget request we see deficits 
decline from 10.6 percent of GDP in 2010 to 3.9 percent in 
2014, and non-security discretionary spending is frozen for 
three years. This is an important start, but I believe we need 
to do more. We should work together in a bipartisan way to 
reduce the deficit, to cut programs that don't work, and to 
eventually balance the budget.
    I urge your committee to draft a budget resolution that 
reduces the deficit even further so that we don't saddle the 
next generation of Americans with unmanageable debt.
    Now, I recognize that we must make difficult choices in 
order to reduce the deficit and improve the economy. For 
instance, it is time we stopped funding defense acquisition 
programs that the Department of Defense doesn't even want.
    I do remain concerned, however, about President Obama's 
proposal to reduce the itemized deduction rate for families 
with incomes over $250,000. This is a proposal that Congress 
has already rejected last year. And I am particularly concerned 
with the impact this provision could have on the already 
devastated housing market in my congressional district.
    The Mortgage Interest Deduction is an important incentive 
that encourages Americans to buy homes. In fact, some people 
consider the Mortgage Interest Deduction to be the single most 
important tax incentive facilitating home ownership in the 
United States. I am concerned that reducing the value of this 
incentive would lead to the further deterioration of the 
housing market. It is evident that the housing market is 
closely tied to the national economy as a whole.
    The housing market in my congressional district in Southern 
Nevada, previously one of the fastest growing markets in the 
country, is currently in shambles. Today, 70 percent of 
homeowners in Nevada owe more on their homes than the houses 
are worth. We can't afford to let prices drop any further by 
making it less attractive to buy a home in Nevada.
    Last, but certainly not least, I want to applaud the 
President for killing the Yucca Mountain program once and for 
all in his budget request. For years Nevadans have fought 
against this disastrous plan to store nuclear waste in our 
backyard. We are not a dump site. The President's budget 
fulfills a promise he made to Nevadans, and I could not be more 
supportive of his proposal to terminate funding for the Yucca 
Mountain program.
    So I thank you again, Mr. Chairman, for this opportunity to 
express my views about the President's fiscal year 2011 budget 
request, and I look forward to working with you to ensure that 
Congress passes a responsible budget that puts our economy back 
on the right track.
    [The prepared statement of Dina Titus follows:]

  Prepared Statement of Hon. Dina Titus, a Representative in Congress 
                        From the State of Nevada

    Thank you, Chairman Spratt and Ranking Member Ryan, for this 
opportunity to testify about my priorities in the Fiscal Year 2011 
budget resolution. Like all Americans, my constituents in Southern 
Nevada have been struggling. Our State has the highest foreclosure rate 
and the second highest unemployment in the nation, and our state 
legislature just finished a special session where they were forced to 
make another round of cuts to education and other state agencies. If 
there is one thing we can all agree upon, it is that the status quo is 
unacceptable.
    It is clear to me that job creation must be the central focus of 
the 2011 budget resolution. We need to put Americans to work in the 
clean energy sector and other emerging fields so that the United States 
can position itself as a leader in this global economy. It is my strong 
belief that the 2011 budget should incentivize domestic manufacturing 
of clean energy technologies like solar, wind, and geothermal. A focus 
on domestic manufacturing ensures that we don't trade a dependence on 
foreign oil for a reliance on clean energy exports from countries like 
China. Although we have started to see signs of growth in our economy, 
we will not have fully recovered until Americans are back to work.
    I also strongly believe that the budget resolution must work to 
rein in the deficit and restore fiscal responsibility. All across 
Southern Nevada, my constituents are tightening their belts, and they 
expect the United States Congress to do the same. Under the President's 
budget request, we see deficits decline from 10.6 percent of GDP in 
2010 to 3.9 percent in 2014, and non-security discretionary spending is 
frozen for three years. This is a start, but we must do more. We should 
work together in a bipartisan way to reduce the deficit, cut programs 
that don't work, and eventually balance the budget. I urge the 
committee to draft a budget resolution that reduces the deficit even 
further, so that we do not saddle the next generation of Americans with 
unmanageable debt.
    I recognize that we must make difficult choices in order to reduce 
the deficit and improve the economy. For instance, it's time we stop 
funding defense acquisition programs that the Department of Defense 
doesn't want. I remain concerned, however, about President Obama's 
proposal to reduce the itemized deduction rate for families with 
incomes over $250,000--a proposal this Congress rejected last year. I 
am particularly concerned with the impact this provision could have on 
the already devastated housing market in my Congressional District.
    The Mortgage Interest Deduction is an important incentive that 
encourages Americans to buy homes. Some consider the Mortgage Interest 
Deduction to be the single most important tax incentive facilitating 
home ownership in the United States. I am concerned that reducing the 
value of this incentive would lead to the further deterioration of the 
housing market. It is evident that the housing market is closely tied 
to the national economy as a whole. The housing market in my 
Congressional District in Nevada--previously one of the fastest growing 
markets in the nation--is currently in shambles. Today, 70 percent of 
homeowners in Nevada owe more on their homes than they are worth. We 
can't afford to let prices drop any further by making it less 
attractive to buy a home in Southern Nevada.
    Last, but certainly not least, I want to applaud the President for 
killing the Yucca Mountain program once and for all in his budget 
request. For years, Nevadans have fought against this disastrous plan 
to store nuclear waste in our backyard. The President's budget fulfills 
a promise he made to Nevadans and I could not be more supportive of his 
proposal to terminate funding for the Yucca Mountain program.
    Thank you again, Mr. Chairman, for the opportunity to express my 
views about the President's FY 2011 budget request. I look forward to 
working with you to ensure that Congress passes a responsible budget 
that puts our economy back on the right track.

    Mr. McGovern. Thank you very much for your excellent 
testimony, and we certainly will consider all of the issues 
that you raised and we appreciate you being here. Thank you.
    Ms. Titus. Thank you.
    Mr. McGovern. The Budget Committee with stand in a brief 
recess.
    [Recess.]
    Mr. McGovern. The Budget Committee will reconvene. We are 
delighted to welcome the Honorable Bill Owens from New York, 
and we look forward to hearing your testimony.

 STATEMENT OF HON. WILLIAM OWENS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Owens. Chairman Spratt and Ranking Member Ryan, thank 
you for the opportunity to address the committee today, and 
thank you, Mr. Chairman.
    There are several issues specific to my Upstate New York 
district that I would like to bring to your attention.
    I appreciate the difficulties you face in crafting a budget 
this year, and I am grateful for the opportunity to speak on 
behalf of my constituents.
    First, New York's North Country is the proud home of the 
10th Mountain Division at Fort Drum, an installation recently 
named one of the top ten communities for military families in 
the world. The division is the most deployed in the Army. 
Today, two-thirds of the combat teams stationed at Fort Drum 
are fighting in Iraq and Afghanistan. The families of these 
soldiers depend on Congress to provide the services they need 
to endure these frequent deployments. When our soldiers come 
home they deserve to return to installations with sufficient 
funding to support their training and transition to garrison 
life.
    Earlier this year Fort Drum learned that their budget would 
be slashed 30 percent, forcing the base to cut contracts with 
businesses in the community and eliminate services for 
soldiers. The fiscal year 2011 budget includes only a very 
modest increase in these funds over fiscal year 2010 levels, 
and I am concerned this increase does not reflect recent 
adjustments the Army has had to make in base funding by 
shifting $500 million to worldwide base operating funds from 
other operational accounts. Although this shift negated further 
cuts, it has left many military communities uneasy about the 
future.
    Ensuring adequate operational funding for our Army 
installations is critical to easing the burden on both our 
soldiers and the greater communities they reside in. I urge the 
committee to carefully consider the base operation support 
budget for the Army.
    In addition to being home to a major Army installation, the 
23rd district of New York shares an extensive border with 
Canada. To better secure this border, GSA has completed the 
planning phase of a new land port entry in Alexandria Bay, New 
York. Each day this port of entry receives 484 trucks and 
facilitates trade of nearly $19 million worth of cargo.
    Future tenants of the expanded Alexandria Bay facility will 
include many of the agencies that protect our borders from 
terrorists and facilitate the flow of cargo.
    GSA requested $171.5 million to continue the Alexandria Bay 
project in fiscal year 2011, but the President did not include 
the request in his budget.
    Upstate New York began suffering from economic difficulties 
long before the current recession, and its communities rely 
heavily on trade with Canada. Expansion of the Alexandria Bay 
facility is critical to creating jobs and to securing our 
northern border, and I urge you to include funding for this 
project in your fiscal year 2011 budget.
    I think it is important to note that the trade between 
Quebec and New York is over $80 billion a year, and between 
Canada and the United States in excess of $365 billion a year.
    Finally, I urge you to support the President's request for 
a $36 billion increase to the nuclear loan guarantee program. 
There has been a serious effort in my district to utilize this 
program for the construction of a third reactor at the Nine 
Mile Point nuclear power plant in Oswego County, New York. 
Completion of this effort would create 4,000 construction jobs 
and nearly 400 permanent positions at the plant, but funding 
for this project is unavailable due to the relatively small 
pool of funds in the program.
    With the increase requested by the President there is new 
hope for this significant piece of economic development to 
succeed in Central New York. This is exactly the type of 
investment we need replicated across the country to create 
jobs, move our local economies forward, and make clean energy a 
reality for America's future.
    Again, thank you for the opportunity to address the 
committee, and I would be happy to answer any questions.
    [The prepared statement of William Owens follows:]

Prepared Statement of Hon. William Owens, a Representative in Congress 
                       From the State of New York

    Chairman Spratt and Ranking Member Ryan, thank you for the 
opportunity to address the committee today. There are several issues 
specific to my Upstate New York district that I'd like to bring to your 
attention. I appreciate the difficulties you face in crafting a budget 
this year, and I'm grateful for the opportunity to speak on behalf of 
my constituents.
    First, New York's North Country is the proud home of the 10th 
Mountain Division at Fort Drum, an installation recently named one of 
the top ten communities for military families in the world. The 
division is the most deployed in the Army. Today, two-thirds of the 
combat teams stationed at Fort Drum are fighting in Iraq and 
Afghanistan. The families of these soldiers depend on Congress to 
provide the services they need to endure these frequent deployments. 
When our soldiers come home, they deserve to return to installations 
with sufficient funding to support their training and transition to 
garrison life.
    Earlier this year, Fort Drum learned that their budget would be 
slashed 30 percent, forcing the base to cut contracts with businesses 
in the community and eliminate services for soldiers. The FY11 budget 
includes only a very modest increase in these funds over FY10 levels, 
and I'm concerned this increase does not reflect recent adjustments the 
Army has had to make in base funding by shifting $500 million to 
worldwide base operating funds from other operational accounts. 
Although this shift negated further cuts, it has left many military 
communities uneasy about the future. Ensuring adequate operational 
funding for our Army installations is critical to easing the burden on 
both our soldiers and the greater communities they reside in. I urge 
the committee to carefully consider the base operation support budget 
for the Army.
    In addition to being home to a major Army installation, the 23rd 
district of New York shares an extensive border with Canada. To better 
secure this border, GSA has completed the planning phase of a new Land 
Port of Entry in Alexandria Bay, New York. Each day this port of entry 
receives 484 trucks and facilitates trade of nearly $19 million worth 
of cargo. Future tenants of the expanded Alexandria Bay facility will 
include many of the agencies that protect our borders from terrorists 
and facilitate the flow of cargo.
    GSA requested $171.5 million to continue the Alexandria Bay project 
in FY11, but the President did not include the request in his budget. 
Upstate New York began suffering from economic difficulties long before 
the current recession, and its communities rely heavily on trade with 
Canada. Expansion of the Alexandria Bay facility is critical to 
creating jobs and to securing our northern border, and I urge you to 
include funding for this project in your FY11 budget.
    Finally, I urge you to support the President's request for a $36 
billion dollar increase to the nuclear loan guarantee program. There 
has been a serious effort in my district to utilize this program for 
the construction of a third reactor at the Nine Mile Point nuclear 
power plant in Oswego County, New York. Completion of this effort would 
create 4,000 construction jobs and nearly 400 permanent positions at 
the plant.
    But funding for this project is unavailable due to the relatively 
small pool of funds in the program. With the increase requested by the 
President, there is new hope for this significant piece of economic 
development to succeed in Central New York. This is exactly the type of 
investment we need replicated across the country to help create jobs, 
move our local economies forward and make clean energy a reality for 
America's future.
    Again, thank you for the opportunity to address the committee, and 
I'd be happy to answer any questions.

    Mr. McGovern. Thank you very much, Mr. Owens for your 
excellent testimony. You are a valued member of this house and 
we appreciate your words, and you can be assured that we are 
going to carefully consider everything you said.
    Mr. Owens. Thank you very much, Mr. Chairman.
    Mr. McGovern. Thank you very much. The Budget Committee 
will now stand in a brief recess.
    [Recess.]
    Mr. McGovern. The Budget Committee will reconvene, and we 
are delighted to have with us the Honorable Betsy Markey from 
Colorado, and we look forward to your testimony. The floor is 
yours.

 STATEMENT OF HON. BETSY MARKEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Ms. Markey.*. Thank you, Chairman McGovern, thank you for 
allowing me to share my thoughts before the Budget Committee on 
the proposed fiscal year 2011 budget.
    I believe the President's budget makes some positive steps 
toward putting us on a sustainable path, and I am pleased to 
have the opportunity to engage in an open dialogue on the 
programs I support and on cuts that would have a negative 
impact on Colorado's Fourth District.
    I am concerned about the President's elimination of the 
Resource Conservation and Development Program from the budget. 
The RC&D Program provides support to authorized multi-county 
areas in the form of Natural Resource Conservation Service 
staff coordinators and technical advisors. These coordinators 
assist local conservation councils of private and public 
sectors volunteers in developing programs to conserve and 
develop natural resources, and improve economic and 
environmental conditions in rural America.
    The RC&D Program should be promoted, not eliminated because 
it fulfills a vital national goal through coordination of local 
organizations and national agencies.
    Regrettably, the Administration's budget proposal also 
makes significant reductions to clean water programs that are 
vital to many rural communities trying to improve their clean 
and wastewater infrastructure.
    The fiscal year 2011 budget eliminates the Army Corps of 
Engineers water and wastewater treatment project funding, which 
will allow organizations to focus on its core competencies; 
however, that elimination could be catastrophic when combined 
with the large cuts to the EPA's Clean Water State Revolving 
Fund and Drinking Water State Revolving Fund.
    Additionally, the President's budget has terminated all 
vector-borne disease funding through the Centers for Disease 
Control and Prevention. This Fort Collins, Colorado-based 
division will have to contend with other disease research for a 
small portion of the emerging infectious disease budget. The 
loss of a dedicated budget will result in the termination of 
existing research and prevention programs, which include the 
state-coordinated West Nile Surveillance Program and the highly 
successful Dengue Research Program.
    CDC research has helped to detect dengue transmission in 
Florida and discovered the risk posed to blood supplies in 
Puerto Rico. The CDC Vector-Borne division's research saves 
lives in communities throughout the United States and around 
the globe, and I encourage the continued funding of this 
important division at its fiscal year 2010 level.
    The proposed Department of the Interior's Bureau of 
Reclamation Budget includes only $3 million in funding 
desperately needed to at long last complete the Arkansas Valley 
Conduit. This piece of the larger Fryingpan-Arkansas Project 
was first authorized in 1962, but has not received sufficient 
federal support.
    I strongly support more complete funding in the fiscal year 
2011 budget for the completion of this project, about which 
President John Kennedy said, ``This is an investment in the 
future of this country, an investment that will repay large 
dividends. It is an investment in the growth of the West.''
    I applaud President Obama's commitment to the veterans of 
the United States as demonstrated by his increasing the 
Department of Veterans Affairs fiscal year 2011 budget for 
healthcare and compensation. I especially appreciate the 
increased focus on the needs of the growing number of women 
veterans and their unique needs.
    In addition, the investments in the high quality delivery 
of health care and benefits through increased technology usage 
will allow the VA to stay on the leading edge of medical 
service for veterans for years to come.
    The President's proposed education funding reflects one of 
my top priorities, which is making college affordable for all 
students. With three of my own children around college-age, I 
understand how challenging it is for families to balance 
college costs with household necessities. For this reason, I am 
very pleased to see that President Obama has supported making 
permanent the $5,550 Pell Grant maximum award, and I support 
the President's proposal to put the Pell Grant Program on firm 
financial footing. Ensuring access to higher education for 
Americans of all incomes is essential to our Nation's future.
    I am disappointed though to see that the Department of 
Education budget cuts funding for the Reach Out and Read 
program. Reach Out and Read distributes books to children 
through pediatricians' office. In my district alone, Reach Out 
has helped nearly 10,000 children through 27 clinics. I have 
had the privilege to read to children at these clinics and have 
seen firsthand the benefits of this program. Many of these 
children receive new books only when they go for their annual 
checkup. As literacy is an essential building block for 
educational success, I urge the continued funding for Reach Out 
and Read.
    Finally, I support President Obama's goal to increase the 
number of graduate fellowships in science, especially the 
investments in researchers pursuing clean energy careers; 
however, I would also encourage the Administration to invest in 
vocational education and in community college programs in 
renewable energy and energy efficiency.
    We have a unique opportunity at this time to change the way 
we power this country, but we need to invest in training and a 
green workforce to create jobs and deploy new energy 
strategies. The men and women graduating from these 
institutions will be the technicians building wind-turbine 
blades and servicing solar and geothermal installations. We 
need to invest in both innovation and implementation to create 
the clean energy economy of tomorrow.
    To the Members of the Committee, I appreciate the 
opportunity to share my priorities and concerns in the fiscal 
Year 2011 budget. Thank you.
    [The prepared statement of Betsy Markey follows:]

 Prepared Statement of Hon. Betsy Markey, a Representative in Congress 
                       From the State of Colorado

    Chairman Spratt and Ranking Member Ryan, thank you for allowing me 
to share my thoughts before the Budget Committee on the proposed Fiscal 
Year 2011 Budget. I believe that the President's budget takes some 
positive steps toward putting us on a sustainable path, though I know 
that we have many difficult choices ahead. I am pleased to have the 
opportunity to engage in an open dialogue on the programs I support, 
and on cuts that would have a negative impact on the Fourth District of 
Colorado.
    I am concerned about the President's elimination of the Resource 
Conservation and Development Program from the budget. The RC&D Program 
provides support to authorized multi-county areas in the form of 
Natural Resource Conservation Service staff coordinators and technical 
advisors. These coordinators assist local conservation councils of 
private and public sectors volunteers in developing programs to 
conserve and develop natural resources, and improve economic and 
environmental conditions in rural America. The funding provided by this 
program can go a long way in rural areas, such as in Southeast 
Colorado, where the Southeast Colorado RC&D Council has developed 
programs to decrease contaminants in vital area watersheds and to 
implement renewable energy resources in area farms. The RC&D program 
should be promoted, not eliminated because it fulfills vital national 
goals through coordination of local organizations and national 
agencies.
    Regrettably, the Administration's budget proposal also makes 
significant reductions to clean water programs that are vital to many 
rural communities trying to improve their clean and wastewater 
infrastructure. The Fiscal Year 2011 Budget eliminates the Army Corps 
of Engineers water and wastewater treatment project funding, which will 
allow that organization to focus on its core competencies. However, 
that elimination could be catastrophic when combined with the large 
cuts to the Environmental Protection Agency's Clean Water State 
Revolving Fund and Drinking Water State Revolving Fund. With Army 
Engineer projects being eliminated, it is important that these EPA 
funds be protected to allow states to develop and improve their water 
infrastructure.
    Additionally, the President's Budget has terminated all vector-
borne disease funding through the Centers for Disease Control and 
Prevention. This Fort Collins, Colorado-based division will have to 
contend with other disease research for a small portion of the Emerging 
Infectious Disease budget. The loss of a dedicated budget will result 
in the termination of existing research and prevention programs, which 
include the state-coordinated West Nile Surveillance program and the 
highly successful dengue research program. Dengue is a virus that 
threatens more than one-third of the global population and is endemic 
to Puerto Rico, Guam, Samoa, and many areas of Latin America. CDC 
research has helped detect a dengue transmission in Florida and 
discovered the risk posed to blood supplies in Puerto Rico. The CDC 
Vector-Borne division's research saves lives in communities throughout 
the United States and around the globe and I encourage the continued 
funding of this important division at its FY2010 levels.
    The proposed Department of the Interior Bureau of Reclamation 
budget includes only $3 million in funding desperately needed to at 
long last complete the Arkansas Valley Conduit. This piece of the 
larger Fryingpan-Arkansas Project was first authorized in 1962 but has 
not received sufficient federal support. I strongly support more 
complete funding in the Fiscal Year 2011 Budget for the completion of 
this project, about which President John Kennedy said, ``This is an 
investment in the future of this country, an investment that will repay 
large dividends. It is an investment in the growth of the West, in the 
new cities and industries which this project helps make possible.''
    I applaud President Obama's commitment to the Veterans of the 
United States as demonstrated by his increasing the Department of 
Veterans Affairs Fiscal Year 2011 Budget for health care and 
compensation. I especially appreciate the increased focus on the needs 
of the growing number of women veterans and their unique needs. In 
addition, the investments in the high-quality delivery of health care 
and benefits through increased technology usage will allow the VA to 
stay on the leading edge of medical service for veterans for years to 
come.
    The President's proposed education funding reflects one of my top 
priorities, which is making college affordable for all students. With 
three of my own children around college-age, I understand how 
challenging it is for families to balance college costs with household 
necessities. For this reason, I am very pleased to see that President 
Obama has supported making permanent the $5,550 Pell Grant maximum 
award and I support the President's proposal to put the Pell grant 
program on ``firm financial footing.'' Ensuring access to higher 
education for Americans of all income levels is essential to our 
nation's future.
    I am disappointed to see that the Department of Education budget 
cuts funding for the Reach Out and Read program. Reach Out and Reach 
distributes books to children through pediatricians' office. In my 
district alone, Reach Out has helped nearly ten thousand children 
through 27 clinics. I have had the privilege to read to children at 
these clinics and have seen firsthand the benefits of this program. 
Many of these children only receive new books other than when they go 
for their annual checkup. As literacy is an essential building block 
for educational success, I urge the continued funding for Reach Out and 
Reach and commend the program for its past efforts.
    Finally, I support President Obama's goal to increase the number of 
graduate fellowships in science, especially the investments in 
researchers pursuing clean energy careers. However, I would also 
encourage the Administration to invest in vocational education and in 
community college programs in renewable energy and energy efficiency. 
We have a unique opportunity at this time to change the way we power 
this country, but we need to invest in training a green workforce to 
create jobs and deploy new energy strategies. The men and women 
graduating from these institutions will be the technicians building 
wind-turbine blades and servicing solar and geothermal installations. 
We need to invest in both innovation and implementation to create the 
clean energy economy of tomorrow.
    To the members of the committee, I appreciate the opportunity to 
share my priorities and concerns in the Fiscal Year 2011 Budget.

    Mr. McGovern. Well thank you very much, we appreciate you 
being here, you are a valued member of this institution, and we 
will consider all of your suggestions, you have our word on 
that. Thank you.
    Ms. Markey. Thank you very much, Mr. Chairman.
    Mr. McGovern. The Budget Committee will stand in a brief 
recess.
    [Recess.]
    Mr. McGovern. The Budget Committee will reconvene. We are 
honored to have with us the Honorable Gabrielle Giffords of 
Arizona, and we look forward to your testimony, and we welcome 
you to the Budget Committee.

   STATEMENT OF HON. GABRIELLE GIFFORDS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Ms. Giffords. Thank you so much for having me at the Budget 
Committee, Congressman McGovern. I really appreciate also 
Chairman Spratt and Ranking Member Ryan for today's testimony.
    I think it is important today to have the opportunity to 
testify before the House Budget Committee on what I consider to 
be a dangerous deficiency in the funding of our border security 
programs proposed in the President's fiscal year 2011 budget.
    As one of only ten members of Congress in a district that 
represents the U.S. Mexico border I am extremely concerned 
about stemming the flow of illegal immigrants, drugs, guns, and 
money across our southern border. Addressing this problem has 
been one of my top priorities in the United States Congress, in 
fact that is what my constituents sent me here to do.
    The region they represent is the nation's largest and most 
porous sector of the U.S. Mexico border. More drugs are seized 
and more illegal immigrants are apprehended in the Tucson 
sector of the Border Patrol than anywhere else in the United 
States.
    Last week I had an eye opening meeting with the President 
of the Tucson Secretary of Border Patrol Council and his 
executive committee. These dedicated agents told me that in no 
uncertain terms they will be severely hindered in doing their 
job of securing our border if the President's proposed budget 
is actually adopted, and that is why I am here today. We need 
to listen more closely to the men and women who are actually 
serving on the front lines of our border security crisis, not 
the folks here in Washington who are making decisions for them.
    Every day our border patrol agents risk their lives in 
carrying out their mission in some of the harshest working 
conditions in the nation. I believe that they deserve our 
gratitude, they deserve our respect, but they also deserve 
being supported in our Congressional budget.
    We all know that our economy is going through a challenging 
time, but this should not prevent us from giving the border 
patrol agents the critical resources they need to keep our 
communities safe.
    We all know that our budget is a reflection of our 
priorities, and I don't think that any Member of Congress would 
dispute that our most important priority to members is to keep 
our homeland safe and secure.
    Let me tell you a little bit about your southern Arizona 
district. Every day the residents of my district live with the 
harsh reality that the federal government has not done enough, 
even though they talk about border security on a daily basis, 
they actually haven't done enough to keep Southern Arizona's 
borders secure. Senior citizens in Green Valley have voiced 
their concerns for their safety because of the spillover of 
drug violence that is played out in their neighborhoods. We 
have ranchers and farmers in Douglas and Nogales area that are 
forced to contend with the impact of drug smugglers and tens of 
thousands of illegal immigrants every single year that cross 
through their property, their land. And residents of Tucson, my 
hometown, are constantly confronted with the immense toll 
brought by narco-terrorists who smuggle drugs and illegal 
immigrants into the Tucson area across the deserts, and then 
they end up setting up these drug clearinghouses within our 
communities that lead to drug addiction in the areas, home 
invasions, kidnappings, some of the highest in the world in the 
State of Arizona, and increased violence.
    So in a word the situation is completely intolerable. The 
federal government cannot secure the border until we dedicate 
sufficient funding to prevent illegal drugs and immigrants from 
entering the country and force the laws that currently exist 
within our borders.
    My first concern in the President's budget is he has 
proposed to scale back several border security programs that 
have proven to be effective. The border patrol would lose 181 
agents under this proposal. And if this wasn't bad enough, 52 
Air Interdiction agents and 18 Marine Interdiction agents would 
also be eliminated. So this would lead to a total of 251 agents 
who are heavily involved with our nation's interior security. 
Again, a giant step in the wrong direction.
    I am also deeply concerned with the inadequate funding of 
the State Criminal Alien Assistance Program, or SCAAP, in the 
President's fiscal year 2011 budget proposal. In fact, I have 
testified before your committee in the past about the same 
thing under the previous president.
    SCAAP was created to reimburse states and localities for 
the arrest, incarceration, and transportation costs associated 
with illegal immigrants who commit crimes in our communities. 
If you want to know how vital this program is talk to Pima 
County Sheriff, Clarence Dupnik, or Cochise County Sheriff, 
Larry Dever, or Santa Cruz County Sheriff, Tony Estrada. They 
are going to tell you that these funds are a life line for the 
cash strapped law enforcement agencies that are already hard 
hit by the problems along the U.S.-Mexico border.
    Regrettably, the President's budget contains only $330 
million for SCAAP, woefully below the $950 million required to 
fully fund this essential program to our border communities.
    Passing this extraordinary cost burden on to your 
localities and states is simply wrong and it is completely 
unfair. Funding cuts for these critical programs are a real 
safety and security threat for Arizona, as well as all border 
states, but frankly for the entire nation.
    As Members of the Budget Committee you have the authority 
to make decisions that will keep our border secure, and I urge 
you to take bold action to correct these deficiencies.
    I appreciate your time and your attention to this matter, 
it means a lot to my constituents in Southern Arizona, I 
believe it means a lot to the people of this country. Thank 
you.
    [The prepared statement of Gabrielle Giffords follows:]

  Prepared Statement of Hon. Gabrielle Giffords, a Representative in 
                   Congress From the State of Arizona

    Thank you Chairman Spratt and Ranking Member Ryan.
    I really appreciate the opportunity to address the House Budget 
Committee about what I consider to be a dangerous deficiency in the 
funding for border security programs proposed in the President's fiscal 
year 2011 budget.
    As one of only ten members with a district on the U.S.-Mexico 
border, I am extremely concerned about stemming the flow of illegal 
immigrants, drugs, guns and money across our southern border.
    Addressing this problem is one of my top priorities in Congress. 
That's what my constituents sent me here to do.
    The region I represent is the nation's largest and most porous 
sector of the U.S.-Mexico border. More drugs are seized and more 
illegal immigrants are apprehended in the Tucson sector of the Border 
Patrol than anywhere else in the country.
    Last week I had an eye opening meeting with the President of the 
Tucson Sector Border Patrol Council and his Executive Committee.
    These dedicated agents told me in no uncertain terms that they will 
be severely hindered in doing their job of securing the border if 
President Obama's proposed budget is adopted.
    This is why I am here today.
    We need listen to the men and women who are actually serving on the 
front lines of our border security crisis. Not bureaucrats in 
Washington.
    Every day our Border Patrol agents risk their lives in carrying out 
their mission in some of the harshest working conditions in the nation. 
They deserve our respect and gratitude. They deserve being supported in 
our Congressional budget.
    We all know that our economy is going through a challenging time 
but this should not prevent us from giving Border Patrol agents the 
critical resources they need to keep our communities safe.
    This is a matter of priorities and nothing is more important to any 
Member of Congress than the security of our homeland.
    Let me tell you about my southern Arizona district:
    Every day the residents of my district live with the harsh reality 
that the federal government still has not done enough to secure our 
southern border.
    Senior citizens in Green Valley have voiced concerns for their 
safety because of the spillover of drug-fueled violence that is played 
out in their neighborhoods.
    Ranchers near Douglas and Naco are forced to contend with the 
impacts of drug smugglers and tens of thousands of illegal immigrants 
crossing their land.
    And residents of Tucson--my hometown--are constantly confronted 
with the immense toll brought by narco-terriorists who smuggle drugs 
and illegal immigrants across the deserts that surround Arizona's 
second largest city, and set up drug clearing houses within our 
communities which lead to drug addiction, home invasions, kidnappings 
and increased violence.
    In a word, this situation is intolerable.
    The federal government cannot secure the border until we dedicate 
sufficient funding to prevent illegal drugs and immigrants from 
entering the country and enforce the laws within our borders.
    1. My first concern is that the President's budget proposal scales 
back several border security programs that have proven to be effective.
    The Border Patrol would lose 181 agents under this proposal. And if 
this wasn't bad enough, 52 Air Interdiction agents and 18 Marine 
Interdiction agents also would be eliminated.
    This is a total reduction of 251 agents who are heavily involved 
with our nation's interior security. This is a giant step in the wrong 
direction.
    2. I am also deeply concerned with the inadequate funding for the 
State Criminal Alien Assistance Program or SCAAP in the President's 
fiscal year 2011 budget proposal.
    SCAAP was created to reimburse states and localities for the 
arrest, incarceration and transportation costs associated with illegal 
immigrants who commit crimes in our communities.
    If you want to know how vital this program is,
    <bullet> talk to Pima County Sheriff Clarence Dupnik,
    <bullet> talk to Cochise County Sheriff Larry Dever and
    <bullet> talk to Santa Cruz County Sheriff Tony Estrada.
    They will tell you that these funds are a lifeline for their cash 
strapped law enforcement agencies that are hard hit by the crisis on 
our border.
    Regrettably, the President's budget contains only $330 million for 
SCAAP, woefully below the $950 million required to fully fund this 
essential program.
    Passing this extraordinary cost burden to our localities and states 
is simply wrong.
    Funding cuts for these critical programs are a real safety and 
security threat for Arizona as well as all Border States.
    As Members of the Budget Committee you have the authority to make 
decisions that will keep our border secure, and I urge you to take bold 
action to correct these budget deficiencies.
    Thank you for your attention to this important matter to southern 
Arizona and our nation.

    Mr. McGovern. Thank you very much, and we appreciate your 
testimony, you raise some very important issues, and we will 
carefully consider ways that we can help, but thank you so much 
for being before this committee.
    Ms. Giffords. I appreciate it.
    Mr. McGovern. The Budget Committee will stand in brief 
recess.
    [Recess.]
    Mr. McGovern. We are honored to have the Honorable Rush 
Holt of New Jersey, and we look forward to your testimony, and 
the floor is yours. Thank you for being here.

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Mr. Chairman, thank you. Thank you for having me. 
I appreciate the opportunity to testify on the 2011 budget, and 
in particular its investment in science and science education.
    We know that investing in innovation creates jobs, it is 
the engine that drives our country. Economic growth comes from 
new ideas and a smart, well trained workforce. Nothing else, 
that is it.
    Our current economy is the result of investments that our 
country made two or three decades ago, and so I am here to urge 
you, my colleagues, to make the investments that will propel 
our country forward for the next several decades.
    The challenges of the 21st Century require that we think of 
our system of innovation, beginning with basic research and 
ending with the manufacture of goods and services and creation 
of these new things as fundamental to our nation's 
infrastructure.
    In the 20th Century construction of the interstate highway 
system and electrification in rural America were indispensable 
elements of our infrastructure. These investments were 
responsible for extraordinary economic growth in the last 
century, and in this century our nation must invest in new 
types of infrastructure to keep America competitive.
    The increased research investment will create new 
technologies to save energy, new forms of renewable energy, new 
advanced vehicle technologies that will keep our environment 
cleaner and our economy more vibrant.
    The President's budget request recognizes the centrality of 
science and innovation. I don't need to go through the details 
of what is in the budget, you know that, but I strongly urge 
the committee to compliment the research and development under 
function 250 by supporting the President's proposed increase 
for funding for the research, development, demonstration, and 
deployment of energy efficiency, renewable energy, smart grids, 
and advanced vehicle technologies.
    This budget seems to me to reverse years of neglect for 
science and make a significant down payment on the President's 
plan to double basic research funding over the next ten years.
    I support the goal to make permanent the R&D tax credit, 
which is an important instrument.
    In today's tight budget environment I applaud the 
Administration for proposing historic increases in the federal 
government's commitment to science education. I am pleased to 
see $300 million in the Department of Education budget for 
improving teaching and learning in science and math. I am still 
reviewing the proposal, and I hope that they can find ways to 
pay more attention to the training and professional development 
of teachers. Still the dollar amount is good, and so what the 
Budget Committee will be dealing with is certainly on the right 
track.
    These are troubled economic times, I don't need to tell 
anyone here, and science is the ideal investment because it 
provides jobs now, and I don't mean just people in lab coats, I 
am talking about lab techs, I am talking about electricians who 
wire the labs, I am talking about all of the other associated 
jobs that go with it, and the work lays the foundation for 
future economic growth, so science is not simply a luxury to be 
funded in strong economic times. This is a particularly good 
time. It was part of the ARRA, a large and important part, and 
we see that it, as intended, provided jobs in the short term, 
it is providing jobs in the midterm, and if the research pans 
out, as it always does usually in unpredictable ways, jobs for 
the long term as well.
    The report by the Information Technology and Innovation 
Foundation estimated that each additional $1 billion investment 
in research would create approximately 20,000 American jobs per 
year.
    So if I may, I would like to submit for the record a fuller 
testimony, and I would be happy to answer question.
    [The prepared statement of Rush Holt follows:]

 Prepared Statement of Hon. Rush D. Holt, a Representative in Congress 
                      From the State of New Jersey

    Thank you Chairman Spratt, Ranking Member Ryan, and distinguished 
Members of the Budget Committee. I appreciate the opportunity to 
provide testimony on the proposed Fiscal Year 2011 budget and its 
investment in science and science education.
    We know that investing in innovation creates jobs and is the engine 
that drives our economy. We are living off of the investments that our 
country made two or three decades ago. Today, I urge my colleagues to 
make the investments that will propel our country forward for the next 
several decades.
    Indeed, the challenges of the 21st century require that we think of 
our system of innovation, beginning with basic research and ending with 
the manufacture of advanced goods and creation of new services, as 
fundamental to our nation's infrastructure. In the 20th century, 
construction of the interstate highway system and electrification in 
rural America were indispensible elements of our infrastructure. These 
investments were responsible for extraordinary economic growth in the 
last century. This century, our nation must invest in a new type of 
infrastructure to keep America competitive in a global economy.
               important increases in president's request
    I am pleased President Obama's budget request recognizes the 
centrality of science and innovation for our future prosperity.
    The President's budget requests $31.4 billion for budget function 
250, which summarizes our investment in basic research, which is a 1.4 
percent increase over last year. Recognizing that this budget function 
does not capture all research spending, the President estimates that 
$61.6 billion of his budget is for non-defense research, which is a 5.6 
percent increase. These investments in basic science include $7.4 
billion for NSF, $5.1 billion for the DOE Office of Science, and $920 
million for the National Institute of Standards and Technology (NIST) 
laboratories. I am pleased that this budget would reverse years of 
neglect for science and make a significant down-payment on the 
President's plan to double basic research funding for these agencies 
over the next 10 years. I urge you to make this necessary investment in 
innovation.
    I also support the budget request in its goal to make permanent the 
R&D tax credit. This tax credit has been successful, returning $2 in 
private research investment for every dollar spent. As important as the 
R&D tax credit has been, it has never been a permanent part of the tax 
code and is expired currently. While Congress has extended the credit, 
making the R&D tax credit permanent will strengthen the incentive for 
businesses to invest in long-term research, because corporate leaders 
will know their research investments will be rewarded year after year. 
This would create jobs now, give businesses the confidence to expand 
their research operations, and encourage companies to further invest in 
innovation.
                         education and training
    In today's tight budget environment, I applaud the Obama 
Administration for proposing historic increases in the federal 
government's commitment to science education. I was pleased to see $300 
million in the Department of Education budget for improving teaching 
and learning in science and math. While I am still reviewing the 
proposed initiative to replace the Mathematics and Science Partnerships 
program, we must recognize that great teachers are made, not born. I 
feel strongly that any new program must continue to support 
professional development activities for science and math teachers as 
they seek to improve their craft. In addition, any new program must 
ensure that professional development programs are widely available 
across the country, not just to a few schools that compete successfully 
because they are already top notch.
    Improving our children's abilities in science and math is critical 
for our economy, our national security, and our democracy. Everyone, 
from scientist to teacher to parent to businessperson, should be 
concerned with how well we educate our children in these areas.
      research creates jobs and lays the groundwork for the future
    In these troubled economic times, science is the ideal investment 
because it provides jobs now while laying the foundation for our future 
economic growth. Science is not simply a luxury to be funded during 
strong economic times. A report by the Information Technology and 
Innovation Foundation estimated that each additional $1 billion 
investment in research would create approximately 20,000 American jobs 
a year. This investment would provide jobs not just to scientists but 
even more to research students, electricians who wire the labs, lab 
technicians who run the instrumentation, construction workers who will 
renovate the buildings, and many more.
    I look forward to working with the Congress to make this necessary 
investment for our economy and creating jobs for American workers.

    Mr. McGovern. Without objection. Well thank you very much, 
we appreciate you being here, you have raised some important 
issues, and I agree with you that investments in science not 
only have an immediate payoff in terms of job creation, but 
also a long term impact, and I think what you have said today I 
think will resonate with this committee, and we appreciate you 
being here.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. McGovern. Thank you. Right now we will turn to the 
Honorable Tom Perriello of Virginia. We welcome you to the 
Committee and you may proceed.

 STATEMENT OF HON. THOMAS S.P. PERRIELLO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Perriello. Thank you very much Mr. Chair and all the 
members of the committee.
    We are embarking on our constitutional duty, and I think as 
we do so we can keep two principals in mind. One, wherever 
possible we need to focus on investments rather than 
expenditures, things that give us a return on that investment 
in both a public and financial sense.
    Second, we need to think in terms of rebuilding America's 
competitive advantage. While we are on our way out of one of 
the worst recessions of the last century, we also must realize 
this isn't as simple as getting back to where we were a couple 
of years ago.
    For many in the working and middle class of this country we 
have seen our purchasing power disappear, we have seen jobs go 
overseas, and we must take this opportunity to take a look more 
broadly at the incentives we are sending in our system and 
whether we are rewarding innovation as opposed to bailing out 
failure, and whether we are rebuilding a competitive advantage 
so that this is an area where every business in the world wants 
to locate.
    In order to do so we need to make investments in several 
years. One in infrastructure, a second is education in 
workforce development.
    On the infrastructure side we must have a budget that 
begins to fill the enormous gap of the last 30 years in 
addressing our infrastructure. Sometimes that is the highway 
and bridges that people see, sometimes it is rail, and that 
must include both passenger and freight. These things increase 
significantly the efficiencies of our companies in our economy, 
increase safety, and increase quality of life so that people 
can spend more time with their families. But it also is the 
next generation of technology, including smart technology, 
broad band access, and other issues. And as we pursue this we 
need to make sure these technologies are not only available to 
those in areas of high population density such as our urban and 
suburban cores, but also those areas of lower population 
density like our rural communities and small towns.
    In addition, we must look at the issue of education in 
workforce development. We must focus on the issue of earlier 
childhood development, understanding that we have already 
betrayed the promise of the American dream to so many children 
before they show up in kindergarten to begin their education. 
We must make sure that we are helping every child born in this 
country to reach their full potential as human beings.
    We must also understand while we continue to fight hard to 
make a college education accessible to all Americans who want 
it, but we must also treat with equal dignity those American 
youth who decide they do not want to go to college but want to 
learn a trade, learn skills, enter the workforce and maybe 
someday own their own business, understanding that the 
strongest path from poverty in the middle class in this country 
is still to learn a trade and become the small business owner.
    In this way we must not only be preparing using our middle 
and high school years to prepare kids for college, we must be 
preparing them for the 21st century workforce they are walking 
into.
    We must take a broad and aggressive view of what it means 
to train and develop that workforce using our public schools, 
using our community college system, vocational and skill 
training programs, and having those fully integrated.
    We also must take this same mentality of investment over 
expenditure when we look at our foreign policy, understanding 
that the cheapest wars are the wars we never have to fight in 
the first place because of investments we have made in our 
diplomatic and intelligence core.
    We must understand as we move forward in the 21st century 
that with the threat of non-state actors and state actors alike 
we must make unprecedented investments in the kind of 
intelligence and diplomacy efforts that will help us not only 
prevent wars, but when such time comes that such wars are 
necessary we have given our troops all of the information they 
need to fight as efficiently and effectively as possible.
    We also must understand why we look for good reason at the 
sectors of the next economy, such as high-tech, biomed and 
other areas, that we don't forget the enormous role that 
forestry and agriculture still play in the country. This is 
still one of the areas that we out compete the rest of the 
world, and as we head into the 21st century we must make sure 
that we are helping those sectors to out compete again in the 
decades ahead.
    A big portion of this will involve investments in the new 
energy economy. The new energy economy offers the chance not 
only to reduce the huge electric bills that our farmers pay, 
but take them off of the grid all together. That is what true 
independence looks like, that is what the new economy looks 
like, but we don't get from here to there with speeches, we get 
there with investment and with innovation.
    We need to think of this as a moment for us to take leaps 
of technology. Computers that once took up an entire warehouse 
now fit into the palm of our hands. The digesters that can help 
convert cow manure or poultry waste into the energy of the 
future will not occur immediately, they will occur by us 
investing in the path breaking technology to get there.
    So whether it is smart technology or high speed rail, 
whether it is old school highways or whether it is 
intelligence, I hope this budget will continue to emphasize 
rewarding innovation instead of bailing out failure, and 
understanding we must rebuild America's competitive advantage.
    Thank you for your time.
    [The prepared statement of Tom Perriello follows:]

 Prepared Statement of Hon. Thomas S.P. Perriello, a Representative in 
                  Congress From the State of Virginia

    Chair Spratt, Ranking member Ryan, and respected members of the 
committee, thank you for today's opportunity for all members of the 
House of Representatives to have their voices heard on this year's 
budget resolution. A year ago, this Congress acted boldly to pass the 
American Recovery and Reinvestment Act to stem the economic crisis and 
put Americans back to work. Although much has been done, there is still 
work to in investing in America, creating jobs, and boosting the 
economy. Investments in transportation infrastructure provide some of 
the highest benefits per dollar in putting people back to work and 
creating economic growth.
    However, as the American people enter 2010, we continue to face a 
severe economic crisis. Although our efforts toward recovery have 
produced meaningful and tangible results, our families, businesses, and 
communities continue to suffer from high unemployment, lost savings, 
and tightened budgets. In Virginia's 5th district, unemployment is at 
the highest in the state, with rates reaching as high as 20% in 
Martinsville. With these challenges in mind, I thank the House Budget 
Committee for your commitment to job creation and economic growth in 
the Fiscal Year 2011 budget.
    There are many areas of infrastructure that have been underfunded 
and neglected for too long. Highways and bridges are in need of repair. 
Public transit services and jobs are being cut across the nation. 
Improving public transportation not only creates the immediate direct 
benefit of employing workers, but a multitude of indirect benefits 
through the benefits of mobility provided to all Americans. Better 
transportation makes it easier for laid off and unemployed workers to 
find jobs without the need to move, saving them an expensive upfront 
cost of new employment.
    I recognize that in light of the limits of these grim economic 
times, we must carefully prioritize the programs that will receive 
strong investments in the next fiscal year; however, I feel that it is 
of highest importance that we continue to support efforts that will 
continue to promote recovery. With that in mind, I ask that this 
commitment to jobs be bolstered by a serious effort to shore up our 
nation's crumbling infrastructure. As a member of the Transportation 
and Infrastructure Committee, I am especially committed to supporting 
transportation projects, which are vital to job protection and 
creation. Investing in transportation is particularly beneficial to 
those who have been hit hardest by the recession, including low-wage 
workers and workers without college degrees.
    By adequately funding these programs we will continue the critical 
work begun by Congress last year. We must seize this opportunity both 
to put Americans back to work as soon as possible and to lay the 
foundation for our future. The surest way forward for Virginia's 5th 
district and for our nation is to make sure our citizens can obtain and 
keep jobs that help them support their families.

    Mr. McGovern. And thank you very much for your thoughtful 
testimony, and we appreciate your contribution to this 
Congress, and you can be assured that every member of the 
committee will carefully consider what you have said here 
today. Thank you.
    Mr. Perriello. Thank you.
    Mr. McGovern. It is now my pleasure to welcome the 
Honorable Carolyn McCarthy from New York, and the floor is 
yours. I should say we have seven minutes and 44 seconds left.

    STATEMENT OF HON. CAROLYN McCARTHY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. McCarthy. I will make it quick. I want to thank the 
Chairman for allowing me to testify in front of this Committee.
    Going back in January of 2008 we were able to pass 
unanimously here in the House and in the Senate H.R. 2640. This 
is the bill that would basically be helping our states be able 
to upgrade their computer systems, for people that should be 
able to buy guns and people that shouldn't be able to buy guns, 
and I think that is an important piece.
    Millions of criminal records are currently missing from the 
databases that make up NICS due to funding restrictions and 
technology use, which is not at the level it should be.
    With that being said, we have seen unfortunately many 
horrific crimes in the last several years on people that have 
bought guns that shouldn't have been able to buy them, Virginia 
Tech being one, a shooting in my own district going back a 
number of years ago, and then last year in a Baptist church.
    What we are looking for today is to continue to put the 
money forth. I know the money is very tight in the budget right 
now, and I know everybody is under restraint, but if you look 
at how much money we can actually save on life and certainly 
injuries from those that are doing these shootings we could 
save a lot more money on the end.
    Unfortunately we are seeing every day that more and more 
people are slipping through the NICS system. The NICS system 
does work, but a program is only as good as the information 
that they have in it.
    So I am hoping that the budget will see clear that the NICS 
Improvement Act of 2007 corrects the primary flaw of the 
thousands of individuals precluded from purchasing firearms 
from doing so. These numbers prove that NICS works well and 
will continue to work; however, since NICS is only as good as 
the information as I said, it is estimated that almost than 40 
million records are missing from the various databases that 
make up NICS.
    By providing this funding we will move one step closer to 
bringing the records of millions of barred individuals into 
NICS. That certainly makes it safer for all Americans. This 
does nothing against anyone's ownership as far as guns, just 
saying that you have to go through the NICS systems, and those 
that have been adjudicated not to be able to buy a gun have to 
be into those systems.
    So I ask certainly the Budget Committee to see their way as 
much as they possibly can for $375 million in the fiscal year 
2011 of the budget resolution under the Department of Justice 
to order to fully fund the NICS Improvement Act, and I thank 
you for your time.
    [The prepared statement of Carolyn McCarthy follows:]

   Prepared Statement of Hon. Carolyn McCarthy, a Representative in 
                  Congress From the State of New York

    Thank you Chairman Spratt, Ranking Member Ryan, and Members of the 
Budget Committee.
    I appreciate your allowing me to testify today in support of 
including necessary funding in the Fiscal Year 2011 Budget Resolution 
under the Department of Justice to implement H.R. 2640, the NICS 
Improvement Amendments Act of 2007, Public Law Number 110-180.
    H.R. 2640 was signed into law on January 8, 2008, after having 
passed both the House and Senate unanimously.
    I know the budget is especially tight this year, Mr. Chairman, but 
fully funding this program is so important because currently the 
National Instant Criminal Background Check System, or NICS, is deeply 
flawed.
    NICS is a national database system that flags individuals precluded 
under current law from purchasing and possessing firearms.
    MILLIONS of criminal records are currently missing from the 
databases that make up NICS due to funding restrictions and technology 
issues at the state level.
    Many states have not automated individuals' records concerning 
mental illness, restraining orders, or misdemeanor convictions for 
domestic violence.
    Simply put, NICS must be updated on the state level so that it can 
properly function on the federal level.
    The shooting that occurred last year at First Baptist Church in 
Merryville Illinois and sadly occurs in communities around the country, 
reminds me of a similar shooting that took place in my district at Our 
Lady of Peace Church in Lynbrook NY in 2002.
    Peter Troy purchased a twenty-two caliber semi-automatic rifle. He 
had a history of mental health problems and his own mother had a 
restraining order against him as a result of his violent background.
    Four days later, Mr. Troy walked into Our Lady of Peace Church in 
Lynbrook New York and opened fire, killing the Reverend and a 
parishioner.
    It was illegal for him to purchase a gun, but for many reasons he 
was able to slip through the NICS system.
    The breakdown in the system is further underscored by the 
circumstances surrounding the shootings that took place at Virginia 
Tech in April of 2007
    The shooter in the Virginia Tech massacre was also prohibited from 
legally purchasing a firearm.
    Unfortunately, flaws in the NICS system allowed his record to slip 
through the cracks and he was able to purchase two handguns, and used 
them to brutally murder THIRTY TWO individuals.
    He passed a Brady background check because NICS did not have the 
necessary information.
    Sadly, this same scenario, continues to happen every day.
    The NICS Improvement Amendments Act requires all states to provide 
NICS with the relevant records needed to conduct effective background 
checks.
    It is the state's responsibility to ensure this information is 
current and accurate. They must update their records to ensure violent 
criminals do not have access to firearms. And then, they must share the 
information with NICS.
    However, I recognize many state budgets are already overburdened.
    This law distributes grants to states to update their records and 
provide those records to NICS.
    States will receive the funds they need to make sure relevant 
records are up-to-date.
    While NICS has flaws, the NICS Improvement Amendments Act of 2007 
corrects the primary flaw and will prevent thousands of individuals 
precluded from purchasing firearms from doing so.
    Approximately NINE-HUNDRED AND SIXTEEN THOUSAND individuals were 
precluded from purchasing a firearm for failing a background check 
between November 30, 1998, when NICS began operating, and December 31, 
2004.
    During this same period, nearly FORTY NINE MILLION Brady background 
checks were processed through NICS.
    These numbers prove that NICS works and will continue to work. 
However, since NICS is only as good as the information it contains, we 
must ensure that NICS has the most up-to-date records to stop 
criminals, those adjudicated as mentally ill, and those under a 
restraining order from purchasing firearms.
    It has been estimated that more than 40 million records are missing 
from the various databases that make up NICS.
    By providing this funding, we will move one step closer to bringing 
the records of millions of barred individuals into NICS.
    This law imposes no new restrictions on gun owners and does not 
infringe on the 2nd Amendment rights of law-abiding citizens. It simply 
makes improvements to a program that saves lives.
    I respectfully request that you include $375 million in the Fiscal 
Year 2011 Budget Resolution under the Department of Justice in order to 
fully fund the NICS Improvement Amendments Act of 2007.
    Thank you for your time and I would be happy to answer any 
questions you may have.

    Mr. McGovern. Well thank you very much, and I certainly 
agree with you and I hope that the rest of my colleagues do, 
but I appreciate you being here. Thank you.
    Ms. McCarthy. Thank you.
    Mr. McGovern. Mr. Green. We are happy now to welcome the 
Honorable Gene Green from Texas. Thank you for being here.

STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and I know we just have 
a few minutes before votes, and I would like to ask unanimous 
consent to place my full statement in the record.
    Mr. McGovern. Without objection.
    Mr. Green. But also insert in the record a letter that 19 
Democrats sent to Chairman Spratt concerning the energy taxes 
increases in the President's budget.
    I want to thank you for allowing me to present my views on 
the 2011 budget resolution. The committee is faced with many 
difficult choices as it crafts this year's budget.
    Energy provisions particularly are a concern because the 
President's budget includes several tax increases aimed at 
America's natural gas and oil industry. Without increasing 
supply from our vast North American natural gas resources, or 
we make it more expensive and difficult to produce natural gas 
domestically, it will actually hinder our ability to meet our 
potential climate change goals while also increasing the 
natural gas prices for American consumers and business. Any 
climate change policy will inevitably rely on clean natural 
gas, which emits half the carbon dioxide emissions of coal, as 
a short-term bridge fuel while our economy transforms to lower-
carbon energy standards.
    Ninety percent of the oil wells drilled within America are 
by independent producers. They produce 82 percent of American 
natural gas and 68 percent of American oil. The average 
independent producer has 12 employees. The definition of a true 
small business, and that is why these taxes would hit those 
definitely small business, and we need them producing.
    The second issue, Mr. Chairman, is the NASA budget proposal 
under the President's act. I have concerns about the 
President's proposal to cancel NASA's Constellation Program, 
which includes the Orion Crew Capsule, Altair Lunar Lander, and 
the Ares I and Ares V rockets. These programs, which together 
comprise our human spaceflight program, were authorized in both 
2005 and 2008 by Republican and Democratic Congresses, 
respectively.
    It is under the Constellation Program that NASA is 
currently developing new launch vehicles and spacecraft travel 
to the moon, Mars and other destinations.
    Not only does canceling the Constellation Program 
jeopardize America's leadership role in human space 
exploration, but it will have detrimental effects on our 
economy.
    And I know not in my district, but in a neighboring 
district, the Johnson Space Center in Houston has the lead to 
manage the Constellation Program and several of its major 
elements. Without Constellation, the Johnson Space Center would 
lose anywhere from 4,000 to 7,000 high-tech jobs. And these are 
4,000 direct jobs and an additional 2,315 indirect. Loss of the 
income and expenditures could be as high as $567 million.
    With the loss of these direct jobs these scientists and 
researchers will go somewhere else, and there are other 
countries in the world who would like to eclipse us in our 
effort in NASA both for the science, but also in the effort to 
learn about our own planet.
    Given our current economic downturn the possibility of 
losing these jobs in our area, plus in other parts of the 
country from NASA installation, it just doesn't fit in to what 
we are trying to do, expand our economy particularly with high-
tech.
    And with that, Mr. Chairman, I appreciate the ability to 
put my whole statement in the record.
    [The prepared statement of Gene Green follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        From the State of Texas

    Chairman Spratt, Ranking Member Ryan and Members of the Committee:
    I am pleased to be here today to provide my views on the Fiscal 
Year 2011 Budget Resolution.
    This committee is faced with many difficult choices as it crafts 
this year's congressional budget.
    Democrats and Republicans must work together to produce a budget 
that simultaneously helps meet our economic, health care, energy, and 
social challenges.
                           energy provisions
    Unfortunately, the President's budget again includes several tax 
increases aimed at America's natural gas and oil industry.
    Without increasing supply from our vast North American natural gas 
resources, or if we make it more expensive or difficult to produce 
natural gas domestically, it will actually hinder our ability to meet 
any potential climate change goals while also increasing natural gas 
prices for American consumers and business.
    Any climate change policy will inevitably rely on clean natural 
gas--which emits half the carbon dioxide emissions of coal--as a short-
term ``bridge'' fuel while our economy transforms to lower-carbon 
energy sources.
    Natural gas is also required to make energy-efficient products, 
make wind turbine blades and solar panels, provide back-up power for 
intermittent renewable energy sources, and to run biomass facilities.
    Most importantly, now is not the time to weaken economic 
opportunities in our domestic energy industry with punitive tax hikes.
    America's independent producers are responsible for 90% of the 
wells drilled in America, and they produce 82% of American natural gas 
and 68% of American oil.
    The average independent producer company has 12 employees--the 
definition of a true small business. Increasing costs on the energy 
industry and on U.S. companies operating abroad will jeopardize these 
small business jobs, export production overseas, and increase our 
reliance on foreign sources of energy.
                                  nasa
    Additionally, Mr. Chairman, I have concerns about the 
Administration's proposal to cancel NASA's Constellation Program, which 
includes the Orion Crew Capsule, the Altair Lunar Lander, and the Ares 
I and Ares V rockets.
    These programs, which together comprise our human spaceflight 
program, were authorized in both 2005 and 2008 by Republican and 
Democratic Congresses respectively.
    It is under the Constellation program, that NASA is currently 
developing new launch vehicles and spacecraft capable of travel to the 
moon, Mars and other destinations.
    Not only does cancelling the Constellation Program jeopardize 
America's leadership role in human space exploration, but it will have 
detrimental effects on our economy.
    Take, for example, the Johnson Space Center in Houston, Texas. The 
Johnson Space Center has the lead to manage the Constellation Program 
and several of its major elements, including the Orion Crew Exploration 
Vehicle and the Altair Lunar Lander.
    Without Constellation, the Johnson Space Center could lose anywhere 
from 4,000 to 7,000 high-tech jobs.
    If the JSC loses 4,000 direct jobs, an additional 2,315 indirect 
jobs would be lost, totaling 6,315; loss of income and expenditures 
locally would be over $567 million.
    If the JSC loses 7,000 direct jobs, an additional 4,052 indirect 
jobs would be lost, totaling 11,052; loss of income and expenditures 
locally would total almost $1 billion.
    Additionally, the aerospace industry would lose as many as 20,000--
30,000 jobs nationally in either of these scenarios.
    Given our current economic downturn, we cannot take the possibility 
of these job losses lightly and the Johnson Space Center is just one 
example of what the cancellation of this program would do to other NASA 
centers nationally.
    Finally, it will take years for the commercial spaceflight industry 
to get up to speed to reach the level of competence that exists at NASA 
today.
    Our government has already invested literally years and billions of 
dollars into this program. We should build upon these investments and 
not abandon them.
    Our country can support the commercial spaceflight industry, but 
not at the expense of our human spaceflight program, which for years 
has inspired future generations and driven technology that enhances our 
quality of life.
    That is why it is my hope, Mr. Chairman, this Committee and this 
Congress will continue to support NASA's Constellation Program and to 
support balanced energy policies that promote economic growth and will 
help us meet our clean energy goals.
    Thank you.

    [Additional submission of Mr. Green follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McGovern. Without objection. We appreciate your 
excellent remarks, and we certainly will consider all of your 
suggestions. Thank you for being here.
    Mr. Green. Thank you.
    Mr. McGovern. The Budget Committee will now stand in a 
short recess.
    [Recess.]
    Ms. Kaptur [presiding]. The hearing will come back to 
order. We want to welcome the members. This is a member day for 
testimony, and we apologize for keeping you waiting a few 
moments, and we would like to begin with our esteemed colleague 
from the State of California, Congresswoman Lynn Woolsey.

 STATEMENT OF HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Woolsey. Thank you, Madam Chairwoman. Thank you for 
allowing me to testify today. I appreciate the hard work of 
this Committee, and I look forward to working with the 
Committee to develop a fiscal year 2011 budget that addresses 
the immense challenges facing our country.
    Madam Chairwoman, the Congressional Progressive Caucus 
supports creating jobs and investing in our economy by reducing 
wasteful Cold War spending, by getting our troops safely home 
from Iraq and Afghanistan, by cutting waste, fraud, and abuse, 
and offering a robust public option in the health reform bill.
    Like you, the CPC is very concerned about the state of the 
economy, and our approach is to cut wasteful defense spending 
so that we refocus the budget so that it is in line with the 
values of our nation's working families.
    The CPC budget, meaning the Congressional Progressive 
Caucus budget, reinvests in the middle class with aggressive 
job creation programs and support for projects so we will get 
America moving again toward a prosperous and secure future.
    To accomplish this goal, Madam Chairwoman, the CPC budget 
cuts defense spending in three ways. First by safely 
redeploying our troops from Iraq and Afghanistan, next reducing 
our nuclear weapons arsenal, and thirdly removing funding for 
outdated Cold War-era weapon systems. The United States doesn't 
just lead the world in defense spending; we almost outspend the 
rest of the world combined. That is right, a full 43 percent of 
the world's defense spending comes from the United States, and 
the U.S. alone, and when you add in what our NATO allies spend 
we are well over 50 percent.
    Our annual defense budget dwarfs that of our biggest 
rivals. We spend four times as much as China, and eight times 
as much as Russia. The President himself has said, Madam 
Chairwoman, that we need to reform our defense budget so that 
we are not paying for Cold War-era weapons systems that we 
don't use. And I couldn't agree more.
    For the past several years the Progressive Caucus has 
introduced an alternative budget that does just that. We can 
see immediate savings by eliminating over $60 billion in 
unneeded spending at the Pentagon, much of which is spent on 
systems like the V-22 Osprey and the Virginia Class Submarine, 
which were built to fight the next generation of Soviet 
weapons.
    Madam Chairwoman, we are building weapons to beat weapons 
that have never even been built. We can save $15 billion a year 
by reducing the number of nuclear warheads in our arsenal from 
10,000 to 1,000, which is still more than we will ever need, 
and more than enough to blow up the world many times over.
    Missile Defense has never been proven and just doesn't make 
sense in facing our current military challenges. We can save 
another $8 billion by drastically scaling back the Ballistic 
Missile Defense System. The Cold War has been over, Madam 
Chairwoman, for almost twenty years, it is time these weapons 
programs are ended.
    Current events and modern warfare have passed these weapons 
by. It is time that the DoD take stock with a critical eye and 
spend money only on what it needs, not on what it wants.
    Along with scrapping these weapons, we can achieve a 
massive reduction in the Pentagon's budget by ending the 
occupations of Iraq and Afghanistan. By bringing our troops 
safely home now and not increasing our military presence we can 
save $159 billion next year.
    The initial invasion of Iraq made no sense, most of us 
agree to that, and with the current financial problems we are 
facing it makes even less sense. We have already spent over 
$700 billion in Iraq, and the cost is estimated to be $3 
trillion in the end even if we act now.
    In Afghanistan we have spent more than $250 billion, and 
the date for redeployment keeps getting pushed back with more 
and more men and women in uniform being put in harm's way and 
killed at record rates.
    Madam Chairwoman, I thank this Committee for the language 
included in previous budgets that instructs the GAO to continue 
to search to find fiscal waste, fraud, and abuse at the 
Pentagon, and I look forward to continuing to work on this 
issue with the committee.
    We must get defense spending under control if we are going 
turn our economy around. So please consider making the 
aforementioned defense spending cuts a part of the Democratic 
budget for the fiscal year 2011.
    I thank you again for allowing me to come before your 
committee to express my views, and I look forward to any 
questions you or our colleagues may have.
    [The prepared statement of Lynn Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    Chairman Spratt, Ranking Member Ryan, and Members of the Budget 
Committee, thank you for allowing me to testify today. I appreciate 
your hard work, and look forward to working with you to develop a 
Fiscal Year 2011 budget that addresses the immense challenges facing 
our country.
    Mr. Chairman, the Congressional Progressive Caucus (CPC) supports 
creating jobs and investing in our economy by reducing wasteful Cold 
War spending, getting our troops safely home from Iraq and Afghanistan, 
cutting waste, fraud, and abuse, and offering a robust public option in 
the health reform bill.
    Like you, the CPC is very concerned about the state of the economy, 
and our approach is to cut wasteful defense spending refocusing the 
budget so that it's in line with the values of our nation's working 
families.
    The CPC budget reinvests in the middle class with aggressive job 
creation programs and support for projects that will get America moving 
again toward a prosperous and secure future.
    To accomplish this goal, the CPC budget cuts defense spending in 
three ways: by redeploying our troops from Iraq and Afghanistan, 
reducing our nuclear weapons arsenal, and removing funding for outdated 
Cold War-era weapons systems.
    The United States doesn't just lead the world in defense spending; 
we almost outspend the rest of the world combined.
    That's right, a full 43% of the world's defense spending comes from 
the U.S., and the U.S. alone, and, when you add in what our NATO allies 
spend, we are well over 50%.
    Our annual defense budget dwarfs that of our biggest rivals * * * 
we spend four times as much as China, and eight times as much as 
Russia.
    The President himself has said that we need to ``reform our defense 
budget so that we're not paying for Cold War-era weapons systems we 
don't use.''
    And I couldn't agree more. For the past several years, the 
Progressive Caucus has introduced an alternative budget that does just 
that.
    We can see immediate savings by eliminating over $60 billion in 
unneeded spending at the Pentagon, much of which is spent on systems 
like the V-22 Osprey and the Virginia Class Submarine, which were built 
to fight the next generation of Soviet weapons. Mr. Chairman, we're 
building weapons to beat weapons that have never even been built.
    We can save $15 billion a year by reducing the number of nuclear 
warheads in our arsenal from 10,000 to 1,000 * * * which is still more 
than we'll ever need, and, more than enough fire power to blow up the 
world many times over.
    Missile Defense has never been proven and just doesn't make sense 
in facing our current military challenges. We can save another $8 
billion by drastically scaling back the Ballistic Missile Defense 
System (BMDS).
    The Cold War has been over for almost twenty years, it's time these 
weapons programs are ended. Current events and modern warfare have 
passed these weapons by. It's time that the DoD take stock with a 
critical eye and spend money on only what it needs, not what it wants.
    Along with scrapping these weapons, we can achieve a massive 
reduction in the Pentagon's budget by ending the occupations of Iraq 
and Afghanistan. By bringing our troops safely home now and not 
increasing our military presence, we can save $159 billion next year 
alone.
    The initial invasion of Iraq made no sense, and with the current 
financial problems we are facing it makes even less sense. We've 
already spent over $700 billion in Iraq, and the cost is estimated to 
be $3 trillion even if we act now.
    In Afghanistan, we've spent more than $250 billion and the date for 
redeployment keeps getting pushed back with more and more men and women 
in uniform being put in harm's way and killed at record rates.
    Mr. Chairman, I thank this committee for the language included in 
previous budgets, instructing the GAO to continue its search to find 
fiscal waste, fraud, and abuse at the Pentagon, and I look forward to 
continuing to work on this issue with the Committee.
    Mr. Chairman, we must get defense spending under control if we are 
going turn our economy around. Please consider making the 
aforementioned defense spending cuts a part of your budget for Fiscal 
Year 2011. Thank you again for allowing me to come before your 
committee to express my views. I look forward to any questions you or 
our colleagues may have.
    It's time to reinvest in our nation's security and prosperity and 
reject cold war thinking. I ask that you support this common sense 
approach.

    Ms. Kaptur. Thank you very much Congresswoman Woolsey, and 
thank you for your superb work on your own subcommittee, but 
also as a co-chair of the Congressional Progressive Caucus. You 
make a really valuable and vital contribution to our 
deliberations, and we will take in the committee heed of your 
words and attempt to shape a budget that is balanced. Thank you 
so very much.
    Ms. Woolsey. Thank you.
    Ms. Kaptur. We would like to hear now from Congressman John 
Mica of Florida. Welcome.

 STATEMENT OF HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mica. Well thank you so much and appreciate the 
opportunity to appear before the Budget Committee. And I was 
thinking I don't think I have come before the Budget Committee 
well in more than a decade. Usually if I have some 
recommendation we submit it, but I thought it was incumbent as 
the Ranking Member of the Transportation and Infrastructure 
Committee to express my concern about a budget proposal which I 
think needs the attention of this committee and the attention 
of Congress, and I would to submit a longer statement if I may 
for the record.
    Ms. Kaptur. Without objection your entire statement will be 
included in the record. For some reason, Congressman, we don't 
have a statement in the record currently, and so we thank you.
    Mr. Mica. Okay, well we will provide you that, then I have 
a statement--actually a statement by Congressman Elijah 
Cummings who is Chairman of the Coast Guard and Maritime 
Subcommittee, and I would like that and also myself and Mr. 
LoBiondo as Ranking Member of the full committee on the Coast 
Guard Subcommittee, we have a letter to Mr. Obey, the 
Appropriations Committee, if we could either reference those or 
put them in the record I would be grateful.
    Ms. Kaptur. Without objection they will be placed in the 
record.
    Mr. Mica. And if I might I would just take a minute or two 
and summarize my concerns today. One of our six subcommittee 
areas and areas of jurisdiction, even though we split some 
jurisdiction with Homeland Security, is the United States Coast 
Guard. These incredible men and women are our first line of 
domestic defense, national security, and maritime safety.
    The Obama Administration proposed cutting almost 1,100 
positions from the Coast Guard. In addition to that, they are 
proposing cutting some assets which we think are extremely 
important.
    One of the assets are five domestic helicopters that are 
used, and those helicopters actually, although the five they 
are talking about are used domestically outside of Florida, 
would result in two net decrease in Florida's patrolling for 
drugs, illegal immigrants, and guarding our coastline which is 
an important responsibility.
    And then I just got some horrible news just a few minutes 
ago from the staff director of our Coast Guard Subcommittee, 
that one of the five helicopters that they were scheduling to 
decommission crashed. We don't know if there is a loss of life. 
They are survivors, but these assets are extremely important 
and we lost one of them just within hours of my presentation 
here.
    But this is not the time to be cutting those assets, and 
this is not a bipartisan statement, Mr. Cummings' statement 
which I ask to be part of the record, and I think every 
Democrat when they came before us, the Administration, to 
account for the budget just in the last few days they all spoke 
unanimously for restoration of some of the proposed cuts.
    And again, you have the Republican side of the aisle, and 
Mr. Oberstar, our Chairman, also asked me at a hearing a few 
hours ago to relay his concern and support for restoration.
    So there are the five helicopters, 1,100 positions, and 
almost a quarter of a billion dollars will be taken from 
customs and border protection funds in the proposal, so we 
think that that is not wise.
    Now, I didn't come just to tell you to add money without 
having a positive solution. The budget does include a provision 
for expanding TSA bureaucracy by 4,500 positions bringing the 
total number of TSA employees to well over 60,000.
    Now you are looking at the individual who was primarily 
responsible for the creation of TSA working in a bipartisan 
fashion after 9/11. We never intended an agency that started 
out with 16,500 screeners to get to this number, nor did we 
intend for the bureaucracy now. The latest figures that I have 
are there are 8,700 administrative staff in TSA across the 
country and over 3,000 administrative staff, and all of these 
making on average over $100,000 in just Washington, D.C.
    So I would strongly recommend that we do not have to deploy 
these additional folks, that there could be some efficiency, 
and our committee would work with the Budget Committee and the 
Committees of Jurisdiction and Appropriations to ensure that we 
have better utilization of funds in the Transportation Security 
Administration and not cut the positions in the Coast Guard.
    So that is a positive alternative that we would ask you to 
look at in the appropriate committees of jurisdiction.
    So those are two of my major concerns. I know you have very 
important responsibilities and difficult choices at a time when 
our nation is facing fiscal constraints and huge deficits, but 
on a positive note we hope that this can be looked at and we 
can work with you.
    Mr. Cummings, Mr. Lobiondo, I know myself and others have 
all pledged to do whatever it takes to try to find the 
resources to at least keep the coast guard whole. Thank you.
    [The prepared statement of John L. Mica follows:]

 Prepared Statement of Hon. John L. Mica, a Representative in Congress 
                       From the State of Florida

    Mr. Chairman, protection of the nation's borders, ports and 
waterways could be severely undermined by funding cuts to the Coast 
Guard and Customs and Border Protection proposed by the Obama 
Administration.
    The Administration is gutting some of our frontline defenses 
against terrorism by cutting over 1,000 positions from the Coast Guard 
and Customs and Border Protection. The Administration proposes to cut 
funding needed to secure our borders within the Customs and Border 
Protection by more $225 million.
    At the same time, the Administration proposal expands the bloated 
bureaucracy of the Transportation Security Administration (TSA) by 
another 4,500 employees bringing the total number of TSA employees to 
more than 60,000.
    The American people expect the federal government to live within 
its means, but this is not a simple question of cutting the federal 
budget. We cannot compromise on our capability to ensure the safety and 
security of our ports and borders in favor of more bureaucracy.
    TSA's growth is out of control with more than 3,000 administrative 
staff in Washington with average annual salaries of over $100,000, and 
another 8,700 administrative and management staff across the country. 
Instead of shortchanging border and port security, we could save money 
by cutting excessive administrative positions at TSA by 25 percent.
    We can further save money at TSA by eliminating the redundant and 
enormously wasteful practice of rescreening all international 
passengers arriving for domestic flights at the almost 100 domestic 
airports with direct international service. I believe TSA could make 
much better use of its personnel and resources, not to mention 
providing better security for passengers, by ensuring that passenger 
screening conducted at international departure airports is equivalent 
to that conducted in the United States. This would free up thousands of 
security screeners to be used in a more efficient and effective manner.
    TSA also maintains that each new Advance Imaging Technology (AIT) 
station requires 3 FTEs per shift and there may be 2 or 3 shifts per 
day. Increasing the number of AITs to 1800 will cost more than an 
additional $2 billion dollars.
    Without an Administrator for the past year, TSA desperately needs 
leadership and redirection of its resources. I cannot believe that TSA 
needs so many new positions to man new airport screening equipment 
while the Coast Guard starves.
    We cannot justify cutting resources to protect our borders and 
ports while growing the top-heavy, inefficient bureaucracy at TSA.
    I urge you to provide sufficient budget authority to restore the 
cuts proposed for the Coast Guard. Specifically,
    <bullet> Restore $ 5.5 million for the 5 H-65 helicopters the 
budget proposes to eliminate. The service has spent considerable time 
and money modernizing and re-engineering the H-65 fleet, and sidelining 
these crucial assets is a mistake. Laying up these aircraft will reduce 
U.S. anti-drug surveillance in the transit zone used by those smuggling 
drugs and migrants in the Caribbean and the waters around my home state 
of Florida. The loss of the helicopters would also reduce the Coast 
Guard's hard-won ability to board suspected terrorist vessels at sea.
    <bullet> Provide $108 million to fund long lead funding for 
National Security Cutter (NSC) # 6. The budget includes funds to build 
NSC #5, but without long lead funding for materials the shipyard cannot 
continue the seamless production of the next cutter in the planned 
series of 8 vessels.
    <bullet> Provide $18.2 million to maintain all 12 Maritime Safety 
and Security Teams (MSSTs). MSSTs patrol our harbors daily, and provide 
the front line defense against terrorist attacks. These teams deter and 
respond to terrorist activities in and around U.S. ports and provide 
additional response capability for natural disasters and maritime 
accidents The terrorists in New York harbor won't wait as the Coast 
guard repositions assets from Boston.
    <bullet> Restore funds for port, waterway and coastal security 
proposed to be cut by more than $100 million.
    I also urge you to include budget authority for Coast Guard 
programs directly to the Coast Guard budget. The Administration 
requests funds as part of the Navy and National Science Foundation 
(NSF) budgets that are intended to be transferred at a later date to 
the Coast Guard to cover Coast Guard operations. Those funds should be 
provided directly to the Coast Guard. The NSF funds are for polar 
icebreaking activities, and the Navy funds for overseas operation in 
support of the Department of Defense.
    It is said, ``Eternal vigilance in the price of freedom.'' We must 
provide our first responders with the tools they need to remain 
vigilant and keep us free.

    [Additional submissions of Mr. Mica follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you so very much for your testimony. You 
are ranking on that subcommittee, are you not?
    Mr. Mica. I am ranking on the full committee.
    Ms. Kaptur. As well as on the full committee?
    Mr. Mica. Well, Mr. Oberstar and I sit on all six 
subcommittees, and I have six very competent ranking members on 
that committee, but again, this isn't a partisan issue, this is 
something the whole committee agrees on, including the 
subcommittees.
    Ms. Kaptur. Well I wanted the record to note, Congressman 
Mica, the importance of your position on that committee.
    Mr. Mica. Thank you, thank you.
    Ms. Kaptur. And for you to take time to come here today and 
both you and Congresswoman Woolsey have made proposals, but you 
have also provided suggestions for offsets and we greatly 
appreciate that, and we appreciate the time you have given 
today.
    Mr. Mica. Thank you.
    Ms. Kaptur. And all of those materials will be placed in 
the record, and believe me, will be shared with our colleagues 
as well as the staff.
    Mr. Mica. Thank you.
    Ms. Kaptur. Thank you so have much. And now we would like 
to turn to Congresswoman Laura Richardson from California.

    STATEMENT OF HON. LAURA RICHARDSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Richardson. Chair Kaptur, Chairman Spratt, Ranking 
Member Ryan, and members of the committee, before I begin my 
comments let me also associate myself with our Ranking Member 
Mica in his comments about the Coast Guard. I serve on that 
committee as well, and I am in full agreement and attest to the 
bipartisan effort that he brought it in.
    Thank you for convening this hearing and allowing me and 
our colleagues the opportunity to share with the committee our 
budgetary priorities for fiscal year 2011.
    I ask for my entire statement to be included in the record 
of this hearing.
    Ms. Kaptur. Without objection it will be included.
    Ms. Richardson. Thank you. I represent the hardworking and 
hard pressed men and women, children, and businesses of the 
37th Congressional District who are going through the toughest 
economic times in recent memory. The unemployment rate in 
California still hovers around 12 percent, but in some areas of 
my district, such as Compton, it is closer to 20 percent.
    The foreclosure rate for California is 1 in 185, which is 
twice the national average which is 1 in 405. And in my 
district in Carson, the foreclosure rate is 4 times that, 1 in 
96.
    In a light of those thoughts is why I come to you, it is 
our budgetary response to these four greatest challenges that I 
approach you today; creating jobs, stemming foreclosures, 
aiding state and local governments, and strengthening the 
safety net that I wish to discuss with you.
    Number one, priority for jobs for Americans. I applaud the 
President's inclusion in the jobs package for fiscal year 2011 
of the 100 billion to fund it; however, I think we need to do 
more for young people, seniors, and small businesses that have 
been particularly hit.
    One of the things I tried to show some leadership on with 
older Americans. The President is suggesting that we would 
increase from full year 2009 the Senior Community Service 
Employment Program. Increase it to $825 million.
    I would support this of being a minimum of $700 million 
over the next five years.
    The next area would be jobs for recent college graduates. 
We are finding many college grads, even though they have done 
what their parents asked them to do, which was to go to school 
and get an education, they are finding out that they cannot 
compete in the workforce. And so I support the President's 
efforts of $33 billion to encourage small businesses to hire 
new employees at a $5,000 new hire tax credit, I would only 
suggest that we would increase that by another $2,500 if a 
small business hires a recent college grad.
    The third area would be in help for small businesses. I 
support the President's request to permanently eliminate the 
capital gains taxation on small businesses which is a cost of 
$8.1 billion and for $17.5 billion in the SBA Section 7(a) loan 
guarantees to provide small businesses with access to credit 
needed to expand and create jobs.
    The second area is investment in transportation and 
infrastructure. When it comes to creating jobs there is no more 
effective way, and we found this in our own stimulus, despite 
us fighting for more money in transportation and 
infrastructure, we have found that for the small amount that 
was received it has generated the greatest amounts of jobs. 
When you consider for every dollar that is invested in 
infrastructure at least $1.63 is reflected and generated in 
economic activity.
    We must pass the Surface Transportation Reauthorization 
Bill and provide funding for projects critical to our national 
greatness.
    Some of those problems are in my district, the Gerald 
Desmond Bridge located in Long Beach, California that carries 
ten percent of our entire nation's cargo. And I will repeat 
that, ten percent of our entire nation's cargo.
    We are fortunate in California, we are seeing a move 
towards high speed rail, but more needs to be done.
    The other area of infrastructure would fall under housing. 
The need for housing and redevelopment assistance is great in 
my district and in my state and across the nation.
    So with that I would support Community Development Block 
Grants, the Neighborhood Stabilization Fund, that we would do 
above and beyond the $4.84 billion that the President 
requested.
    And then in the last section of transportation and 
infrastructure talking about aid to state and local 
governments, I strongly support President Obama's budget 
request of $266 billion for temporary provisions to speed 
economic recovery. I urge that a larger portion of this funding 
be used to extend the Recovery Act's State Fiscal Stabilization 
Fund.
    The State Fiscal Stabilization Fund has saved about $2.1 
million that otherwise would have been lost. This funding is 
vital, it is an effective program, and it should be increased 
for fiscal year 2011.
    The next area I wanted to mention was Native Americans. I 
find that perhaps nowhere in America are we seeing some of the 
greatest challenges than the unemployment within the Native 
American community. An average unemployment rate of 22 percent, 
huge disparities in healthcare, education, housing, and crime.
    I therefore am pleased that the President's budget requests 
$2.7 billion in total budget authority for fiscal year 2011. I 
am also pleased that it includes a focus for Indian Affairs on 
their core programs and services vital to Indian Country.
    I have spent most of my time now talking about what I 
support in the budget, now I would like to tell you what I 
don't support.
    In terms of Homeland Security, I am the Chair of the 
Homeland Security Emergency Preparedness and Communications, 
and Response Subcommittee. In addition, my district is home to 
many high value terrorist targets, such as the Port of Long 
Beach, I have over six refineries and so on.
    I am deeply troubled by the proposed cut of $77.5 million. 
That is nearly 50 percent in funding for international cargo 
screening. That is a complete slap in the face to the 
objectives and the goals of the 9/11 Act of achieving 100 
percent cargo screening by 2012.
    I am concerned about the steps that have been brought 
forward and I think they should be resoundingly rejected.
    I am also concerned about the proposed cuts of $200 million 
in funding for Staffing for Adequate Fire and Emergency 
Response Program and Assistance to the Firefighter Grant 
Program that will severely limit the ability of local fire 
departments to remain ready and first respond.
    Also you should consider additional funding for Fire 
Station Construction Grant Program. Many of us in our districts 
have old fire stations and they are not gender equal, and those 
are serious things that need to be changed in our fire 
stations.
    Finally, as I close, a budget is a record of our 
expenditures, our outlays, and revenue receipts, but it is more 
than that, it is an expression of our cherished values and a 
contract between generations.
    I thank you for your time.
    [The prepared statement of Laura Richardson follows:]

   Prepared Statement of Hon. Laura Richardson, a Representative in 
                 Congress From the State of California

    Chairman Spratt, Ranking Member Ryan, and Members of the House 
Budget Committee: Thank you for convening this hearing and allowing me 
and our colleagues the opportunity to share with the Committee our 
budgetary priorities for Fiscal Year 2011. I ask that my entire 
statement be included in the record of this hearing.
    Coming as we do from all regions of the country and both sides of 
the aisle, the testimony you hear today is a fair reflection of the 
collective hopes and dreams of the American people. This Committee has 
the daunting task of crafting a budget resolution that expresses the 
values and reflects the character of our country.
    I am here to speak for the people I represent, the hard-working and 
hard pressed men, women, children, and businesses of the 37th 
Congressional District of California.
    Mr. Chairman, my state and my district have experienced, and still 
are going through, the toughest economic times in recent memory. The 
unemployment rate in California still hovers around 12 percent but in 
some areas of my district, like Compton, it is closer to 20 percent. 
The foreclosure rate for California (1/185) is more than twice the 
national average (1/405). In the City of Carson, also in my district, 
the foreclosure rate is 4 times the national average (1/96).
    Across the country, in every state and local government, we observe 
a familiar pattern: rising unemployment and job loss leads to increased 
foreclosure rates, which in turn result in decreased revenues for state 
and local governments, who resort to cutting essential social and 
public services to balance their budgets which exacerbates the economic 
hardships on our hard-pressed families.
    It is the budgetary response to these four great challenges--
creating jobs, stemming foreclosures, aiding state and local 
governments, and strengthening the safety net--that I wish to discuss 
with the Committee today.
                 number #1 priority: jobs for americans
    That is why creating jobs--good paying jobs with benefits to 
sustain families--must be our central objective.
    I applaud the President for including a ``jobs package'' in the 
FY2011 budget and for requesting $100 billion to fund it, but I believe 
that given the scale of the challenge, at least triple that amount 
($300 billion) is required.
    The current economic downturn has been particularly hard on young 
people, seniors, and small business.
Older Americans
    When older Americans, those 50 and older, lose their jobs, they 
remain unemployed for much longer periods than younger counterparts. 
Many get discouraged and leave the labor market altogether. If they are 
fortunate enough to secure a replacement full-time job, invariably the 
pay is less, the hours are fewer, and the benefits are minimal or non-
existent.
    One way to provide targeted and immediate relief for jobless older 
Americans is to fully fund the Senior Community Service Employment 
Program. I applaud the President for providing $825 million for this 
program in FY2010, up from $500 million in FY09. I strongly urge that 
funding for this vital program be maintained at not less than $700 
million for the next five years. And I will soon introduce legislation 
that will make this program more accessible by lowering age and income 
eligibility requirements.
Jobs for Recent College Graduates
    According to a recent report by the Project on Student Debt, recent 
college graduates carry an average of $23,200 in student loan debt. 
Combined with an unemployment rate of nearly 11 percent, more and more 
young people are returning home to live with their parents instead of 
striking out to make their mark in the world. They need jobs, not an 
allowance from Mom and Dad, who are struggling financially themselves.
    The President's recent proposal to provide a $33 billion proposal 
to encourage small businesses to hire new employees by giving them a 
$5,000-per-new-hire tax credit is a step in the right direction but I 
believe we can and should do more. I will soon be introducing 
legislation to establish a program called ``America RISING,'' which 
stands for:

  ``America Realizing the Informational Skills and Initiative of New 
                              Graduates''

    Under this program funding would be provided to establish and pay 
the salary for two years of a cadre of recent college graduates to be 
deployed to work with small or disadvantaged business enterprises or 
major corporations which have operations located in enterprise zones or 
in areas where the local unemployment rate exceeds the national average 
by more than two percentage points.
    The benefits of such a program are two-fold. First, it provides 
jobs for young persons with marketable skills. Second, it will provide 
a much needed infusion of human capital and technological expertise 
that will enable small businesses to become more competitive.
Help for Small Business
    As a member who spent 14 years working in the business world before 
coming to Congress, I understand that small business is the backbone of 
our economy. The 26.8 million small businesses in the United States 
represent more than 99.7 percent of all employers, employ just over 
half of all private sector employees, and generated 64 percent of the 
net new jobs created since 1995.
    Clearly, if we are to grow our way out of this economic mess, small 
business is going to help lead the way. I therefore support the 
President's request to permanently eliminate capital gains taxation on 
small businesses (cost: $8.1 billion) and for $17.5 billion in SBA 
Section 7(a) loan guarantees to provide small businesses with access to 
the credit needed to expand and create new jobs.
    As a New Democrat and a former business owner, I am a strong 
proponent of fiscal responsibility and deficit reduction. However, in 
light of the present crisis, I believe that providing expanded access 
to credit for small business is so critical that I support using a 
portion of the remaining TARP funding for this purpose. We have already 
helped companies deemed ``too big to fail.'' Now it is time to provide 
help for small business so that they do not remain ``too small to 
succeed.''
            investment in transportation and infrastructure
    When it comes to creating jobs, there is no more effective means 
than investing in infrastructure. It has been demonstrated time and 
again that for every dollar invested in infrastructure, at least $1.63 
is economic activity is generated.
    Our most recent example of effective investment in infrastructure 
is the Recovery Act, which thus far has created nearly one million jobs 
over the first year of investment while at the same time improving the 
lives of virtually every American who can enjoy the roads, bridges, and 
transit systems that were built or improved through this funding.
    I come from the district that embodies the nation's transportation 
needs, with the largest ports in the country, three airports, major 
freight rail lines, and 40% of the nation's goods moving along our 
rails and four major interstate highways. And as a member of the 
Transportation & Infrastructure Committee I understand how sound 
transportation and infrastructure investments will make our nation 
globally competitive and enhance the quality of life in our 
communities.
    The President's budget requests a 2% increase in infrastructure 
funding. This amount is too paltry to permit us to do anything but 
tread water when we need to be heavily investing in our nation's 
infrastructure and moving forward.
    Congress must act boldly and decisively. We must pass a surface 
transportation reauthorization bill and provide funding for projects 
critical to national greatness. One such project is the Gerald Desmond 
Bridge located in Long Beach, California. The Desmond Bridge may not be 
as famous or glamorous as the Golden Gate or the Verrazano, but it 
carries a larger percentage of the nation's cargo--10 percent--than any 
other bridge.
    That is why it is so shocking and short-sighted that we have not 
rebuilt this 40 year-old bridge, which is now reduced to wearing a 
``diaper'' to catch the concrete and debris that falls daily from its 
underside. It is imperative that programs such as the Projects of 
National Significance and the Freight Improvement Program receive ample 
funding so essential projects like the rebuilding the Desmond Bridge 
can be completed.
    Our infrastructure needs were also on clear display last week when 
we learned that over $60 billion of projects applied for $1.5 billion 
of TIGER grant funding. Put another way: for every dollar provided, $40 
of need went unmet, including every project in my district, one of the 
most infrastructure-intensive in the nation.
    When it comes to transportation funding, we must be forward-
thinking and pro-active to position our country to compete and win in 
the global economy. Nowhere is this more important than in the area of 
high-speed rail. As the founding co-chair of the California High-Speed 
Rail Caucus, I applaud the President for requesting $1 billion for rail 
in the budget since this is more than is typically provided. I also 
appreciate very much the $2.25 billion grant for high-speed rail 
development California received under the Recovery Act.
    But a larger commitment is needed. It will cost about $40 billion 
to bring high-speed rail to California. But with it will come a 
revolution in travel and a model for the rest of the country. The 
benefits include a cleaner and quieter environment, reduced traffic 
congestion, and 450,000 new jobs in California to build the line. High-
speed rail is the wave of the future and we must make a real commitment 
to it to remain competitive. After all, China is spending an estimated 
$100 billion annually to construct its national high-speed rail 
network. This nation simply cannot afford to fall behind its leading 
economic competitor in the 21st century.
                                housing
    The needed for housing and redevelopment assistance is great in my 
district, my state, and across the nation. California trails only 
Nevada in the rate of housing foreclosures, and is projected to lose 
1.9 million homes to foreclosure projections between 2009 and 2012. 
Therefore, it is imperative that we substantially increase funding for 
foreclosure relief programs such as the Community Development Block 
Grants (CDBG) and the Neighborhood Stabilization Fund (NSF) above the 
$4.84 billion requested in the President's budget.
    I do not support the President's decision to request a reduction in 
funding for the Section 202 Housing for the Elderly program and the 
Section 811 Housing for Persons with Disabilities Program, which funds 
the new construction of housing for those groups. Our seniors and the 
disabled are among the most vulnerable populations in society and we 
cannot neglect their housing needs.
                   aid to state and local governments
    I strongly support President Obama's budget request of $266 billion 
for temporary provisions to speed economic recovery and urge that a 
larger portion of this funding be used to extend the Recovery Act's 
State Fiscal Stabilization Fund. This fund helps states maintain 
education and other services such as public safety and law enforcement 
during the recession.
    With tax revenue still declining as a result of the recession and 
budget reserves largely drained, the vast majority of states have made 
spending cuts that hurt families and reduce necessary services. These 
cuts, in turn, have deepened states' economic problems because families 
and businesses have less to spend.
    At least 45 states and the District of Columbia have enacted severe 
cuts in all major areas of state services, including health care (29 
states), services to the elderly and disabled (24 states and the 
District of Columbia), K-12 education (29 states and the District of 
Columbia), and higher education (39 states).
    In California, for example, the Governor has proposed the following 
cuts in services:
    <bullet> additional deep reductions to Medi-Cal (Medicaid) 
services, including increased co-payments and reduced eligibility for 
immigrants;
    <bullet> a $1.5 billion reduction in K-12 and community college 
funding in 2010-11;
    <bullet> a 5 percent to 10 percent cut to state employee salaries;
    <bullet> a reduction in Supplemental Security Income/State 
Supplementary Program (SSI/SSP) grants by $15 per month;
    <bullet> the elimination of the state's CalWorks (TANF) program and 
a number of other human service programs; and
    <bullet> the elimination of funding to respond to enrollment growth 
in the state's public universities.
    State Fiscal Stabilization Fund dollars provided by the Recovery 
Act Federal help to reduce the extent, severity, and economic impact of 
these cuts. And they have saved about 2.1 million jobs that otherwise 
would have been lost. Funding for this vital and proven effective 
program should be increased for FY2011 because the budget pressures 
facing state and local governments have not abated and, in fact, are 
increasing.
                           homeland security
    I am the Chair of the Homeland Security Emergency Preparations, 
Communications, and Response Subcommittee. In addition, my district is 
home to many high-value terrorist targets, such as the Port of Long 
Beach. I am therefore, deeply troubled by the proposed cut of $77.5 
million (nearly 50 percent!) in funding for international cargo 
screening. This decrease reflects an emphasis on remote screening of 
freight instead of physical inspection. The 9/11 Act established the 
goal of 100 percent cargo screening by 2010; the proposed budget cut 
will not bring a closer to achieving this national objective.
    I am also concerned about the proposed cut of $200 million in 
funding for the Staffing for Adequate Fire and Emergency Response 
(SAFER) Program and the Assistance to Firefighter Grant (AFG) Program. 
I oppose these reductions because they will severely limit the ability 
of local fire departments to meet community needs and maintain the 
readiness of local first responders during all types of emergencies.
    I also strongly believe that we should substantially increase 
funding for the Fire Station Construction Grant Program so cities like 
Compton in my district can have the resources needed to protect the 
local citizenry and to assist in the protection of a vital national 
asset like the Alameda Corridor which splits the city down the middle 
while it transports the nation's cargo to and from the Ports of Long 
Beach and Los Angeles.
    Finally, I would also like to stress the importance of full funding 
for the State and Regional Preparedness Program, which provides grants 
to fund programs such as the Citizens Corp and Interoperable Emergency 
Communications Grants. A recent GAO report stated that only about half 
of American households had disaster supplies in their home and a 
household emergency plan. Clearly there is more that must be done to 
get our people in an optimal state of readiness. Thus, I cannot support 
the proposed request to decrease preparedness funding by 13.33% or 
$313.7 million.
                            native americans
    Perhaps nowhere is the need more urgent need than in Indian 
Country, which is grappling with an average unemployment rate of 22 
percent, which is higher than any state. Addressing the disparities in 
health care, education, housing, and crime in Indian Country also 
remains a challenge. I therefore am pleased that the President's budget 
requests $2.7 billion in total budget authority for FY2011. I am also 
pleased that the FY2011 request for Indian Affairs focuses on core 
programs and services that are vital to Indian country such as the $19 
million to reduce crime and an additional $29.9 million is included to 
strengthen Indian Affairs' commitment to tribal self-determination 
under the Advancing Nation to Nation Relationships initiative.
                               education
    Nothing is more crucial to our nation's long-term future than an 
educated citizenry. That is why I am pleased that the president's 
budget increases discretionary funding for the Department of Education 
(ED) by $3 billion, $49.6 billion up from $46-7 billion in FY2011.
    My education priorities are as follows:
    <bullet> Title I. Increase by $2.5 billion to ensure that 
disadvantaged students can receive all the services necessary to 
succeed.
    <bullet> Improving Teacher Quality State Grants. Increase by $230 
million to be used to for a variety of purposes, including reducing 
class size.
    <bullet> 21st Century Community Learning Centers (Afterschool). 
Increase by $220 million, from $1.13 billion to $1.35 billion to serve 
one million more children, as outlined in the President's education 
plan.
    <bullet> Career and Technical Education State Grants. In increase 
by $280 million, from $1.16 billion to $1.44 billion.
    <bullet> Enhancing Education Through Technology (EETT)--Maintain 
FY2009 funding level of $700 million to modernize the classroom and 
instruction, and to bring innovation to our education system.
    <bullet> IDEA Special Education. In increase by $2.9 billion to 
keep the program on track toward full funding.
                         international affairs
    Finally, I wish to briefly address the Function 150--International 
Affairs budget and say that I strongly support the President's request 
for $58.5 billion, an increase of $6.1 billion or 11.6% over total FY10 
spending.
    Although America's domestic needs are great, it is in our interest 
and consistent with our tradition and character to be engaged in the 
world. Whether it is providing diplomatic, development, peacekeeping, 
security, and humanitarian assistance, or combating human trafficking 
and modern day slavery, American leadership and involvement is 
indispensable.
    The $58 billion requested for the International Affairs budget is 
to be sure a lot of money. But to put it in perspective:
    <bullet> The entire International Affairs Budget is just 1.4% of 
the total FY 2011 Budget.
    <bullet> The International Affairs Budget represents only 6.7% of 
the budget for security agencies, which includes defense, intelligence, 
homeland security, and veterans appropriations.
    <bullet> Even at this level of funding, the International Affairs 
Budget represents only 0.36% of GDP.
    I recently returned from the Winter Meeting of the Inter-
Parliamentary Union in Vienna, which I attended as part of the Helsinki 
Commission Congressional Delegation chaired by Congressman Hastings and 
Senator Cardin of Maryland. While there the members of the delegation 
met with our European counterparts to discuss many of the most pressing 
global issues of the day, including piracy in the Gulf of Aden and 
modern day slavery. We were all impressed by the importance our 
counterparts placed on the importance of American engagement to the 
success international engagement and collective action, and its 
capacity to promote and foster democratic values, sustainable 
development, and human rights.
    The amount we spend on the International Affairs budget to maintain 
that leadership, less than 2 cents on the dollar, is a bargain and one 
of the best investments we can make.
                               conclusion
    In conclusion, let me say that while a budget is a record of 
expenditures, outlays, and revenue receipts, it is much more than that. 
It is an expression of our most cherished values, a reflection our 
character, and the fulfillment of the social contract among 
generations, tying the present to the past and future. In a budget we 
commit ourselves to the actions needed to keep faith with our 
obligation to our forefathers and to generations unborn to do all we 
can to make this a more perfect union. It is in that spirit that I have 
suggested the priorities outlined above.
    Thank you for listening.

    Ms. Kaptur. Thank you very much Congresswoman Richardson. I 
know it took extra effort to prepare such an excellent 
submission, and we thank you very much for coming over to the 
committee today and entering all these proposals as part of the 
official documents that we will use as we move toward a budget 
for 2011. Thank you so very much.
    We would now like to welcome Congressman Gary Peters from 
the State of Michigan, from the Livonia area if I remember 
correctly? Am I getting close?
    Mr. Peters. You are getting close. Oakland County. Oakland 
County, Michigan.
    Ms. Kaptur. Oakland County. Sorry, there we go. All right, 
Oakland County. Welcome very much Congressman Peters, you can 
proceed.

  STATEMENT OF HON. GARY PETERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Peters. Well thank you, Madam Kaptur, and I would like 
to thank Chairman Spratt and Ranking Member Ryan and other 
members of the Budget Committee for an opportunity to testify 
here today.
    While I believe that the Recovery Act and other measures 
were necessary to prevent the economic downturn of 2008 from 
escalating into another Great Depression, we must now confront 
a growing problem that could prevent us from being able to 
respond to a future crisis, economic or otherwise, and that is 
our budget deficit and growing national debt.
    I believe that fiscal restraint should not be a partisan 
issue, and that we must work together to find every opportunity 
to slash spending and forge a path towards a balanced budget 
and a shrinking national debt.
    While the need to control spending and reign in budget 
deficits is undeniably urgent, the reality remains that far too 
many of our friends, family, and neighbors are still looking 
for work. Any new investments should focus squarely on job 
creation, and be paid for through cuts to outdated or wasteful 
programs.
    Investments that particularly target our manufacturing 
sector will be especially critical, as a healthy manufacturing 
base is necessary to ensuring the security and prosperity of 
the American middle class and vital to our overall economic 
recovery.
    I was pleased to see the President is proposing a $5 
million increase for the Manufacturing Extension Partnership. 
The Manufacturing Extension Partnership is a national program 
credited with creating and retaining over 55,000 jobs per year 
in the manufacturing industry, delivering $1.44 billion in cost 
savings annually, and a $10.5 billion increased or retained 
sales in one year.
    Additionally, I am heartened to see the Administration's 
focus on boosting exports to help fuel economic growth of 
manufacturers and our economy as a whole. The 20 percent 
increase in the budget for the Commerce Department's 
International Trade Administration will help promote exports 
from small businesses, eliminate barriers to sales of U.S. 
products, and improve the competitiveness of U.S. firms.
    The budget also makes important investments in the Export-
Import Bank to expand U.S. small businesses use of the Bank's 
financial export assistance.
    I am also pleased the Administration has provided for an 
increase in advanced vehicle technologies. The President 
requested 325 million for the Advanced Vehicle Technologies 
Program. It represents a $13 million increase over fiscal year 
2010 funding.
    The State of Michigan, the domestic auto manufacturers, and 
many other companies in the state and across the country are 
investing heavily in new technologies that will help renew our 
manufacturing sector and auto industry, and I am pleased that 
the determination is beginning to be matched at the federal 
level to achieve the technological change being demanded.
    As our economy continues to recover we must ensure all 
Americans will have the opportunity to pursue newly created 
jobs. And I believe the high price of child care is a 
significant roadblock to employment. This is why I have 
introduced legislation last year that would increase the 
Dependent Care Tax Credit, thereby making child care more 
affordable for millions of American families.
    I am encouraged that the President has proposed expanding 
the Dependant Care Tax Credit, which would increase tax relief 
for child care from $1,200 to $2,100 for middle-class families.
    However, while I believe smart investments in targeted 
areas can be part of a responsible budget strategy, we need to 
go beyond the reductions in the President's budget and make 
larger cuts in certain areas.
    For example, the President's budget includes increases in 
the Weatherization and Intergovernmental Activities Program. 
The Weatherization Assistance Program was funded in the 
Recovery Act, but progress has been unexpectedly slow due to 
delays in establishing prevailing wage rates for cities to 
perform the work. Michigan had only completed weatherization of 
1.15 percent of its planned units as of the program's one year 
anniversary. Given this fact, I question if an additional $90 
million is really needed to support administrative costs at the 
federal Weatherization office.
    There is also over $7 billion in funding in the Recovery 
Act for deployment of broadband technology through the 
Department of Agriculture's Rural Utilities Service and the 
Department of Commerce's National Telecommunications 
Information Administration. While these agencies will be 
distributing millions in broadband funding in the coming year, 
the fiscal year 2011 budget adds $418 million for new loans and 
grants for rural communities. Before spending almost half of a 
billion in new broadband funding, I believe that we should 
complete distribution of funding under the Recovery Act and 
then determine if these programs were successful.
    While deployment of broadband to all Americans is 
important, we should not be spending taxpayer dollars 
installing 1990's technology in rural areas that barely 
qualifies as broadband.
    Finally, I believe the Department of Agriculture's budget 
presents opportunities to make cuts and save taxpayers money. 
There is little need to fund both the Market Access Program and 
the Foreign Market Cooperator Program independently. Additional 
funding from the Administration's Export Promotion Initiative 
further enhances the expediency of cutting a redundant program 
and streamlining our government's efforts in growing our export 
markets.
    The elimination of commodity storage payments and for 
peanuts and cotton is another example of cutting outdated 
special interests. Though they once may have been necessary, 
eliminating this program ends another niche government expense 
that has outlived its need.
    We must continue to look for opportunities to cut spending 
and use these savings to invest in targeted job creation.
    Thank you, Madam Chair for this opportunity.
    [The prepared statement of Gary Peters follows:]

Prepared Statement of Hon. Gary C. Peters, a Representative in Congress 
                       From the State of Michigan

    Mr. Chairman, Thank you for the opportunity to testify today. While 
I believe the Recovery Act and other measures were necessary to prevent 
the economic downturn of 2008 from escalating to another Great 
Depression, we must now confront a growing problem that could prevent 
us from being able to respond to a future crisis, economic or 
otherwise, and that is our budget deficit and growing national debt. I 
believe that fiscal restraint should not be a partisan issue, and that 
we must work together to find every opportunity to slash spending and 
forge a path toward a balanced budget and a shrinking national debt.
    While the need to control spending and reign in budget deficits is 
undeniably urgent, the reality remains that far too many of our 
friends, family, and neighbors are still looking for work. Any new 
investments should focus squarely on job creation, and be paid for 
through cuts to outdated or wasteful programs. Investments that 
particularly target our manufacturing sector will be especially 
critical, as a healthy manufacturing base is necessary to ensuring the 
security and prosperity of the American middle class and vital to our 
overall economic recovery.
    I was pleased to see the President is proposing a $5 million 
increase for the Manufacturing Extension Partnership. The Manufacturing 
Extension Partnership is a national program credited with creating and 
retaining over 55,000 jobs per year in the manufacturing industry, 
delivering $1.44 billion in cost savings annually, and $10.5 billion in 
increased or retained sales in one year.
    Additionally, I am heartened to see the Administration's focus on 
boosting exports to help fuel economic growth of manufacturers and our 
economy as a whole. The 20% increase in the budget for the Commerce 
Department's International Trade Administration will help promote 
exports from small businesses, eliminate barriers to sales of U.S. 
products, and improve the competitiveness of U.S. firms. The budget 
also makes important investments in the Export-Import Bank to expand 
U.S. small business use of the Bank's financial export assistance.
    I am also pleased the administration has provided for an increase 
in advanced vehicle technologies. The President requested $325M for the 
Advanced Vehicle Technologies Program--a $13M increase over FY10 
funding. The State of Michigan, the domestic auto manufacturers, and 
many other companies in the state and across the country are investing 
heavily in new technologies that will help renew our manufacturing 
sector and auto industry, and I am pleased that determination is 
beginning to be matched at the federal level to achieve the 
technological change being demanded.
    As our economy continues to recover, we must ensure all Americans 
will have the opportunity to pursue newly created jobs. I believe that 
the high price of child care is a significant roadblock to employment. 
This is why I introduced legislation last year that would increase the 
Dependent Care Tax Credit, thereby making child care more affordable 
for millions of American families. I am encouraged that the President 
has proposed expanding the Dependant Care Tax Credit, which would 
increase tax relief for child care from $1,200 to $2,100 for middle-
class families.
    However, while I believe smart investments in targeted areas can be 
part of a responsible budget strategy, we need to go beyond the 
reductions in the President's budget and make larger cuts in certain 
areas.
    For example, the President's budget includes increases in the 
weatherization and intergovernmental activities program. The 
Weatherization Assistance Program was funded in the Recovery Act, but 
progress has been unexpectedly slow due to delays in establishing 
prevailing wage rates for cities to perform the work. Michigan had only 
completed weatherization of 1.15% of its planned units as of the 
program's one year anniversary. Given this fact, I question if an 
additional $90 million is really needed to support administrative costs 
at the federal Weatherization office.
    There was also over $7 billion in funding in the Recovery Act for 
deployment of broadband technology through the Department of 
Agriculture's Rural Utilities Service (RUS) and the Department of 
Commerce's National Telecommunications Information Administration 
(NTIA). While these agencies will be distributing billions in broadband 
funding in the coming year, the FY 2011 budget adds $418 million for 
new loans and grants for rural communities. Before spending almost half 
of a billion in new broadband funding, I believe that we should 
complete distribution of funding under the Recovery Act and determine 
if these programs were successful. While deployment of broadband to all 
Americans is important, we should not be spending taxpayer dollars 
installing 1990's technology in rural areas that barely qualifies as 
broadband.
    Finally, I believe the Department of Agriculture's budget presents 
opportunities to make cuts and save taxpayers money. There is little 
need to fund both the Market Access Program and the Foreign Market 
Cooperator Program independently. Additional funding from the 
Administration's Export Promotion Initiative further enhances the 
expediency of cutting a redundant program and streamlining our 
government's efforts in growing our export markets.
    The elimination of Commodity Storage Payments for peanuts and 
cotton is another example of cutting outdated special interests. Though 
they once may have been necessary, eliminating this program ends 
another niche government expense that has outlived its need.
    We must continue to look for opportunities to cut spending and use 
these savings to invest in targeted job creation. Thank you, Mr. 
Chairman.

    Ms. Kaptur. Congressman Peters, I want to thank you for 
your excellent testimony and for coming here today to give a 
very balanced statement. I know you are a new member, and for a 
new member to find the Budget Committee and to provide such 
comprehensive testimony is truly admirable and a sign of the 
good work that you are doing for your district in the State of 
Michigan as its representative here in Washington.
    We will place your entire statement in the record, and we 
will take care to note its recommendations as we move forward 
with the new budget, and we thank you so very much for being a 
part of the testimony today.
    Mr. Peters. Thank you, Madam Chair.
    Ms. Kaptur. Thank you for taking the time and making such 
as excellent effort.
    I would like to know say that the committee is now 
adjourned. We thank everyone for participating.
    [The prepared statement of Hon. Russ Carnahan, a 
Representative in Congress from the State of Missouri, 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [The prepared statement of John Lewis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Melissa L. Bean follows:]

    Prepared Statement of Hon. Melissa L. Bean, a Representative in 
                  Congress From the State of Illinois

    Chairman Spratt and Ranking Member Ryan, thank you for the 
opportunity to submit testimony today on the Fiscal Year 2011 Budget 
Resolution. As a non-committee member, I particularly appreciate this 
open forum for new ideas and the ability to weigh in on this critical 
framework for our national spending priorities.
    Today, our nation is faced with economic challenges not seen in 
decades. Our recent efforts to combat this recession include both short 
and long-term investments that support sustainable growth. As a result 
the deficit for last fiscal year represented 10.6 percent of our 
nation's GDP; this year's projected deficit is 8.3 percent; and 
deficits continue to be expected for many years to come. In the short 
term, we know our budget deficit stems from a significant decrease in 
revenues combined with Recovery Act tax cuts and investments all 
related to the recession. However, according to projections, outlays 
will continue to outpace revenues over the mid-term and long-term, even 
after the economy has recovered.
    This path is unsustainable, and this Congress must begin making the 
difficult decisions required to put our fiscal state back on track. In 
this light, I would like to express my support for the President's 
three year freeze on non-security discretionary spending, as well as 
the $23 billion in savings he has identified through terminations, 
reductions, and savings. Since coming to Congress, I have routinely 
supported across-the-board cuts to non-security discretionary spending 
as a first step toward bringing our fiscal house in order. However, 
focusing on this small sector of the budget isn't enough; significantly 
more cuts are needed. Our budgetary situation is so challenging that 
even if we cut all discretionary spending--meaning we disband the 
military; stop all infrastructure projects; stop testing drugs, food 
and toys for safety; ground all airplanes; stop patrolling the border; 
end support for higher education in the form of direct loans or special 
needs assistance; and allow dire consequences to occur--even if we did 
that, our nation would still be facing a deficit!
    If we are to truly address this fiscal crisis, we must reform our 
entitlement programs which is why I am a strong supporter, and original 
cosponsor, of H.R. 1557, The SAFE Commission Act, championed by 
Representative Jim Cooper. This bipartisan commission would be 
responsible for taking an honest look at our entitlement programs and 
developing concrete legislative proposals for fixing a broken system. 
The bill would then require Congress to vote up or down on the 
recommendations. Until Congress is ready to tackle these greatly needed 
reforms, and takes such difficult votes instead of running from them, 
we cannot expect to restore our nation's deteriorating fiscal 
credibility.
    Again, I appreciate the opportunity to voice my concerns about the 
important work before us. There is much work to be done. I look forward 
to working with my colleagues on both sides of the aisle to address the 
budget challenges we face as a nation. Americans are counting on us to 
fulfill our responsibility in this regard. Thank you.

    [The prepared statement of Vernon J. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Thank you, Mr. Chairman, for the opportunity to testify as the 
Committee considers a fiscal year 2011 Budget Resolution.
    As you begin the budget process, I strongly urge you to give high 
priority to scientific research and development and math and science 
education in the General Space, Science and Technology function (250) 
of the budget. I will focus my comments on two areas covered under this 
function: the National Science Foundation and the Department of 
Energy's science programs. I will also address the science and 
technology portion of the Commerce account within function (370).
    I am pleased that the President's fiscal year 2011 budget request 
provides substantial funding levels for the National Science Foundation 
(NSF), the Department of Commerce's National Institute of Standards and 
Technology (NIST), and the Department of Energy's Office of Science.
    Starting in 2006, the Congress and Administration jointly committed 
themselves to ``doubling the basic science research budget.'' Though 
the fiscal year requests have included the establishment of a doubling 
track for the NSF, NIST's laboratories and research, and the Department 
of Energy's Office of Science, Congress has been unable to set the 
final doubling numbers into law. This year, I ask that the President's 
request for science be granted, starting with the preparation of the 
House budget allocations for Function 250 and Function 370.
                               background
    On a bipartisan basis, Congress has recognized that innovation is 
critical to our national competitiveness and that scientific research 
and development is the key to increased innovation, economic vitality 
and national security. I am very appreciative that this committee has 
been historically supportive of this goal.
    Since the passage of the America COMPETES Act, Congress has 
struggled to fully fund the authorized funding levels for the COMPETES 
agencies. We must commit to steady and sustained growth in research 
budgets and work within the annual budget and appropriations process to 
maintain a consistent and predictably strong funding pathway for these 
agencies.
    To elucidate the importance of science and technology funding, I 
would like to talk about our economic competitiveness, and articulate 
how the DOE Office of Science, NSF, and NIST are addressing this issue.
                department of energy's office of science
    Our country faces a number of challenges related to energy supply, 
development, and sustainability. The Department of Energy's Office of 
Science funds 40 percent of all federal basic research investments in 
the physical sciences as well as 14 percent of investments in 
mathematics and computing, environmental sciences, and engineering. 
Research in these areas has led to many new economic and medical 
advancements including, among others, new energy sources, the Internet, 
cell phones and laser surgery. To overcome our substantial energy 
challenges, the federal government must continue to support research in 
alternative energy sources, nanotechnology and supercomputing.
    The Office of Science is not only important to the future of U.S. 
science, but also to our competitiveness and energy security. I 
respectfully request that the Committee provide the Office of Science 
with a budget that reflects the critical role that it plays in 
maintaining our economic and military pre-eminence.
                      national science foundation
    The National Science Foundation (NSF) is the only federal agency 
dedicated solely to supporting basic scientific research and education. 
NSF funding accounts for one-fifth of all federal support for basic 
research and 40 percent of physical science research at academic 
institutions. Nearly 90 percent of these awards are made through a 
competitive, merit-review process that ensures that excellent and 
innovative research is being supported. Furthermore, NSF consistently 
receives the highest rating from OMB for the efficiency and excellence 
of its programs.
    The Administration's FY 2011 budget request for NSF of $7.4 billion 
is a 7.5 percent increase over FY 2010 appropriations. Providing a 
budget that allows for the President's requested level of NSF funding 
is extremely necessary for FY 2011 and I ask you to enhance the 
function 250 allocation accordingly.
             national institute of standards and technology
    The National Institute of Standards and Technology (NIST) is the 
nation's oldest federal laboratory, and the only laboratory with the 
explicitly-stated mission to promote U.S. innovation and industrial 
competitiveness. NIST provides high-quality, cutting-edge research in a 
number of scientific and technical fields, and it plays a critical role 
in keeping our nation competitive. Since 1997, NIST researchers have 
been awarded three Nobel Prizes, demonstrating the high-quality work 
this agency is supporting.
    Perhaps no other group has been impacted as greatly by the current 
economic recession than the small and medium-sized manufacturers in our 
nation. The Hollings Manufacturing Extension Partnership (MEP) program 
helps small and medium-sized manufacturers stay competitive by helping 
them become more innovative, and the Technology Innovation Program 
(TIP) is NIST's only external research grant program, funding high-
risk, high-return technology research and development focused on 
national priorities. Both of these programs run on an efficient cost-
shared basis with industry. Without a doubt, these two programs provide 
invaluable assistance to the sectors of our economy that are currently 
fighting to stay competitive in the global economy.
    The President's FY2011 budget includes $130 million for the 
Hollings Manufacturing Extension Partnership Program and $80 million 
for the Technology Innovation Program. Given our current economic 
situation, I am concerned that many states and other partners in these 
programs will struggle to match the federal funds required to 
participate in the MEP program, and therefore I ask that the committee 
work to improve the allocation for the science and technology portion 
of function 370 accordingly. Both the MEP and TIP have historically had 
strong, bipartisan Congressional support, and I respectfully ask that 
this support be reflected in the Budget Committee's recommendations.
                               conclusion
    Thank you in advance for your efforts to undertake this important 
job. I believe that you can send a strong signal about the importance 
of fundamental science and education to the Appropriations Committee by 
making function 250 and the science and technology portion of function 
370 top priorities in the FY 2011 budget.
    Thank you again for allowing me to testify.

    [The prepared statement of Marcia L. Fudge follows:]

    Prepared Statement of Hon. Marcia L. Fudge, a Representative in 
                    Congress From the State of Ohio

    Thank you, Chairman Spratt and Ranking Member Ryan, for allowing me 
to address the urgent funding needs of the Eleventh Congressional 
District of Ohio.
                          workforce investment
    Cuyahoga County in Northeast Ohio has been hit hard by the current 
Great Recession. While the Department of Labor lists our unemployment 
rate at 9 percent, it doesn't include the chronically unemployed. When 
you take into account this group of constituents, my county actually 
faces 18-20 percent unemployment which is devastating. I strongly 
support increased funding for programs under the Workforce Investment 
Act that will not only assist dislocated workers but are designed to 
serve the chronically unemployed, the hard-to-serve, and individuals 
with multiple barriers to successful employment. These barriers 
included such things as felony convictions, job dislocation, chronic 
unemployment and lack of soft skills and other inhibitors to job 
success. I applaud the President's budget request of additional career 
development and job training funding, but we need more workforce 
dollars applied to programs that have models of serving the chronically 
unemployed. Specifically, we need more dollars for programs like the 
Pathways to Green Jobs initiative that serves the chronically 
unemployed in my District. This 350 hour curriculum includes remedial 
math and English, technical skills and soft-skills to help the 
chronically unemployed have a real path to employment. I submit to this 
Committee that we can and must provide targeted investments for 
chronically unemployed. Otherwise, we give up on America's economic 
advancement.
                                housing
    Congress must also continue its fight against foreclosures which 
devastate our communities. I applaud the President's announcement of 
the $1.5 billion ``innovation fund'' that supports ``states hardest hit 
by this housing crisis'' in creating tailored foreclosure mitigation 
plans. But I ask: Why was Ohio excluded from the list of recipients?
    Long before the federal government recognized the foreclosure 
crisis, Ohio grappled with escalating foreclosure rates resulting in 
displaced families, blighted communities, and low property values. Long 
before foreclosures became ``hot news'' in the media, Ohio wrestled 
with predatory lending and lax regulatory oversight. And while our 
fight against foreclosure continues, we have been ravaged by this 
epidemic. We were excluded from this program because recipients were 
not selected by foreclosure intensity rather more recent trends in 
foreclosure numbers. Selection was contingent upon more recent 
declining home values over 20 percent which really does not help a 
long-suffering state like Ohio. which has been long-suffering. Because 
of the selection criteria, states like Ohio have once again been 
penalized.
    I urge the Administration to reassess program criteria to include 
Ohio and other similarly excluded states. I challenge this committee to 
ensure that foreclosure related funding is included in the budget and 
truly helps all of the hardest hit states.
                     small business administration
    I fully support President Obama's budget request for $28 billion in 
loan guarantees for small business to create jobs. We all know that 
small businesses spur local and regional economic development. With 
this assistance, small businesses can continue to operate and expand.
    I strongly support the President's $25 million microloan fund which 
provides smaller loans to entrepreneurs excluded from traditional 
business loans. The maximum microloan amount will be increased to 
$50,000. These funds will help businesses make investments in 
information technology and employees.
    Another initiative that will enhance small business participation 
in regional economic development. This includes technical assistance to 
companies with growth potential which are located in distressed inner 
city areas. Connecting these companies to other regional businesses 
will help facilitate growth and revitalize our communities.
                           childhood obesity
    The budget request has a wonderful and appropriate focus on 
childhood nutrition. As is the case with many of my colleagues who 
represent urban areas, I am concerned about the disproportionate impact 
of childhood obesity in low-income communities.
    U.S. health care costs, due to obesity, are $150 billion a year. 
Half of this amount is paid through Medicaid and Medicare. With nearly 
$1 of every $6 of our economy spent on health care, we cannot afford to 
sell junk food or unhealthy meals in schools. Meals must meet national 
nutrition guidelines. Many children in my District depend on food 
served in schools. I am not willing to gamble with their health by 
serving unhealthy foods. Removing these foods from our schools is a 
low-cost way to address the high-cost of obesity.
    Money should be used for childhood nutrition and programs that make 
healthy food accessible for children who live in food deserts. Food 
deserts are places where few supermarkets exist that sell fresh fruits 
and vegetables and small corner stores selling unhealthy foods and 
heavily advertise alcoholic beverages are plentiful. Programs that get 
kids moving and encourage a healthy lifestyle are extremely important. 
The National Youth Sports Program is an example a program that promotes 
healthy living for children. We need to support such programs.
               community development block grants (cdbg)
    As the former mayor of Warrensville Heights, Ohio and on behalf of 
local leaders in general, I want to focus on the administration's full 
funding of Community Development Block Grants. The fiscal year 2011 
budget provides $3.9 billion to fund this program. As legislators, our 
number one priority is economic development. To accomplish this, we 
must support programs that help improve and grow our economy. 
Historically, for every $1 of funding through CDBG, nearly $3 is 
leveraged for economic development projects. When a city needs a 
grocery store or more affordable housing, this block grant funding 
meets those needs. This is one of the few programs directly funding the 
locality. It does not get tied up in state government or federal 
affairs. The money immediately goes to the areas where local leaders 
can help expand economic opportunities for their citizens. For that 
reason, we need more funding for CDBG.
    In Cleveland, Community Development Block Grant dollars have gone 
to assist our Housing Trust Fund. Every dollar leverages five dollars 
of private investment. In 2008, Housing Trust Fund dollars were 
committed to projects that supported nearly 700 energy efficient 
housing units.
    Community Development Block Grants will also support Housing 
Services for low to moderate income families. These funds are a 
critical source of assistance for seniors and low income families 
needing home repairs. This year, over $2.2 million is expected to be 
used for home repair assistance from CDBG funds.
    This grant will also help community based organizations. 
Approximately $8 million supports a network of organizations providing 
housing services, neighborhood safety programs, and community outreach.
    Chairman Spratt and Mr. Ryan, thank you again for this opportunity. 
I trust you will keep Ohioans of the Eleventh Congressional District 
and all Americans in mind as you carefully craft our Nation's fiscal 
year 2011 budget.

    [The prepared statement of Phil Hare follows:]

Prepared Statement of Hon. Phil Hare, a Representative in Congress From 
                         the State of Illinois

    Chairman Spratt, Ranking Member Ryan, and Members of the House 
Committee on the Budget, thank you for allowing me this opportunity. I 
appreciate being able to express some of the concerns and priorities of 
my constituents in West Central Illinois.
    As a member of the House Transportation and Infrastructure 
Committee I have chosen to limit my remarks today to the topics that 
fall under that purview. I appeared before this committee in March of 
2009 and stressed the need for a budget resolution that reflected a 
``jobs'' focus, most notably one with a strong infrastructure 
influence. I again echo this sentiment and believe that infrastructure 
investment is by far one of the best job creators and economic growth 
engines. The American Reinvestment and Recovery Act (ARRA) of 2009 was 
a landmark investment in repairing our economy that was largely 
forgotten by the last Administration. But now, however, the Budget 
Committee has a genuine opportunity to craft a budget which reflects 
the number one priority of the 111th Congress, the President, and the 
American people: jobs. I firmly believe that investing heavily in 
infrastructure is the most effective way to put Americans back to work 
and protect families in every corner of this nation.
    As we all know, the President's budget is merely a blueprint for 
Congress; simply a list of priorities by the Administration for the 
fiscal year to come. While I applaud the President's bold leadership 
over the course of the first year of his term, I question the federal 
funding proposed for highway projects. One critical aspect, which 
immediately caught my eye is that the President's budget zeroes out 
Surface Transportation Priority Projects. In almost all of our 
congressional districts we are faced with crumbling infrastructure, all 
of which affects commuters, pedestrians, businesses; almost every 
aspect of our economy. In my district--where the intersection of heavy 
trucking, passenger rail, and interstate commerce meets the Midwest's 
extreme weather patterns every season--the infrastructure is in need of 
dire attention. The job opportunities to make our roads safer for all 
Americans using transportation all begin at the first phase of becoming 
a reality: the federal budget. The economy has shown signs of life as 
far as recovering from major damage, but I think we can all agree that 
the economy is far from stabilized. We must tackle the jobs issue head-
on by providing budget funding for the thousands of shovel-ready 
projects currently authorized by Congress. Without a robust 
transportation projects budget for the upcoming year, many of my 
constituents will not have an adequate family budget. In the Department 
of Transportation's Fiscal Year 2011 Budget Summary, Transportation 
Secretary Ray LaHood states, ``We will invest in our Nation's 
infrastructure--creating jobs in support of the economy while 
delivering projects that can best leverage our federal investment.'' I 
could not agree with this statement more. Now is the time to put our 
money where our mouth is and put the unemployed back on the job site.
    The President's budget blueprint proposes $1 billion to continue 
our nation's pursuit of high-speed rail service. While the Recovery Act 
provided a major boost to our infrastructure-building sector, the 
President's budget is not consistent with the Administration's own 
``Vision for High-Speed Rail in America'' plan. I understand that we 
are all tightening our belts and using fiscal restraint for unwarranted 
spending wherever possible, but the benefits of investing in rail 
improvements and expansion are worth the taxpayers' dollars in the long 
run. High-speed rail creates good-paying jobs, creates less greenhouse 
gas emissions compared to individual vehicles on the road, bypasses 
traffic jams, increases travel and tourism possibilities, and creates 
economic development opportunities at every stop on the route. In my 
district, there is a large demand for both passenger rail and high-
speed rail by constituents, state and local officials, and businesses.
    Another critical issue for my constituents is adequate funding for 
flood control and water resource management projects along the 
Mississippi River. Billions of dollars in commercial goods are 
transported along the Mississippi River and our failure to adequately 
invest in our waterway infrastructure has been harmful to the economic 
prosperity of my district. The entire western border of my district 
rests on the Mississippi River, and the existing infrastructure 
operated by the Army Corps of Engineers is literally crumbling. A 
robust increase in spending for the Corps' many projects is badly 
needed. As you know, the Water Resources Development Act, WRDA, was 
last enacted in the 110th Congress and contained thousands of the 
Corps' projects. From dredging to levee repairs to lock and dam 
improvements to flood control, I humbly ask that the Fiscal Year 2011 
Budget Resolution adequately fund the waterways projects currently 
authorized by Congress. The residents of Keithsburg or Gulfport, two 
towns in my district, which were completed wiped out by recent 
Mississippi River flooding know all too well the importance of waterway 
infrastructure projects and I ask this Committee to also acknowledge 
the importance of these investments as well.
    Again, let me thank Chairman Spratt and Ranking Member Ryan for the 
opportunity to express the concerns and priorities of the residents of 
Illinois' 17th Congressional District. I greatly appreciate this 
opportunity and look forward to working with this Committee to advance 
a responsible Budget that adequately prepares this nation for the 
future while addressing the challenges we currently face.
    Thank you.

    [The prepared statement of Sheila Jackson-Lee follows:]

  Prepared Statement of Hon. Sheila Jackson-Lee, a Representative in 
                    Congress From the State of Texas

                                  nasa
    Mr. Chairman, I have concerns about the Administration's proposal 
to cancel NASA's Constellation Program, which includes the Orion Crew 
Capsule, the Altair Lunar Lander, and the Ares I and Ares V rockets.
    These programs, which together comprise our human spaceflight 
program, were authorized in both 2005 and 2008 by Republican and 
Democratic Congresses respectively. It is under the Constellation 
program, that NASA is currently developing new launch vehicles and 
spacecraft capable of travel to the moon, Mars and other destinations. 
Not only does cancelling the Constellation Program jeopardize America's 
leadership role in human space exploration, but it will have 
detrimental effects on our economy.
    Take, for example, the Johnson Space Center in Houston, Texas. The 
Johnson Space Center has the lead to manage the Constellation Program 
and several of its major elements, including the Orion Crew Exploration 
Vehicle and the Altair Lunar Lander.
    Without Constellation, the Johnson Space Center could lose anywhere 
from 4,000 to 7,000 high-tech jobs. If the JSC loses 4,000 direct jobs, 
an additional 2,315 indirect jobs would be lost, totaling 6,315; loss 
of income and expenditures locally would be over $567 million. If the 
JSC loses 7,000 direct jobs, an additional 4,052 indirect jobs would be 
lost, totaling 11,052; loss of income and expenditures locally would 
total almost $1 billion.
    When speaking of the decision to cancel the Constellation Program, 
Administrator Bolden stated that ``NASA intends to work with the 
Congress to make this transition smooth and effective, working 
responsibly on behalf of the Taxpayers.'' To the contrary, I believe 
that the best use of taxpayers' money is to continue the investment in 
NASA to build America's scientific future. That future will create 
jobs. Finally, I would like to reiterate that the present 
Administration's plan for the Constellation Program would cause drastic 
job loss across America and would place America in a behind the edge 
position as it relates to competitiveness in scientific research.
    NASA and the space industry are critical to Houston's economic 
success in both the short and long term. According to the Bay Area 
Houston Economic Partnership, NASA accounts for nearly 16,800 direct 
federal jobs and serves as the engine for another 3,100 civilian jobs 
that together supply more than $2.5 billion in payroll into Houston's 
regional economy. As you are aware, the Johnson Space Center is the 
primary location for training Astronauts for spaceflights and this 
move; yet, the proposed budget will effectively cancel America's human 
spaceflight program.
    In his statement announcing NASA's budget, Administrator Bolden 
stressed that changes in the FY 2011 budget would be ``good for NASA, 
great for the American workforce, and essential for our nation's future 
prosperity.'' While I seek the same objectives, I strongly disagree 
with the closing of this project and I believe it will hurt America's 
scientific progress.
    Additionally, the aerospace industry would lose as many as 20,000--
30,000 jobs nationally in either of these scenarios.
    Given our current economic downturn, we cannot take the possibility 
of these job losses lightly and the Johnson Space Center is just one 
example of what the cancellation of this program would do to other NASA 
centers nationally.
    Finally, it will take years for the commercial spaceflight industry 
to get up to speed to reach the level of competence that exists at NASA 
today. Our government has already invested literally years and billions 
of dollars into this program. We should build upon these investments 
and not abandon them. Our country can support the commercial 
spaceflight industry, but not at the expense of our human spaceflight 
program, which for years has inspired future generations and driven 
technology that enhances our quality of life.
    That is why it is my hope, Mr. Chairman, this Committee and this 
Congress will continue to support NASA's Constellation Program and to 
support balanced energy policies that promote economic growth and will 
help us meet our clean energy goals.
    Thank you.

    [The prepared statement of Bennie G. Thompson follows:]

  Prepared Statement of Hon. Bennie G. Thompson, a Representative in 
                 Congress From the State of Mississippi

    Chairman Spratt, Ranking Member Ryan, and Members of the Committee, 
thank you for the opportunity to testify on the budget priorities for 
Fiscal Year (FY) 2011. As Chairman of the Committee on Homeland 
Security, I would like to focus my remarks on the Department of 
Homeland Security's FY 2011 Budget Request.
    On February 1, 2010, President Barack Obama requested just over $56 
billion for the Department of Homeland Security (Department or DHS) as 
a part of his FY 2011 budget request. Overall, under the President's 
proposal, the Department's budget is slated to increase by about 2% 
over last year's enacted funding level. Given the current fiscal 
environment, the President is to be commended for showing an ongoing 
commitment in enhancing our Nation's preparedness, response, and 
recovery capabilities.
    The Department's missions--both homeland security and non-homeland 
security--require a budget request that is far-reaching and that 
necessarily addresses:
    <bullet> the security of Americans who travel by air, rail, and 
sea;
    <bullet> the capacity of communities to be prepared for and respond 
to terrorism and other hazards; and
    <bullet> the ability of operators of critical infrastructure and 
DHS to find innovative approaches to foster resiliency in the face of 
an ever-evolving terrorist threat.
    In general terms, I support the President's overall budget request 
for the Department as it provides the operational resources to DHS to 
execute the five (5) homeland security missions that were identified in 
the first-ever Quadrennial Homeland Security Review (QHSR) that the 
Secretary of Homeland Security Janet Napolitano transmitted to Congress 
on February 1, 2010. In addition to supporting the Department's non-
homeland security missions, the budget is focused on funding activities 
that support the following five homeland security mission areas: (1) 
preventing terrorism and enhancing security; (2) securing and managing 
our borders; (3) enforcing and administering our immigration laws; (4) 
safeguarding and securing cyberspace; and (5) ensuring resilience to 
disasters. A budget request based on this conceptualization of homeland 
security is a step in the right direction as the Congress considers 
next year's funding for the Department.
    In reviewing this budget request, I am pleased to see Secretary 
Napolitano tackle the issue of over-reliance on contractors at the 
Department in an effort to develop a balanced workforce. Since its 
inception in 2003, contractor-dependence has stood in the way of the 
Department becoming the Federal agency that the Congress envisioned and 
what the American people deserve. The Secretary is to be commended for 
taking on this challenge that for so many years went unaddressed by her 
predecessors and for setting a goal of converting 3,300 contractor 
positions to departmental positions by the end of this year. While this 
is a step in the right direction, a great deal more work will need to 
be done to achieve a balanced workforce insofar as the Department 
relies on approximately 200,000 contractors to operate. This figure is 
roughly half of all the personnel that work at DHS.
    While I support the substance presented in the majority of this 
budget request, I do have some concerns about certain proposals.
    First, while I understand that reducing personnel at the U.S. 
Border Patrol and U.S. Coast Guard will bring short-term savings to the 
Department, I am concerned about the approach taken to achieve these 
savings. Reduction-in-force activities may result in loss of years in 
knowledge and experience. This, in turn, may result in a reduction of 
the Department's resources and capabilities to fulfill all its 
missions.
    Second, I am also greatly concerned that the budget seeks to 
consolidate a number of important free-standing grant programs into the 
State Homeland Security Grant Program. I worry that this consolidation 
will make it more difficult for local communities to receive much-
needed funding. It also troubles me that for the second year in a row, 
the budget decreases funding for the Assistance to Firefighters (FIRE) 
and SAFER grant programs. These cuts could not come at a worse time 
insofar as State and local communities are struggling financially to 
maintain the capability gains that have been achieved in recent years.
    Third, I am particularly disappointed the Centers of Excellence and 
other University Programs--including the Minority Serving Institutions 
program--that have been in place since DHS was established, would be 
cut by nearly 20% under this budget. I strongly believe that these 
programs are the breeding grounds for the next generation of homeland 
security leaders and experts.
    Before I conclude, I would like to bring to your attention one 
operational area in the budget that I believe deserves particular 
attention--international maritime cargo screening. I find it 
incredulous that this budget seeks to decrease funding for 
international cargo screening programs by almost 48%. It is hard to 
believe that the resources for this operational area, which were short-
shrifted by the previous Administration, are being further downscaled 
under this budget. As you know, under the Implementing Recommendations 
of the 9/11 Commission Act, the Department is responsible for ensuring 
that 100% of cargo that enters into the United States is scanned.
    In addition to the areas I highlighted, I urge this Committee to 
provide adequate resources to the Department of Homeland Security for 
FY 2011 to promote management and oversight of this diverse agency, 
fulfill all its missions, and support activities in the following 
areas:
    <bullet> aviation and surface transportation security;
    <bullet> maritime security;
    <bullet> emergency management;
    <bullet> infrastructure protection;
    <bullet> intelligence and information sharing;
    <bullet> science and technology;
    <bullet> bio-preparedness; and
    <bullet> nuclear detection.
    In closing, I appreciate the opportunity to share my views on the 
President's Budget Request and I look forward to working with you to 
ensure that the Department has the resources it needs. Thank you.

    [Whereupon, at 3:12 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
